   April 1, 2002
         to
September 30, 2002




                     Office of Inspector General
                     Semiannual Report to Congress
                                                FOREWORD




I am pleased to submit the semiannual report on the activities of the Department of
Veterans Affairs (VA), Office of Inspector General (OIG) for the period ended
September 30, 2002. This report is issued in accordance with the provisions of the
Inspector General Act of 1978, as amended. The OIG is dedicated to helping ensure
that veterans and their families receive the care, support, and recognition they have
earned through service to our country.

OIG oversight of VA programs resulted in systemic improvements and increased
efficiencies in areas of medical care, benefits administration, procurement, financial
management, information technology, and facilities management. OIG audits,
investigations, and other reviews identified $297.9 million in monetary benefits, for an
OIG return on investment of $11 for every dollar expended.

Our criminal investigators concluded 375 investigations involving fraud or other criminal
conduct in VA’s programs and operations. During the semiannual period, special
agents effected 237 arrests, and investigations led to over $70 million in monetary
benefits to VA (recoveries or savings). Our most significant investigation led to an
indictment charging a former Veterans Health Admistration (VHA) nurse with ten counts
of first degree murder. The indictment charged that the nurse caused the death of ten
veteran patients by administering a lethal dose of a paralytic muscle relaxant identified
as succinylcholine. In the Philippines, a team of OIG employees conducted a proactive
investigative review related to suspected fraud associated with individuals receiving VA
benefits. These efforts resulted in the proposed termination from VA benefit rolls of
almost 600 payees, with a projected 5-year cost savings of over $21 million. To date,
this investigation has led to the arrest of 15 defendants. Our Atlanta investigation of an
$11 million embezzlement by a Veterans Benefits Administration employee resulted in
the arrest and conviction of 12 defendants.

Our audit oversight of VA, the second largest Department in the Federal Government,
focused on determining how programs can work better, while improving service to
veterans and their families. Our audit of veterans benefits payments involving
unreimbursed medical expense claims found that processing errors and potential fraud
results in annual beneficiary overpayments of as much as $125 million and
underpayments totaling as much as $20 million. An audit of VA medical center
management of miscellaneous supply inventories presented opportunities to reduce
miscellaneous supplies by over 77 percent or about $54 million. Also, an audit of VA
Consolidated Mail Outpatient Pharmacies inventories presented opportunities to reduce
excess inventories by about 45 percent or $29 million.

Our healthcare inspectors focused on quality of care issues in VA, which operates the
largest healthcare system in the United States. Inspectors visited a number of facilities to
respond to congressional and other special requests concerning healthcare-related
matters. We also completed two summary evaluation reports that should assist VHA
managers in improving controls and procedures for managing patients who have acute
and chronic pain. In one evaluation, we found that the quality of care in VHA mental
health programs could be improved if there were more consistency among providers in
managing long-term narcotics prescriptions for patients who have pain. In a second
evaluation, we found that VHA has made significant strides in implementing its pain
management initiative; however, facility compliance varied from site to site. In addition,
our inspectors completed 20 additional reports and reviewed 69 patient care and
services issues brought to our attention. Inspectors found instances where clinicians
had not met the standards of care, patients were not treated satisfactorily, and safety
procedures designed to protect patients were not followed. Our inspectors also
oversaw VHA directors’ efforts to address allegations of poor care and services, and
they provided clinical consultative support to investigators on six criminal cases. In
addition, inspectors provided oversight of the work conducted by VHA’s Office of the
Medical Inspector.

The OIG’s ongoing Combined Assessment Program (CAP) evaluated the quality,
efficiency, and effectiveness of VA facilities. Through this program, auditors,
investigators, and healthcare inspectors collaborated to assess key operations and
programs at VAMCs and VA regional offices. The 22 CAP reviews completed during
this 6-month reporting period highlighted numerous opportunities for improvement in
quality of care, management controls, and fraud prevention. I am committed to
extending this program to enable more frequent oversight of VA activities.

I look forward to continued partnership with the Secretary and the Congress in pursuit
of world-class service for our Nation’s veterans.




RICHARD J. GRIFFIN
Inspector General
                                                      TABLE OF CONTENTS


                                                                                                                                                                 Page

HIGHLIGHTS OF OIG OPERATIONS .................................................................................................                                     i

VA AND OIG MISSION, ORGANIZATION, AND RESOURCES ..........................................................                                                         1

COMBINED ASSESSMENT PROGRAM .............................................................................................                                          7

OFFICE OF INVESTIGATIONS

     Mission Statement ......................................................................................................................                     15

     Resources ..................................................................................................................................                 15

     Criminal Investigations Division .................................................................................................                           15

             Veterans Health Administration .....................................................................................                                 16

             Veterans Benefits Administration ..................................................................................                                  21

             Fugitive Felon Program ................................................................................................                              25

             OIG Forensic Documents Laboratory ............................................................................                                       26

     Administrative Investigations Division .......................................................................................                               27

             Veterans Health Administration .....................................................................................                                 27

OFFICE OF AUDIT
     Mission Statement ......................................................................................................................                     29

     Resources ..................................................................................................................................                 29

     Overall Performance ..................................................................................................................                       29

             Veterans Health Administration .....................................................................................                                 30

             Veterans Benefits Administration ..................................................................................                                  32

             Office of Management ..................................................................................................                              33

OFFICE OF HEALTHCARE INSPECTIONS

     Mission Statement ......................................................................................................................                     35

     Resources ..................................................................................................................................                 35

     Overall Performance ..................................................................................................................                       35

            Veterans Health Administration .......................................................................................                                36

OFFICE OF MANAGEMENT AND ADMINISTRATION

     Mission Statement ......................................................................................................................                     49

     Resources ..................................................................................................................................                 49

     Hotline Division ..........................................................................................................................                  50

             Veterans Health Administration .....................................................................................                                 50

             Veterans Benefits Administration ..................................................................................                                  56

             National Cemetery Administration .................................................................................                                   57

     Operational Support Division .....................................................................................................                           57

     Status of OIG Reports Unimplemented for Over 3 Years ..........................................................                                              58

             Veterans Health Administration .....................................................................................                                 59

     Information Technology and Data Analysis Division ..................................................................                                         61

     Financial and Administrative Support Division ..........................................................................                                     65

     Human Resources Management Division ..................................................................................                                       66

OTHER SIGNIFICANT OIG ACTIVITIES

     President’s Council on Integrity and Efficiency ..........................................................................                                   67

     OIG Management Presentations ................................................................................................                                67

     Awards .......................................................................................................................................               69

     OIG Congressional Testimony ...................................................................................................                              69


APPENDIX A -           REVIEWS BY OIG STAFF ..........................................................................................                            71

APPENDIX B -           INSPECTOR GENERAL ACT REPORTING REQUIREMENTS ................................                                                              81

APPENDIX C -           OIG OPERATIONS PHONE LIST ..............................................................................                                   85

APPENDIX D -           GLOSSARY ..............................................................................................................................    87

               HIGHLIGHTS OF OIG OPERATIONS


This semiannual report highlights the activities and accomplishments of the Department of Veterans Affairs
(VA) Office of Inspector General (OIG) for the 6-month period ended September 30, 2002. The following
statistical data highlights OIG activities and accomplishments during the reporting period.

                                                                                                  Current 6 Months           FY 2002

                                                                                                   4/1/02 - 9/30/02       10/1/01 - 9/30/02

     DOLLAR IMPACT                                                                                               Dollars in Millions

             Funds Put to Better Use .......................................................... $250.6                        $799.3
             Dollar Recoveries ......................................................................... $8.7                  $35.0
             Fines, Penalties, Restitutions, and Civil Judgments ................... $38.6                                     $43.5

    RETURN ON INVESTMENT
             Dollar Impact ($297.9) / Cost of OIG Operations ($26.0) .......... 11 : 1

             Dollar Impact ($877.8) / Cost of OIG Operations ($54.7) ..........
                                                 16 : 1


    OTHER IMPACT
             Arrests ........................................................................................ 237
              452

             Indictments ................................................................................. 166
                 357

             Convictions................................................................................. 170
                  331

             Administrative Sanctions ........................................................... 278
                          481


    ACTIVITIES

         Reports Issued

           Combined Assessment Program ................................................... 22
                                   34

           Audits ........................................................................................... 17
                26

           Contract Reviews ......................................................................... 29
                        60

           Healthcare Inspections ................................................................. 22
                          37

           Administrative Investigations ....................................................... 5
                              12


         Investigative Cases

            Opened ....................................................................................... 347
                 744

            Closed ......................................................................................... 375
               727


         Healthcare Inspections Activities

           Oversight Reviews...................................................................... 99
                          205

           Consultations ................................................................................ 6
                     12

           Technical Reviews ........................................................................ 28
                        72


         Hotline Activities

           Contacts .................................................................................. 7,916
               15,952
           Cases Opened ............................................................................. 722
                   1,403
           Cases Closed .............................................................................. 746
                  1,522



                                                                            i

OFFICE OF INVESTIGATIONS

Overall Focus

This semiannual period, the Office of Investigations concluded 375 investigations resulting in 336 judicial
actions (indictments and convictions) and over $70 million recovered or saved. Investigative activities resulted
in the arrests of 237 individuals who had committed crimes involving VA programs and operations or on VA
facilities. Many significant cases were investigated; here are some examples.

Veterans Health Administration

A former VA Veterans Health Administration (VHA) nurse was indicted by a grand jury and charged with ten
counts of first degree murder under state statutes. The indictment charges that the nurse, while working at a
VA medical center (VAMC), caused the deaths of ten veteran patients by administering a lethal dose of a
paralytic muscle relaxant identified as succinylcholine. During the investigation, exhumations and autopsies of
patients who had died while at the VAMC were conducted. However, the autopsies and subsequent laboratory
tests failed to identify a manner or means of death. Subsequently, with the advent of new advanced forensic
testing and modern technologies, new laboratory tests disclosed the presence of succinylcholine in the deceased
patients. After extensive review of medical records, it was determined that none of the ten veteran patients was
legally administered succinylcholine or had a reason to have taken the drug. The investigation is continuing
and judicial actions are pending.

Veterans Benefits Administration

A former Veterans Benefits Administration (VBA) employee pled guilty to 23 counts of theft of Government
funds, 1 count of conspiracy to commit money laundering, and 1 count of conspiracy. The individual, a 30-
year VA employee, embezzled more than $11 million in VA funds from 1993 until August 2001. She used her
access to the VA computer system to create bogus benefits accounts by resurrecting deceased veterans in the
computer system. After the accounts were created, she manipulated the computer system to issue large VA
checks or regular monthly checks to her co-conspirators. When the co-conspirators received the checks, a
portion, usually one third, was remitted to the individual as payment for her services. The 11 co-conspirators
entered guilty pleas and were sentenced to a cumulative total of 294 months in jail and 35 years probation.
Judicially ordered restitution to date has totaled over $23 million. Property (to include cash, insurance
policies, jewelry, cars, boats, motor homes, and a submarine) with an appraised value of over $2.7 million has
been seized or forfeited. Sentencing of the individual is pending, and she could receive up to 20 years in jail.

The Office of Inspector General (OIG) conducted a proactive investigative project based on suspected fraud
associated with the delivery of benefits to veterans residing in the Philippines. A team of OIG employees
conducted the review that resulted in the proposed termination from VA benefits rolls of almost 600 payees. To
date, the cost savings to VA is over $2.5 million in overpayments with a projected 5-year cost savings of over
$21 million by terminating VA payments of those individuals who are not entitled to the benefits. Nine
criminal cases were initiated and 15 individuals were arrested. These cases were investigated and referred to
the Philippines National Bureau of Investigation. One of these cases involved a large criminal organization
that was involved in submitting claims to VA on behalf of potential beneficiaries. The organization would
often submit false documentation to VA in support of the claim. The two ringleaders of this organization were




                                                        ii
among those arrested. Additionally, 147 other subjects have been identified as having been involved in this
scheme.

OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $228 Million

Audits and evaluations were focused on operations and performance results to improve service to veterans.
During this reporting period, 66 audits, evaluations, and reviews, including Combined Assessment Program
(CAP) reviews were conducted that identified opportunities to save or make better use of approximately
$228 million.

Veterans Health Administration

Our audit of VAMC management of miscellaneous supply inventories reported that VA could reduce large
excess inventories by using automation for control of stock levels and purchasing smaller quantities. We
reported miscellaneous supply inventories could be reduced by about $54 million. Also, an audit of VA
Consolidated Mail Outpatient Pharmacies inventories found that VA could reduce pharmaceutical inventories
by effectively using automated inventory management system controls and developing better management
reports. We reported that inventories could be reduced by about $29 million.

Veterans Benefits Administration

Our audit of VBA’s processing of beneficiaries with unreimbursed medical expenses found that beneficiaries
were submitting inappropriate claims for medical expenses that have affected their benefit payments. We
found a significant number of erroneous payments were made to claimants. The processing errors and
potential program fraud resulted in annual beneficiary overpayments of as much as $125 million and
underpayments of as much as $20 million.

Office of Management

As part of the annual Consolidated Financial Statements audit, we issued five management letters addressing
financial reporting and control issues. The letters provided Department managers additional automated data
processing security observations and advice that will enable the Department to improve accounting operations
and internal controls. None of the conditions noted had a material effect on the FY 2001 Consolidated
Financial Statements, but correction of the conditions was considered necessary for ensuring effective
operations.

Contract Review and Evaluation

During the period, we completed 29 contract reviews - 18 preaward and 11 postaward reviews. These reviews
identified monetary benefits of about $37 million resulting from contractor actual or potential overcharges to
VA.




                                                       iii
OFFICE OF HEALTHCARE INSPECTIONS

The Office of Healthcare Inspections (OHI) participated with the Offices of Audit and Investigations on 18
CAP reviews and reported on specific clinical issues warranting the attention of VA managers. OHI reviewed
health care issues and made 111 recommendations to improve operations, activities, and the care and services
provided to patients.

At the request of the Secretary of Veterans Affairs, we participated in one follow up CAP review on actions
taken to implement recommendations reported during the last semiannual report. The review included
recommendations to improve the quality of care, sanitation, control over pest infestations, and infection
controls. In conjunction with the CAP reviews, OHI completed two summary evaluations. Our evaluation of
procedures for managing patients who have acute and chronic pain found that the quality of care in VHA
mental health programs could be improved if there were more consistency among providers in managing long-
term narcotics prescriptions for patients who have pain. Our evaluation of the VHA pain management
initiative found that VHA has made significant strides in implementing its initiative; however, facility
compliance varied from site to site. Our findings are important to VA managers as they continue to improve
controls and procedures for managing patients who have acute and chronic pain.

Our inspectors visited a number of facilities this period to respond to congressional and other special requests
and reviewed patient allegations pertaining to quality of care issues received by the OIG Hotline. We
completed 20 Hotline cases, reviewed 69 issues, and made 57 recommendations to correct conditions identified
and improve the health care and services provided to patients. Our findings and recommendations resulted in
managers issuing new and revised procedures, realigning resources, and making environmental and safety
improvements.

We monitored the completion of inquiries sent to VHA for action and resolution. We completed, resolved, and
reported on 99 of these cases and reviewed 136 issues, and we assessed the appropriateness of VHA’s response
to the inquiries. OHI also assisted the Office of Investigations on 6 criminal and fraud cases that required
reviews of medical evidence, and we performed 28 technical reviews of pending VHA policies, congressional
bills, and newly developing programs. We also monitored the work of VHA’s Office of Medical Inspector,
National Center for Patient Safety, and Office of Research Compliance.

OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline

The Hotline provides an opportunity for employees, veterans, and other concerned citizens to report criminal
activity, waste, abuse, and mismanagement. The identification and reporting of issues such as these are
integral to the goal of improving the efficiency and effectiveness of the Government. During the reporting
period, the Hotline received 7,916 contacts. We opened 722 cases. We closed 746 cases, of which 221
contained substantiated allegations (30 percent). The monetary impact resulting from these cases totaled over
$60,000. Hotline staff generated 164 responses to inquiries received from members of the Senate and House
of Representatives. The cases we opened led to 70 administrative sanctions against employees and 90
corrective actions taken by management to improve VA operations and activities. Examples of some of the
issues addressed by Hotline include: a veteran’s misuse of his VA educational benefits, misuse of official time
and e-mail for personal reasons, abuse of authority, patient safety violations, contracting irregularities, and
instances of misconduct by VA employees.



                                                       iv
Information Technology and Data Analysis

During this reporting period, this Division provided OIG personnel with more than 40 enhancements of the
Master Case Index (MCI), the OIG’s enterprise database. Most notably, the Division implemented an Intranet
site housing OIG policies, procedures, and shared calendars. Additionally, the Division developed new MCI
modules to track the fugitive felon match, as well as allocations in awards, travel, training, and supplies.

The Data Analysis Section (DAS) extracts and analyzes data in VA computer files and systems. The DAS
develops proactive computer profiles that search VA computer data for patterns of inconsistent or irregular
records with a high potential for fraud. They refer these leads to OIG auditors and investigators for further
review. During this reporting period, the DAS completed 108 ad hoc requests for information and data
submitted from all OIG operational elements. The DAS also supported all OIG CAP reviews. Considerable
effort was also spent in developing programs to match data in seven VBA and VHA databases with data
submitted by the U.S. Marshals Service and the State of California concerning fugitive felons.

Follow Up on OIG Reports

The Operational Support Division continually tracks the VA staff actions to implement OIG audits,
inspections, and reviews. As of September 30, 2002, there were 68 open OIG reports containing 250
unimplemented recommendations with over $4 billion of actual or potential monetary benefits. During this
reporting period, the OIG closed 87 reports and 592 recommendations with a monetary benefit of $379 million
after obtaining information that VA officials had fully implemented corrective actions.

Status of OIG Reports Unimplemented for Over 3 Years

VA management officials are required to provide the OIG with documentation showing the completion of
corrective actions taken on OIG reports. In the majority of cases, program offices provide the OIG with
documentation of the actions required to implement the reports in a reasonable period. However, the OIG is
concerned about four VHA reports (one report issued in each of FY 1996 and 1997, and two reports issued in
1999). Details about these reports can be found beginning on page 58.




                                                       v
vi

VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES

The Department of
Veterans Affairs (VA)
Background

In one form or another, American governments
have provided veterans benefits since before the
Revolutionary War. VA’s historic predecessor
agencies demonstrate our Nation’s long
commitment to veterans.

The Veterans Administration was founded in 1930,
                                                                          VA Central Office

when Public Law 71-536 consolidated the Veterans’             810 Vermont Avenue, NW, Washington, DC

Bureau, the Bureau of Pensions, and the National
Home for Disabled Volunteer Soldiers.

The Department of Veterans Affairs was                     Organization
established on March 15, 1989, by Public Law
100-527, which elevated the Veterans                       VA has three administrations that serve veterans:

Administration, an independent agency, to Cabinet-         z Veterans Health Administration (VHA)

level status.                                              provides health care,

                                                           z Veterans Benefits Administration (VBA)

Mission                                                    provides benefits, and

                                                           z National Cemetery Administration (NCA)

                                                           provides interment and memorial services.

VA's motto comes from Abraham Lincoln's second
inaugural address, given March 4, 1865, "to care
                                                           To support these services and benefits, there are six

for him who shall have borne the battle and for his
                                                           Assistant Secretaries:

widow and his orphan." These words are inscribed
                                                           z Management (Budget, Finance, Acquisition and

on large plaques on the front of the VA Central
                                                           Materiel Management (A&MM));

Office building on Vermont Avenue in Washington,
                                                           z Information and Technology (I&T);

DC.
                                                           z Policy and Planning (Policy, Planning, and

                                                           Security and Law Enforcement);

The Department’s mission is to serve America’s
                                                           z Human Resources and Administration (HRA)

veterans and their families with dignity and
                                                           (Diversity Management and Equal Employment

compassion and to be their principal advocate in
                                                           Opportunity, Human Resources Management,

ensuring that they receive the care, support, and
                                                           Administration, and Resolution Management);

recognition earned in service to this Nation.




                                                      1

VA and OIG Mission, Organization, and Resources

z   Public and Intergovernmental Affairs; and                were guaranteed in FY 2002, with a value of
z   Congressional Affairs.                                   almost $40 billion.

In addition to VA’s Office of Inspector General,             The National Cemetery Administration operated
other staff offices providing support to the                 and maintained 120 cemeteries and employed over
Secretary include the Board of Contract Appeals,             1,400 staff in FY 2002. Operations of NCA and
the Board of Veterans’Appeals, the Office of                 all of VA’s burial benefits accounted for
General Counsel, the Office of Small and                     approximately $389 million of VA’s budget.
Disadvantaged Business Utilization, the Center for           Interments in VA cemeteries continue to increase
Minority Veterans, the Center for Women Veterans,            each year, with 89,000 estimated for FY 2002.
and the Office of Employment Discrimination                  Approximately 314,000 headstones and markers
Complaint Adjudication.                                      were provided for veterans and their eligible
                                                             dependents in VA and other Federal cemeteries,
Resources                                                    state veterans’ cemeteries, and private cemeteries.


While most Americans recognize the VA as a                   VA Office of Inspector
Government agency, few realize that it is the
second largest Federal employer. For FY 2002, VA             General (OIG)
had approximately 209,000 employees and a
$51.8 billion budget. There are an estimated                 Background
25 million living veterans. To serve our Nation’s
veterans, VA maintains facilities in every state, the        VA’s OIG was administratively established on
District of Columbia, the Commonwealth of Puerto             January 1, 1978, to consolidate audits,
Rico, Guam, and the Philippines.                             investigations, and related operations into a
                                                             cohesive, independent organization. In October
Approximately 190,000 of VA’s employees work in              1978, the Inspector General Act (Public Law 95-
VHA. Health care was funded at almost                        452) was enacted, establishing a statutory Inspector
$23 billion, approximately 44 percent of VA’s                General (IG) in VA.
budget in FY 2002. VHA provided care to an
average of 57,000 inpatients daily. During FY
2002, there were almost 47 million episodes of care          Role and Authority
for outpatients. There were 163 hospitals, 137
nursing home units, 206 Vietnam veterans centers,            The Inspector General Act of 1978 states that the
43 domiciliaries, and 914 outpatient clinics                 IG is responsible for: (i) conducting and
(including hospital clinics).                                supervising audits and investigations; (ii)
                                                             recommending policies designed to promote
Veterans benefits were funded at $28.9 billion,              economy and efficiency in the administration of,
about 56 percent of VA’s budget in FY 2002. Over             and to prevent and detect criminal activity, waste,
13,000 VBA employees at 57 VAROs provided                    abuse, and mismanagement in VA programs and
benefits to veterans and their families. Almost              operations; and (iii) keeping the Secretary and the
2.7 million veterans and their beneficiaries received        Congress fully informed about problems and
compensation benefits valued at $26 billion. Also,           deficiencies in VA programs and operations and the
over $3 billion in pension benefits were provided to         need for corrective action.
veterans and survivors. VA life insurance programs
had 4.3 million policies in force with a face value          The Inspector General Act Amendments of 1988
of over $595 billion. Almost 309,000 home loans              provided the IG with a separate appropriation




                                                        2

                                                      VA and OIG Mission, Organization, and Resources

account and revised and expanded procedures for                VA’s major organizational areas, is indicated in the
reporting semiannual workload to Congress. The                 following chart.
IG has authority to inquire into all VA programs
and activities as well as the related activities of
                                                                                   Information
persons or parties performing under grants,
                                                                                   Technology
contracts, or other agreements. The inquiries may                                      4%
be in the form of audits, investigations, inspections,
or other appropriate actions.                                          VHA                          VBA
                                                                       42%                          33%
Organization

Allocated full-time equivalent (FTE) employees                       Management
from appropriations for the FY 2002 staffing plan                                             A&MM
                                                                        4%                     17%
were as follows:

                                 ALLOC ATED                    The following chart indicates the percentage of
            OFFIC E
                                    FTE                        OIG resources that has been applied to mandated,
                                                               reactive, and proactive work.
   Inspector General                       4

   C ounselor                              4
                                                                        Reactive
   Investi gati ons                     120                              44%                     Mandated
   Audi t                               176                                                        9%

   Management and
                                          55
   Admi ni strati on
                                                                                          Proactive
   Healthcare
                                          46                                                47%
   Inspecti ons
            TOTAL                        405
                                                               Mandated work is required by law and the Office
In addition, 24 FTE are reimbursed for a                       of Management and Budget (OMB). Examples
Department contract review function.                           include our audits of VA’s consolidated financial
                                                               statements, oversight of VHA’s quality assurance
FY 2002 funding for OIG operations is                          programs and Office of the Medical Inspector,
$54.7 million, with $52 million from                           follow up activities on OIG reports, and releases of
appropriations and $2.7 million through a                      Freedom of Information Act information.
reimbursable agreement. Approximately
74 percent of the total funding is for salaries and            Reactive work is generated in response to requests
benefits, 5 percent for official travel, and the               for assistance received from external sources
remaining 21 percent for all other operating                   concerning allegations of criminal activity, waste,
expenses such as contractual services, rent,                   abuse, and mismanagement. Most of the Office of
supplies, and equipment.                                       Investigations’ work is reactive.

The percentage of OIG resources, which has been                Proactive work is self-initiated, focusing on areas
devoted during this semiannual reporting period to             where the OIG staff determines there are significant
                                                               issues.


                                                          3

VA and OIG Mission, Organization, and Resources

                                                           desire to improve the way VA operates by helping
                                                           it become more customer driven and results
                                                           oriented.

                                                           The OIG will keep the Secretary and the
                                                           Congress fully and currently informed about
                                                           issues affecting VA programs and the
                                                           opportunities for improvement. In doing so, the
                                                           staff of the OIG will strive to be leaders and
                                                           innovators, and perform their duties fairly,
                                                           honestly, and with the highest professional
                                                           integrity.




       TechWorld, home to the VA Office of
               Inspector General



OIG Mission Statement

The OIG is dedicated to helping VA ensure that
veterans and their families receive the care,
support, and recognition they have earned
through service to their country. The OIG strives
to help VA achieve its vision of becoming the best
managed service delivery organization in
Government. The OIG continues to be
responsive to the needs of its customers by
working with the VA management team to
identify and address issues that are important to
them and the veterans served.

In performing its mandated oversight function,
the OIG conducts investigations, audits, and
healthcare inspections to promote economy,
efficiency, and effectiveness in VA activities, and
to detect and deter fraud, waste, abuse, and
mismanagement. Inherent in every OIG effort
are the principles of quality management and a




                                                      4

                                                            Department of Veterans Affairs
                                                             Office of Inspector General


                                                                      Inspector General
                              Executive Assistant                   ---------------------------                    Counselor to the
                                                                                                                  Inspector General
                                                                             Deputy


      Assistant Inspector General           Assistant Inspector General                 Assistant Inspector General              Assistant Inspector General
     Management and Administration                 Investigations                                   Audits                         Healthcare Inspections
            --------------------                  ---------------------                       --------------------                     --------------------
                 Deputy                                 Deputy                                     Deputy                                   Deputy


                                                                                       Contract                               Medical Advisor       Program
       Hotline         Operational       Administrative            Criminal            Review                     Audit             to            Administration
                        Support          Investigations         Investigations           and                    Planning        Inspector          and Special
                                                                                      Evaluation                                 General            Projects

       Human            Financial




5

      Resources            and           Analysis and                                Operational                Financial               Regional Offices
     Management       Administrative      Oversight                  Benefits         Support                     Audit                     Atlanta
                        Support                                       Fraud                                                                 Bedford
                                                                                                                                            Chicago
     Information                        Field Offices                                      Operations Divisions                              Dallas
     Technology                             Chicago                 Computer                                                              Los Angeles
                                                                                          Atlanta     Bedford
      and Data                               Dallas                  Crimes                                                               Washington
                                                                                          Chicago     Dallas
       Analysis                          Los Angeles                  and                 Kansas City Los Angeles
                                          New York                  Forensics             Seattle     Washington
                                        St. Petersburg
     Field Office
        Austin                                                                                     Sub-Office
                                      Resident Agencies
                               Atlanta
                                                                   Healthcare                        Austin
                                                Bedford
                               Cleveland        Columbia             Fraud
                               Denver           Houston
                               Kansas City      Nashville
                               New Orleans      Newark              Fugitive
                               Phoenix          Pittsburgh
                                                                     Felon
                               San Diego        San Francisco
                               Seattle          Washington
                                                                    Program
                               West Palm Beach

                                                                    Forensic
                                                                   Documents
                                                                   Laboratory
VA and OIG Mission, Organization, and Resources




                                         6

COMBINED ASSESSMENT PROGRAM

Reports Issued                                               Auditors assess key areas of management concern,
                                                             which are derived from a concentrated and
During the period April 1, 2002 through                      continuing analysis of VHA, Veterans Integrated
September 30, 2002, we issued a total of 22                  Service Network (VISN), and VAMC databases
Combined Assessment Program (CAP) reports. Of                and management information. Areas generally
the 22 CAP reports, 13 were for VA health care               covered include procurement practices, financial
systems/VA medical centers (VAMCs), 8 for VA                 management activities, accountability for controlled
regional offices (VAROs), and 1 for a VA medical             substances, and information security.
and regional office center (VAM&ROC).
                                                             Special agents conduct fraud and integrity
                                                             awareness briefings. The purpose of these

Combined Assessment Program                                  briefings is to provide VAMC employees with

Overview - Medical                                           insight into the types of fraudulent and other

                                                             criminal activities that can occur in VA programs

CAP reviews are part of the OIG’s efforts to ensure          and operations. The briefings include an overview

that quality health care services are provided to our        and case-specific examples of fraud and other

Nation’s veterans. CAP reviews provide cyclical              criminal activities. Special agents may also

oversight of VAMC operations, focusing on the                investigate certain matters referred to the OIG by

quality, efficiency, and effectiveness of services           VA employees, members of Congress, veterans, and

provided to veterans.                                        others.


CAP reviews combine the skills and abilities of              During this period, we issued 14 health care facility

representatives from the OIG Offices of Healthcare           CAP reports. Included in our coverage of the 14

Inspections, Audit, and Investigations to provide            sites was one review of a VA medical and regional

collaborative assessments of VA facilities. They             office center. See Appendix A for the full title and

provide an independent and objective assessment of           date of the CAP reports issued this period. These

key operations and programs at VA health care                14 reports relate to the following VA medical

systems and VA medical centers on a recurring                facilities:1

basis.
                                                             z  Central Alabama Veterans Healthcare System,

Healthcare inspectors conduct proactive reviews to           Alabama

evaluate care provided in VA health care facilities          z Central Arkansas Veterans Healthcare System,

and assess the procedures for ensuring the                   Arkansas

appropriateness and safety of patient care. The              z VA Long Beach Healthcare System, California

facilities are evaluated to determine the extent to
which they are contributing to VHA’s ability to
accomplish its mission of providing high quality             1 Due   to committing significant resources to the special
health care, improved patient access to care, and            review of all VARO one-time payments, the Office of
high patient satisfaction. Their effort includes the         Audit was not available to review management
use of standardized survey instruments.                      controls at VA San Diego and Central Texas Veterans
                                                             Healthcare Systems. Office of Audit staff did review
                                                             management controls at the other 12 health care
Auditors conduct reviews to ensure management
                                                             facilities.
controls are in place and operating effectively.



                                                        7

Combined Assessment Program

                                                       Accounts Receivable

                                                       VA has established policies and procedures for
                                                       establishing and collecting accounts receivable.
                                                       However, compliance with these policies and
                                                       procedures was not consistent. The lack of
                                                       management oversight has contributed to
                                                       inefficient collection efforts and to weaknesses in
                                                       the management of the Medical Care Cost Fund
                                                       (MCCF) and other accounts receivable financial
                                                       activities.

                VA Medical Center                      z    MCCF controls were deficient at 7 of 10
               Loma Linda California                   facilities where we reviewed the medical center’s
z  VA Loma Linda Healthcare System, California
        collection efforts. Billing actions were untimely
z  VA San Diego Healthcare System, California
         and collections were not pursued aggressively.
z  VA Connecticut Healthcare System,
                  Medical coding was deficient at 4 of the 10
Connecticut
                                           facilities where we reviewed coding. These
z John J. Pershing VAMC, Poplar Bluff,
                deficiencies resulted in the inability to properly bill
Missouri
                                              for services. VHA needs to ensure that appropriate
z VAMC Durham, North Carolina
                         and accurate medical insurance claims are filed and
z VAMC Fayetteville, North Carolina
                   that all insurance claims are supported by medical
z VAM&ROC Fargo, North Dakota
                         record documentation. Additionally, VHA needs to
z VAMC Providence, Rhode Island
                       reduce errors in coding which lead to delays or
z James H. Quillen VAMC, Johnson City,
                non-payment.
Tennessee

z Central Texas Veterans Healthcare System,
           z Accounts receivable procedures (other than
Temple, Texas
                                         MCCF) were deficient at 3 of 6 facilities where we
z William S. Middleton Memorial Veterans
              tested accounts receivable procedures. VHA needs
Hospital, Madison, Wisconsin
                          to aggressively pursue delinquent debts of current
                                                       and former employees and should also initiate
                                                       timely collection of Federal accounts receivable.
Summary of Findings
                                                       Agent Cashier
Our reviews identified the following areas that
required the attention of VHA management.
                                                       z Agent cashier controls were deficient at 4 of 8
                                                       facilities where we reviewed the agent cashier
Financial Management and Administration                function. Security in agent cashiers’ offices was
                                                       inadequate. Agent cashiers did not deposit and post
Management was not consistently adhering to            MCCF receipts timely, resulting in checks
established financial policies and procedures.         negotiability expiring before the facility was able to
VHA management needs to improve oversight in           deposit the reimbursement checks. At some sites
financial management activities in order to            we noted convenience checks were not included in
provide accurate and reliable financial                the unannounced audits of agent cashier operations.
information.




                                                  8

                                                                         Combined Assessment Program

Procurement                                                  information security policies, procedures, and
                                                             guidelines; however, CAP reviews found that
The OIG has identified the need to improve                   facility policy development, implementation, and
procurement practices in VA as one of the                    compliance were inconsistent. In addition, there
Department’s most serious management                         is a need to improve access controls, contingency
challenges. Controls need to be strengthened to:             planning, incident reporting, and security
(i) effectively administer the Government purchase           training. We found inadequate management
card program, (ii) improve service contract                  oversight contributing to inefficient practices, and
controls, (iii) avoid conflicts of interest, (iv)            to inadequate information security and physical
improve contract administration, and (v)                     security of assets. CAP findings complement the
strengthen inventory management.                             results of our FY 2001 Government Information
                                                             Security Results Act audit that identified
z    Government purchase card controls were                  information security vulnerabilities that place the
deficient at 11 of 12 facilities tested. Policy and          Department at risk of denial and/or disruption of
procedures governing the use of purchase cards,              service attacks on mission critical systems, and
setting purchasing limits, and accounting for                unauthorized access to and disclosure of sensitive
purchases were not followed.                                 financial data and data subject to Privacy Act
                                                             protection.
z Service contract controls or contract
administration efforts were deficient at 6 of 11             z Information technology (IT) security
facilities tested. Controls needed to be strengthened        deficiencies were found at 12 sites where IT
to ensure that acquisition and materiel management           security was reviewed. We found that: (i) security
employees ensure price reasonableness for                    plans were not prepared or updated, (ii)
noncompetitive contracts, and that contract                  contingency plans lacked key elements, (iii) access
provisions include procedures to help ensure                 to VHA’s Veterans Health Information Systems was
contract compliance. Contract administration                 not effectively monitored, and/or (iv) background
efforts also needed improvement. For example, at             investigations were not requested or documentation
one facility visited, none of nine locally awarded           was not available for contract personnel working in
clinical service contracts were forwarded to VACO            sensitive areas.
to facilitate quality assurance and oversight.

z Medical supply inventory management was
deficient at 8 of 10 facilities and non-medical
inventory management was deficient at 5 of 10
facilities where we tested these issues. We found
that inventory levels exceeded current requirements
resulting in funds being tied up unnecessarily in
excess inventories.

Information Technology

A wide range of vulnerabilities in VHA’s
automated information system were identified that
could lead to misuse of sensitive information and                            VA Medical Center
data. VA has established comprehensive                                        Long Beach, CA




                                                        9

Combined Assessment Program

Pharmacy                                                      and strategies were inconsistent. Medical records
                                                              were transported in unsecured envelopes and
VA has established policies, procedures, and                  medical records were left unattended in
guidelines for pharmacy security and                          examination rooms. Employees did not have
accountability of controlled substances and other             access to shredders for disposal of confidential
drugs. We reviewed pharmacy security and/or                   information.
controlled substances accountability at 12
facilities. Control weaknesses were identified at             z    We inspected abnormal test and procedure
all 12 facilities. The lack of management                     result notifications at 14 facilities. Written
oversight at the facility, VISN, and national levels          policies and management of abnormal test and
has contributed to inefficient practices and to               procedure results, including patient notification in
weaknesses in drug accountability and security.               primary care departments, were deficient at 8 of
                                                              14 facilities. VHA managers needed to improve
z   Controlled substance inspections procedures               procedures for notifying providers and patients of
were inadequate to ensure compliance with VHA                 abnormal test and procedure results. Providers
policy and Drug Enforcement Administration                    needed to be vigilant in reviewing the results of the
regulations at the 12 sites where controlled                  tests and procedures they ordered, communicating
substances were reviewed. Unannounced                         the results to patients, documenting the
inspections and inventories were not properly                 notification in the medical records, and providing
conducted. Unusable drugs were not disposed of                timely follow up instructions and care to the
timely or properly, and discrepancies between                 patients.
inventory results and recorded balances were not
reconciled in a timely manner.                                z We inspected the homemaker/home health aide
                                                              program at 4 facilities. At all four facilities, we
z Improvements were needed in pharmacy                        found program managers were not obtaining
security at 6 of 12 sites where controls were                 information related to quality assurance from
reviewed. We advised local management that                    community health agencies providing services, as
security could be better enforced by restricting and          required by VHA directive. Also at 2 facilities,
consistently monitoring access to secured pharmacy            there was no oversight committee monitoring
areas, and by ensuring electronic alarm systems are           operations or quality of care issues; billing
appropriately connected and operational.                      invoices were not monitored for discrepancies;
                                                              initial patient assessments to determine clinical
Health Care Management                                        eligibility were incomplete; and the need for
                                                              continued services was not reviewed every 90
z We inspected medical record security at 6                   days, as mandated by VHA directive.
facilities visited. We found security deficiencies at
all six facilities. Patients’ medical information was         z We reviewed the delivery of primary care
not protected against deliberate or inadvertent               services to mental health patients at 7 facilities.
misuse or disclosure as required. Computer                    Mental heath patients had a designated primary
terminals were not always positioned in a manner              care provider or team. Chronic diseases were
that would prevent unauthorized persons from                  appropriately assessed and managed. Preventive
viewing patient information, and computer privacy             disease strategies were implemented. Additionally,
screens were not routinely used. Controls were not            mental health patients were generally satisfied
in place to identify inappropriate access to                  with their care. However, providers needed to be
restricted patient records. Employees were not                vigilant in documenting that they had reviewed
always aware of computer incident reporting                   and discussed results with their patients for the
procedures. Confidentiality management training               tests and procedures they had ordered for them.



                                                        10

                                                                          Combined Assessment Program

z We reviewed the delivery of primary care                    Outpatient Surveys
services to mental health patients at 6 facilities.
Medical record documentation showed that in all 6             We surveyed 371 VA outpatients at 14 facilities to
facilities patients were enrolled in primary care and         ascertain their satisfaction with the care they
that their chronic diseases were appropriately                received. We surveyed patients in the primary care,
assessed and managed. Clinicians at 2 of 6                    mental health, and specialty care clinics. We also
facilities were inconsistent in their documentation           surveyed outpatients who were in waiting areas of
that preventive disease strategies were                       various support services such as pharmacy,
implemented, and patient interviews revealed that             radiology, and laboratory.
patients in the same 2 facilities had difficulty
scheduling an appointment with their primary care             Overall, 92 percent of the outpatients rated the
provider or team within 7 days. At 3 of 6 facilities          quality of care as good, very good, or excellent.
reviewed, we found inconsistencies in clinicians’             Ninety percent of the respondents stated that
documentation that patients were informed of                  procedures were generally performed on time as
abnormal test results.                                        scheduled.

z We inspected employee background                            Convesely, outpatients expressed concern about the
investigation procedures at 6 facilities. We found            timeliness of receiving prescriptions. Only 36
deficiencies at all six facilities. The facilities’           percent of the outpatients told us they received their
human resources management offices did not                    prescriptions within 30 minutes. Seventy percent
always request background investigations from the             of the respondents said they received counseling by
Office of Personnel Management for all licensed               pharmacists when they received new prescriptions.
independent practitioners, as required by policy.             Respondents using the mail-out pharmacies were
The human resources management office                         generally more satisfied with the process. The
employees did not always document the dates they              survey showed that 84 percent of the respondents
sent requests for background investigations so we             said they received their medication refills in the
could not determine if they were sent within 14               mail before running out of their medications. We
work-days of the employees’ appointments, as                  discussed our survey results with managers during
required. Additionally, at one VAMC we found 36               site visits.
percent of employees did not have background
checks.                                                       Physical Plant Environment Surveys

Survey Results                                                We visited clinical care areas at 14
                                                              facilities, and conducted inspections of 151
Inpatient Surveys                                             individual areas. We inspected outpatient clinic
                                                              areas, inpatient wards, domiciliaries, emergency
We interviewed 242 inpatients receiving care at 14            rooms, nursing home care units, and operating
facilities. We surveyed inpatients in mental health,          rooms. Inspections showed that managers needed
medical, surgical, long-term care, and intensive              to improve procedures to secure medications,
care units. We discussed the results with local               provide unobstructed hallways, ensure privacy, and
management officials before leaving the sites. We             strengthen cleaning and sanitation procedures. In
found that 75 percent of the inpatients interviewed           addition, managers needed to better publicize the
rated the care they received at VA as good, very              patient representatives’ names, locations, and phone
good, or excellent. Results were discussed with               numbers in case patients or family members wanted
managers during site visits.                                  to voice complaints or concerns. We discussed
                                                              survey results with managers during site visits.




                                                        11

Combined Assessment Program

Employee Surveys                                               The majority of employees responded positively to
                                                               questions concerning patient incidents. However,
We mailed survey questionnaires to employees at                while 88 percent of the respondents reported they
the 14 facilities visited during the reporting period.         were generally comfortable in self-reporting errors
We received 2,145 responses. We discussed the                  that involved patient care, 77 percent indicated they
results of these surveys with managers during site             were comfortable reporting errors that involved
visits.                                                        colleagues. Furthermore, 63 percent believed that
                                                               constructive actions were taken when errors were
Most employees expressed satisfaction with their               reported.
general work conditions and the quality of patient
care provided to patients. The surveys showed that             Combined Assessment Program
73 percent of the respondents believed that the                Overview - Benefits
quality of care at their respective facilities was
either good, very good, or excellent. The surveys
                                                               In FY 2002, we increased CAP review coverage of
also showed that 76 percent of the respondents said
                                                               VBA regional office centers. These reviews focus
they would recommend treatment at their respective
                                                               on the delivery of monetary benefits to veterans and
facilities to family members or friends.
                                                               their dependents.
Some respondents were concerned about working
                                                               OIG staff assessed whether management controls
conditions at their facilities. For example, 35
                                                               are in place and working effectively in VBA. We
percent of the respondents said that staffing was
                                                               evaluated key areas of concern derived from a
not sufficient in their respective work areas to
                                                               concentrated and continuing analysis of VBA
provide safe care to patients. The survey results
                                                               management information. Our special agents
also showed that 38 percent of the respondents
                                                               conducted fraud and integrity awareness briefings
believed housekeeping support was not sufficient to
                                                               and used a new videotape they developed related to
ensure the hospital was clean and sanitized. In
                                                               VBA activities.
addition, the surveys showed that 37 percent of the
respondents believed that work orders for needed
                                                               During this period, we issued nine CAP reports on
repairs were not addressed promptly to ensure safe
                                                               the delivery of benefits, one of which was a VA
environments.
                                                               medical and regional office center. See Appendix A
                                                               for the full title and date of the CAP reports issued
                                                               this period. These nine reports relate to the
                                                               following VA regional office facilities:

                                                               z   VARO Denver, Colorado
                                                               z   VARO Des Moines, Iowa
                                                               z   VARO Manchester, New Hampshire
                                                               z   VARO Newark, New Jersey
                                                               z   VARO New York, New York
                                                               z   VAM&ROC Fargo, North Dakota
                                                               z   VARO Cleveland, Ohio
                                                               z   VARO Waco, Texas
                                                               z   VARO Roanoke, Virginia
                 VA Regional Office
                  Manchester, NH




                                                         12

                                                                         Combined Assessment Program

Summary of Findings

Information Technology

Our increased CAP review coverage of VBA
facilities in FY 2002 identified a wide range of
vulnerabilities in VBA systems similar to those we
identified during VHA CAP reviews. The
deficiencies could lead to misuse of sensitive
automated information and data. Although VA
has established comprehensive information
security policies, procedures, and guidelines, CAP
reviews found that facility policy development,
                                                                              VA Regional Office
implementation, and compliance were
                                                                                 Newark, NJ
inconsistent. Recent CAP findings show a need to
improve access controls, contingency planning,
risk assessment, and security training. We found             Compensation and Pension
inadequate management oversight contributing to
inefficient practices, and to inadequate                     z The timeliness of compensation and pension
information security and physical security of                (C&P) claims processing needed improvement at
assets.                                                      all nine facilities visited. C&P claims had
                                                             avoidable processing delays and/or procedural
CAP reviews identified the following areas that              errors that affected workload and timeliness
required the attention of VBA management:                    measures. Managers need to monitor the
                                                             effectiveness of recent initiatives to improve claims
z Information technology security was deficient              processing timeliness and provide refresher claims
at 8 of 9 facilities reviewed. Risk assessments              processing training for veteran service center staff.
needed to be conducted, contingency plans required
revision, and testing of contingency, security, and          z Other C&P deficiencies found during our visits
disaster recovery plans was necessary.                       included untimely and inaccurate actions on system
                                                             error messages, veteran service center personnel not
z VARO management needed to strengthen                       properly reducing the pension benefits of veterans
security over the Beneficiary Delivery Network               hospitalized for extended periods at Government
(BDN) at 4 of 9 facilities visited. BDN is the               expense, and staff not taking appropriate action on
computerized system that VAROs use to process                mail notices indicating death of a C&P beneficiary.
benefit claims. Physical security over terminals
logged on to BDN should be strengthened.                     Other VBA Programs
Managers also needed to better control access to
BDN and to comply with VBA security                          z VBA’s processing and timeliness over
requirements. VAROs should strive for 100                    vocational rehabilitation and employment claims
percent compliance and should have effective                 needed improvement. Data entry, claims
procedures for detecting and correcting instances of         processing, and case monitoring errors were noted
noncompliance.                                               at 6 of 9 facilities visited. Management needs to
                                                             process claims for vocational rehabilitation benefits
                                                             in a timely manner, enter accurate data, and
                                                             monitor claims status.




                                                       13

Combined Assessment Program

z Government purchase card program
deficiencies existed at 6 of 9 facilities visited.
Reconciliation and supervisory approvals were not
performed, single purchase limits were exceeded,
cards were not deactivated timely, and purchase
card duties were not separated.

z   We found that improvements were needed in
fiduciary accounting and field examination controls
and procedures at 7 of 8 facilities visited.
Management needed to improve the oversight of
incompetent beneficiaries’ funds by ensuring
thorough field examinations were conducted,
appropriate recommendations or referral were
made, and were completed within the required time.
Also, fiduciary accountings should be submitted
timely and accurately.

z CAP reviews of loan administration activities
were conducted at four of the regional loan centers
during this reporting period. The loan
administration unit did not maintain and update
lender files at 3 of 4 facilities. We found lender
files that did not contain records of lender
performance or documentation of servicing
deficiencies. At one facility, none of the lender files
reviewed contained loan-servicing documentation
dated subsequent to 1998. Therefore, we
concluded that the VAROs had not effectively
monitored lender performance for at least the last 4
years (1998 to 2002).




                                                          14

OFFICE OF INVESTIGATIONS

Mission Statement
                                                                                               Administrative
    Conduct investigations of criminal activities                                              Investigations
    and administrative matters affecting the                                                        5%
    programs and operations of VA in an                           Criminal
                                                               Investigations
    independent and objective manner, and assist                                               Analysis
                                                                   90%
    the Department in detecting and preventing                                                   5%
    fraud and other violations.

The Office of Investigations consists of three
divisions.

I. Criminal Investigations Division - The Division           I. CRIMINAL
is primarily responsible for conducting
investigations into allegations of criminal
                                                             INVESTIGATIONS
activities related to the programs and operations of         DIVISION
VA. Criminal violations are referred to the
Department of Justice for prosecution. The
Division is also responsible for operation of the
                                                             Mission Statement
forensic document laboratory.
                                                                 Conduct investigations of criminal activities
II. Administrative Investigations Division - The                 affecting the programs and operations of VA
Division is responsible for investigating                        in an independent and objective manner, and
allegations, generally against high-ranking VA                   assist the Department in detecting and
officials, concerning misconduct and other matters               preventing fraud and other criminal
of interest to the Congress and the Department.                  violations.

III. Analysis and Oversight Division - The                   Resources
Division is responsible for the oversight
responsibilities of all Office of Investigations             The Criminal Investigations Division has 106 FTE
operations through a detailed, recurring inspection          for its headquarters and 22 field locations. These
program. The Division is the primary point of                individuals are deployed in the following VA
contact for law enforcement communications                   program areas:
through the National Crime Information Center,
the National Law Enforcement
Telecommunications System, and the Financial
Crimes Criminal Enforcement Network.                                                           VHA
                                                                                               33%
Resources                                                            VBA
                                                                     60%
The Office of Investigations has 120 FTE                                                    A&MM
allocated to the following areas.                                                            7%




                                                       15

Office of Investigations

Overall Performance                                                        St. Louis Post Dispatch
                                                                                St. Louis, MO
                                                                           Tuesday, June 4, 2002
Output

z 375 investigations were concluded during the

reporting period.


Outcome

z   Arrests - 237

z Indictments - 166

z Convictions - 170

z Monetary benefits - $70.3 million ($38.6

million - fines, penalties, restitutions, and civil

judgments; $27.3 million - efficiencies/funds put

to better use; and $4.4 million - recoveries)

z Administrative sanctions - 206



Veterans Health
Administration
The Criminal Investigations Division investigates
those instances of criminal activity against VHA
that have the greatest impact and deterrent value.
Working closely with VA police, the office has
placed an increased emphasis on crimes occurring
at VA facilities throughout the nation to help
ensure safety and security for those working in or
visiting VA medical centers. During this
semiannual period, OIG special agents have
participated in/or provided support to VA police in
the arrest of 40 individuals who committed crimes
on VHA properties.
                                                              An intensive review of selected files by
Murder                                                       investigative, medical, and forensic specialists
                                                             identified 13 highly suspicious deaths that had
A former VA nurse was indicted by a grand jury               occurred at the VAMC for patients under the care
and charged with ten counts of first degree murder           of the nurse. During the investigation,
under state statutes. The indictment charges that            exhumations and autopsies of patients who had
the nurse, while working at a VAMC, caused the               died while at the VAMC were conducted.
deaths of ten veteran patients by administering a            However, the autopsies and subsequent laboratory
lethal dose of a paralytic muscle relaxant                   tests failed to identify a manner or means of death.
identified as succinylcholine. This matter was the           Subsequently, with the advent of new advanced
subject of an extensive investigation, which began           forensic testing and modern technologies, new
in 1992 by the FBI and VA OIG.                               laboratory tests disclosed the presence of




                                                       16

                                                                                    Office of Investigations

succinylcholine in the deceased patients. After             patients. Further judicial actions are pending.
extensive review of medical records, it was
determined that none of the ten veteran patients            z A former VAMC licensed practical nurse was
was legally administered succinylcholine, or had a          arrested by OIG agents pursuant to a 17-count
reason to have taken the drug. The investigation is         Federal indictment for possession of controlled
continuing.                                                 narcotics by misrepresentation or fraud. This
                                                            individual diverted Demerol, Roxicet, Oxycodone,
Employee Integrity                                          and morphine sulfate for his own use. He would
                                                            divert these drugs by withdrawing medications in
                                                            the name of patients and then used the drugs
Theft/Diversion of Pharmaceuticals
                                                            himself. This individual diverted medications an
                                                            average of 4 to 6 times per workday over a period
z A self-employed independent pharmacist was
                                                            of approximately 9 months.
sentenced to 2 years’ probation and ordered to pay
$301,510 in restitution. The pharmacist pled                z    The uncle of a VA supervisory pharmacist was
guilty to charges of theft of Government property           sentenced for his role as a co-conspirator with the
and conspiracy. He was given probation as a                 pharmacist in the distribution of diverted drugs
result of his plea agreement and extensive                  taken from a VAMC. The subject was sentenced
cooperation during this investigation. Three co-            to 70 months’ incarceration and 3 years’
defendants were previously found guilty on similar          supervised release, and was ordered to pay $4,140
charges and will be sentenced later this year. This         in restitution. The subject’s role was to act as a go
was a joint investigation with the Food and Drug            between, allowing the drugs to be distributed on
Administration (FDA), Office of Criminal                    the street. The investigation disclosed that over
Investigations. The indictment disclosed that from          233,000 dosage units of Schedule II and III
1997 to 2000, three VAMC employees conspired                narcotics were diverted from the VA pharmacy.
to remove large amounts of non-controlled                   The Drug Enforcement Administration and VA
pharmaceutical drugs from the VAMC pharmacy.                OIG jointly conducted the investigation. The
The employees then exchanged these drugs for
                                                            pharmacist is to be sentenced at a later date.
cash with the pharmacist, who sold them to the
public from his privately owned pharmacy
business. Loss to the Government exceeded                   Embezzlement
$1.3 million over the 3 years.
                                                            z An individual pled guilty to one count of theft
                                                            of Government funds in the embezzlement of
z   A VA nurse was arrested and charged with
                                                            $23,055 from a VAMC. A joint VA OIG and U.S.
felony counts of narcotics tampering and
                                                            Secret Service investigation established that the
possession. A joint investigation by the VA OIG
                                                            individual, an accounting technician, used her
and FDA, Office of Criminal Investigations,
                                                            VAMC computer to access the VA’s financial
revealed the nurse had diverted narcotics from a
                                                            management system and caused six checks and
VA hospital. More specifically, she removed
narcotics from drug packets and replaced the                seven electronic fund transfers to be issued to her.
narcotics with normal saline solution to disguise
her theft. The nurse diverted the drugs for her             Theft of Government Property
own use and consumption and deprived VA
patients of their pain medication. The nurse                z A VA canteen service manager pled guilty to a
confessed to the crime and stated that she                  one count information charging him with theft of
administered Demerol mixed with saline to                   public money. An audit of the canteen service




                                                      17

Office of Investigations

revealed $17,298 in cash from the sale of goods              z A former VAMC business manager was
and services was never deposited into the VA                 sentenced to 10 months’ incarceration followed by
Federal credit union. The manager admitted to                2 years’ supervised release, and was ordered to
embezzling these funds to pay off gambling debts.            pay $177,649 in restitution to the Government.
                                                             The individual oversaw all administrative matters
z The former administrator and a former                      within the VAMC’s surgical service and procured
bookkeeper of a long-term care nursing facility              items for the service with a VA-issued credit card.
were charged with five counts and two counts of              Without authorization, the individual used the
theft, respectively, relative to their diversion of          credit card to fraudulently purchase $177,649
$42,000 from the facility’s patient trust account            worth of laptop computers and peripheral
into the facility’s operating account to pay                 equipment. He then sold most of the items to an
themselves increased salaries. Approximately                 associate, keeping the money he received. In turn,
$25,000 of this amount was diverted from one                 the associate sold the computers and peripherals to
veteran patient. Judicial actions are pending.               various pawnshops. Both individuals previously
                                                             pled guilty to theft of Government funds. The
     12345678901234567890123456789012123456789012345
Credit Card Fraud
    12345678901234567890123456789012123456789012345
    12345678901234567890123456789012123456789012345          associate was sentenced earlier to serve 12
    12345678901234567890123456789012123456789012345
     12345678901234567890123456789012123456789012345
     12345678901234567890123456789012123456789012345         months’ incarceration followed by 3 years’
     12345678901234567890123456789012123456789012345
     12345678901234567890123456789012123456789012345         supervised release, and was ordered to pay
     12345678901234567890123456789012123456789012345
                 Chicago Sun-Times
     12345678901234567890123456789012123456789012345
     12345678901234567890123456789012123456789012345
     12345678901234567890123456789012123456789012345
                     Chicago, IL
     12345678901234567890123456789012123456789012345         $170,149 in restitution to the Government.
     12345678901234567890123456789012123456789012345
     12345678901234567890123456789012123456789012345

                                                             Other Employee Misconduct

                                                             z A former VAMC chief of podiatry was found
                                                             guilty of bribery, theft, and wire fraud after a
                                                             weeklong jury trial. The conviction resulted from
                                                             a joint FBI and VA OIG investigation into
                                                             corruption and fraud in a VAMC podiatry
                                                             program. The investigation determined that the
                                                             former chief accepted $25,000 from an individual
                                                             in exchange for falsifying VA records that
                                                             indicated the individual was present in the VAMC
                                                             residence program. In addition, VA paid the
                                                             individual and his spouse for working in the VA
                                                             program when they were seldom present and were
                                                             actually conducting a podiatry practice in another
                                                             state. The co-defendants previously pled guilty to
                                                             similar charges. Sentencing is pending.

                                                             z An individual formerly employed as a VAMC
                                                             patient services assistant pled guilty to an
                                                             indictment charging the individual with two counts
                                                             of attempted sexual exploitation of a minor under
                                                             15 years of age. This conviction followed an
                                                             investigation that revealed the individual was
                                                             downloading child pornography from the internet




                                                       18

                                                                                       Office of Investigations

using a VA computer while on duty at the VAMC.                 and detected the odor of alcohol on the VA nursing
This is a joint investigation with a local law                 assistant. A blood alcohol lab test was conducted
enforcement agency. Sentencing is pending.                     and found the individual to be legally intoxicated.

                                                               z    A VAMC nursing assistant was found guilty
Workers Compensation Fraud
                                                               for assaulting an 84-year-old veteran patient in his
                                                               care. The investigation found the individual was
z An individual pled guilty to a one count
                                                               observed by another VAMC employee hitting the
information charging her with a false statement to             veteran at least twice on the forehead and multiple
obtain Federal workers’ compensation. The                      times around the ankles and thighs. The patient
investigation found the individual, a VAMC                     was hit with such force that it caused abrasions
registered nurse, was hired in December 1979. In               and a subdural hematoma that was considered life
July 1980, she reported an injury to her back while            threatening at the time. The veteran had been
lifting a patient out of bed. On the individual’s              placed in arm and leg restraints earlier that day
March 1986 statement of disability, she reported               and could not defend himself.
that the 1980 injury to her back prevented her
from standing or sitting for any length of time.
The individual also reported being unable to drive,
                                                               Possession of Illegal Drugs
climb stairs, or walk fast because of severe pain.
However, videotape evidence and personal                       z A former VAMC pharmacist and her boyfriend
observation identified the individual walking and              have been indicted for possession of a controlled
driving an automobile with no apparent difficulty.             substance with intent to distribute, and with
It was determined that from March 1998 through                 possession of marijuana with intent to distribute.
April 1999, the individual worked in various                   These charges are the result of a joint investigation
facets of a small retail clothing business owned               conducted by a local law enforcement organization
and operated by the individual and her family.                 and the VA OIG. During a search by law
Cost savings to the Government are expected to be              enforcement authorities, approximately 19,700
$500,000.                                                      dosage units of medications were found, including
                                                               Schedule III and IV controlled substances, and a
                                                               significant amount of marijuana. The former
Abuse of Veterans by Caregivers                                pharmacist admitted that she had removed the
                                                               medications and controlled substances from the
z A VA nursing assistant was sentenced for                     VAMC where she was formerly employed.
assaulting a VA patient. The individual was
sentenced to 3 days in jail and fined $450. The
sentence was issued after the individual pled
                                                               Theft of Property
guilty to charges of harassment, disorderly
conduct, and public drunkenness. A joint                       z    An individual pled guilty and was sentenced
investigation by VA OIG and VA police disclosed                to 76 months’ incarceration for financial identity
the individual broke the jaw of a VA patient while             fraud. The non-veteran, fraudulently and with
giving patient care. The individual alleged the                criminal intent, obtained the identifying data of
patient grabbed his hand, and during his attempts              more than a dozen VAMC psychiatric in-patients
to free himself he accidentally struck the patient             and used the information to obtain credit cards and
with his elbow. Subsequent investigation revealed              other instruments in their names. Two associates
the injured patient was in full restraints at the time         who were also patients at the VAMC stole the
of the injury. The first responding VA police                  identifying data from routine VAMC daily reports
officer noted knuckle marks on the patient’s face              that had been left unguarded.




                                                         19

   Office of Investigations
1234567
1234567                                                                                                        123456
     The
1234567
1234567    Tennessean                                Nashville, TN                    Friday, September 13, 2002
                                                                                                               123456
                                                                                                               123456
1234567                                                                                                          123456
1234567
1234567
                                                                                                                 123456
                                                                                                                 123456
1234567                                                                                                          123456




    Medical Benefits Fraud                                     using the card across the U.S. as well as having
                                                               fraudulent drivers licenses from numerous states.
   z    An individual was sentenced to 21 months’              The VA loss is estimated at over $43,000. Follow
   incarceration to be followed by 3 years’ supervised         up is still being conducted on services obtained
   release, and was ordered to pay $412,839                    from VA in five additional states.
   restitution to VA. Investigation disclosed that he
   falsified and altered his military records, and he          Procurement Fraud
   claimed being captured and a prisoner-of-war, and
   later escaped from the North Koreans during the             z    The president of a construction company pled
   Korean War. The individual also falsely claimed             guilty to mail fraud. An investigation disclosed
   he was wounded and received a number of medals.             that between 1994 and 1997 the company received
   Based upon these false claims, he was qualified to          multiple Government construction contracts,
   collect disability compensation and medical care            including contracts for renovations at VA medical
   benefits from VA that he was not entitled to and            centers. Subsequently, the president applied by
   did so for a period of 16 years. During a major             mail and received Government progress payments
   news network interview, the individual falsely              by certifying suppliers and subcontractors had
   claimed he was a participant in the group of U.S.           been paid, when, in fact, he routinely failed to pay
   Army soldiers during the Korean War who were                the suppliers and subcontractors as required. As a
   ordered to fire on Korean civilians at No Gun Ri.           result of his actions, a total of ten Government
   The investigation disclosed that he was not at No           construction programs were delayed, small
   Gun Ri and thus could not have been a participant           businesses suffered financial difficulties, and his
   or witness to the alleged incident.                         bonding company declared bankruptcy. The total
                                                               monetary loss is $1,288,720. The president has
   z The brother of a veteran was arrested and                 been permanently barred from receiving any future
   charged with three counts of identity theft and one         Government contracts. Sentencing is pending.
   count of forgery. During this investigation, the
   subject gave false information that was uncovered
   after a fingerprint check. Subsequent interviews
                                                               Healthcare Fraud
   revealed the subject’s true identity. A fraudulent
   VA medical identification card had been found               z   A former VAMC audiologist was sentenced to
   amongst the subject’s belongings. The card                  24 months’ imprisonment and 36 months’
   contained the subject’s picture, but his brother’s          supervised release, and ordered to pay restitution
   unique identification. The subject admitted to              of $27,300. This investigation revealed the




                                                         20

                                                                                    Office of Investigations

audiologist sold hearing aids that were U.S.                 Death Match Project
Government property to approximately 75
veterans and 6 non-veterans. The audiologist                 z An ongoing proactive project is being
collected payments from these individuals and                conducted by the VA OIG Information Technology
kept the funds for his personal benefit.                     and Data Analysis Division in coordination with
                                                             the Office of Investigations. The match is being
Veterans Benefits                                            conducted to identify individuals who may be
                                                             defrauding VA by receiving VA benefits intended
Administration                                               for veterans who have passed away. When
                                                             indicators of fraud are discovered, the matching
VBA provides wide-reaching benefits to veterans              results are transmitted to VA OIG investigative
and their dependants including benefits payments,            field offices for appropriate action. To date, the
home loan guaranty services, and educational                 match has identified 5,557 possible cases. Over
opportunities. Each of these benefits programs is            513 investigative cases have been opened.
subject to fraud by those who wish to take                   Investigations have resulted in the actual recovery
advantage of the system. For example, individuals            of $5.5 million, with an additional $6.3 million in
submit false claims for service-connected                    anticipated recoveries. The 5-year projected cost
disability, third parties steal benefit payments             savings to VA is estimated at $16.6 million. To
issued after the unreported death of the veteran,
individuals provide false information so that
veterans qualify for VA guaranteed property loans,                        The Republican Journal

equity skimmers dupe veterans out of their homes,                              Belfast, ME

and educational benefits are obtained under false                        Thursday, August 8, 2002

representations. The Office of Investigations
spends considerable resources in investigating
and arresting those who defraud operations of
VBA.

Murder

z    A jury convicted an individual of homicide for
the murder-for-hire shooting of her husband, a
Navy enlisted man. She was also convicted of
theft of VA benefits. During the trial, she took the
stand in her own defense despite the prosecution’s
videotaped exhibits showing her admissions to an
undercover officer and a partial confession to the
crime after her arrest. She received over $158,000
of VA Dependency and Indemnity Compensation
(DIC) benefits as the widow of the deceased. As a
result of the guilty verdict, she is not entitled to
VA benefits and faces a prison term of 25 years to
life. The case was investigated jointly with the
state police and Naval Criminal Investigative
Service.




                                                       21

Office of Investigations

date, there have been 52 arrests on these cases            Loan Guaranty Program Fraud
with several additional cases awaiting judicial
action.                                                    Loan Origination Fraud

Employee Misconduct                                        z An individual was sentenced to serve 24
                                                           months’ imprisonment, followed by 36 months’
Theft & Embezzlement                                       supervised release, and was ordered to make
                                                           $87,603 in restitution to the Government. A joint
z A former VARO employee pled guilty to 23                 investigation with the FBI and local law
counts of theft of Government funds, 1 count of            enforcement discovered the individual was the
conspiracy to commit money laundering, and 1               ringleader of a group of approximately 80 co-
count of conspiracy. The individual, a 30-year VA          conspirators recruited to participate in a check
employee, embezzled more than $11 million in VA            fraud scheme. The scheme involved 16 fake
funds from 1993 until August 2001. She used her            business accounts opened to generate “payroll”
access to the VA computer system to create bogus           checks made payable to the co-conspirators. The
benefits accounts by resurrecting deceased                 co-conspirators would cash these checks at local
veterans in the computer system. After the                 businesses and remit a portion of the proceeds
accounts were created, she manipulated the                 back to the individual. During the investigation, it
computer system to issue large VA checks or                was discovered that the individual had submitted
regular monthly checks to her co-conspirators.             false statements to VA regarding his identification,
When the co-conspirators received the checks, a            employment, credit history, and financial
portion, usually one-third, was remitted to the            transactions while trying to secure a loan to
individual as payment for her services. The 11 co-         purchase a VA property. The VA loan was initially
conspirators entered guilty pleas and were                 denied; however, the individual then submitted
sentenced to a cumulative total of 294 months in           additional false statements and a counterfeit
jail and 35 years probation. Judicially ordered            cashier’s check in order to induce VA officials to
restitution to date has totaled over $23 million.          reconsider his application. The application was
Property (to include cash, insurance policies,             later approved. After making only three payments,
jewelry, cars, boats, motor homes, and a                   the loan went into default, resulting in a $16,817
submarine) with an appraised value of over                 loss to VA.
$2.7 million has been seized or forfeited.
Sentencing of the individual is pending. She               Other Loan Guaranty Fraud
could receive up to 20 years in jail.
                                                           z Three individuals were indicted on four counts
z   A former VARO employee pled guilty to a                of conspiracy to commit equity skimming and mail
one-count information, charging him with theft of          fraud. Between 1993 and 1999, two of the
public funds. A joint VA OIG and U.S. Postal               individuals operated a company that would contact
Inspection Service investigation established the           homeowners who had defaulted on their current
individual used his position to access VA’s                mortgages. Although they represented that they
financial management system and caused the                 would pay the mortgages and other expenses
issuance of an out-of-system check for $29,208             relating to the properties, these individuals
under the name of an accomplice, who then                  collected rental payments from tenants in these
cashed the check for him in return for $3,000.             properties, but never paid off the mortgage on the
                                                           property. Eventually the properties would go to
                                                           foreclosure. In 1996, the third individual charged




                                                     22

                                                                                    Office of Investigations

in this scheme became employed in the business as            Beneficiary Fraud
an office manager. The investigation determined
this scheme involved over 160 separate properties.
                                                             Dependency and Indemnity
Many of these properties were VA and Department
                                                             Compensation Benefits Fraud
of Housing and Urban Development (HUD)
properties. The combined loss to the Government
                                                             z An individual pled guilty to theft of public
is currently over $1.4 million. This case is a joint
investigation with the U.S. Postal Inspection                monies. The joint VA OIG, FBI, and Social
                                                             Security Administration (SSA), OIG investigation
Service.
                                                             determined the individual’s mother had died in
                                                             January 1995. Prior to her death, she received
z A husband and wife appeared in U.S. District
                                                             both VA DIC and Social Security benefits. Absent
Court for sentencing. The husband was sentenced
                                                             notification of her mother’s death, for the next 6
to serve 34 months’ imprisonment and 3 years’
                                                             years both continued making monthly benefit
supervised probation upon release from prison and
                                                             deposits into her checking account. The joint
was ordered to pay restitution of $573,635. The
                                                             investigation established that 2 years after her
wife was sentenced to 5 years’ probation and
                                                             mother’s death, the individual sent VA a fraudulent
ordered to pay restitution of $102,910. The
                                                             letter to which she forged her mother’s signature.
sentencing was in response to a joint VA OIG, FBI,
                                                             In late 2000, an ongoing VA OIG death match
and HUD OIG investigation that developed
                                                             project confirmed her mother’s death and also
evidence implicating the couple in a conspiracy
                                                             initiated the investigation against the individual.
with others to purchase and dispose of foreclosed
                                                             Combined Government monetary losses of
VA and HUD properties in connection with a
                                                             $91,000 represented overpayments in VA and SSA
“flipping” scheme. As part of the scheme, the
                                                             benefits. Sentencing is pending.
couple created fraudulent supporting
documentation on a home computer that enabled
unqualified buyers to obtain mortgage financing.             Pension Benefits Fraud

z    A criminal information was filed charging an            z   An individual was indicted on one count of
employee of a company with obstructing an                    theft of Government funds and one count of
agency proceeding. A joint agency investigation              providing a false statement. The individual, a
revealed that employees of the company had                   recipient of a death pension benefit based on her
defrauded VA, HUD, and various financial                     deceased husband’s military service, failed to
institutions by submitting false and fraudulent              report her remarriage to VA over an 18-year period
information to the Federal Housing                           resulting in the receipt of $151,693 to which she
Administration, Government National Mortgage                 was not entitled.
Association, and VA. Part of the scheme involved
the defendants’ obtaining loan proceeds from the             z The former spouse of a deceased veteran was
corporation’s warehouse lending institutions by              indicted on six counts of theft of Government
submitting forged and fraudulent mortgages to                funds, two counts of making false statements to
those institutions as collateral for loans. The              the Government, and two counts of mail fraud.
employee impeded the investigation by providing              The charges resulted from a VA OIG investigation
false information to federal agents. Losses in this          that disclosed the individual collected VA widow's
case exceed $70 million.                                     pension benefits since the death of her veteran
                                                             husband in 1975. However, the individual
                                                             remarried in 1976 and failed to notify VA. Her re-
                                                             marriage made her ineligible to receive further




                                                       23

Office of Investigations

benefits payments. On annual VA eligibility                     restitution. The individual previously pled guilty
verification forms, the individual reported to VA               to four counts of misappropriation by a fiduciary
that she had not remarried since the death of her               after a joint VA OIG and SSA OIG investigation
husband. Total loss to the Government is over                   substantiated allegations that he had embezzled
$110,000.                                                       over $400,000 from the estates of veterans for
                                                                whom he had been appointed conservator.
Education Benefits Fraud
                                                                Theft of Benefits
z A grand jury indicted two individuals for
conspiracy and bribery of a public official. One                z The daughter of a deceased veteran was
individual, the executive vice-president of a                   sentenced to 3 years’ probation and ordered to pay
college, was charged with one count of conspiracy               $1,800 in restitution. The individual had
and three counts of bribery. The other individual,              previously pled guilty to two counts of theft of
the owner and president of the college, was                     Government property/funds. The VA OIG
charged with one count of conspiracy and one                    investigation determined the daughter failed to
count of bribery. The indictment alleges the two                report to VA the death of her father and submitted
individuals conspired to pay money to a VA                      several forged documents to VA indicating her
vocational rehabilitation counselor (and a VA OIG               father was still alive. The daughter deceived the
undercover agent posing as a vocational                         VA for over 20 years resulting in an overpayment
rehabilitation counselor) in return for referring               exceeding $497,000.
students to attend their college. It is also alleged
that the individuals paid cash to the counselor in              z   The granddaughter of a deceased widow who
return for the referral of six students to attend their         had been receiving VA benefits was sentenced to
college.                                                        serve 6 months’ home confinement and 5 years’
                                                                probation, and to make restitution of $33,171. The
Fiduciary Fraud                                                 grandmother died in March 1982, and VA was not
                                                                notified of the death. Benefits continued to be
z A former VARO employee and a veteran’s                        paid through March 2000, creating an
sister/guardian have been indicted for filing false             overpayment of $148,652. Investigation disclosed
statements in regards to the status of the veteran.             the widow’s daughter had negotiated the majority
The VARO employee made statements in his                        of benefits, but was of such debilitating physical
reports that he had personally interviewed the                  condition that prosecution was precluded.
veteran at the veteran’s mother’s residence, when               Following the daughter’s hospitalization in 1996,
the veteran was actually serving a 4-year sentence              the granddaughter continued the negotiation of the
in a penitentiary. Prior to the veteran’s mother’s              widow’s benefits.
death, the veteran’s sister assisted the veteran’s
mother in falsifying the fiduciary account yearly               Philippines Benefits Fraud
reports, wherein they gave an accounting of the
monies that they allegedly spent for the care of the            z    The OIG conducted a proactive investigative
veteran. They actually used the majority of the                 project based on suspected fraud associated with
$92,400 for their personal use. This case is being              the delivery of benefits to veterans residing in the
jointly investigated with the FBI.                              Philippines. A team of OIG employees conducted
                                                                the review that consisted of mailing over 20,000
z An individual was sentenced to serve 12                       letters, conducting 1,100 face-to-face interviews,
months’ home detention and 3 years’ supervised                  performing 2,400 fingerprint comparisons, and
probation, and ordered to pay $490,625 in                       reviewing 2,500 VA claim folders. These actions
                                                                resulted in the proposed termination from VA


                                                          24

                                                                                    Office of Investigations

                                                             incarceration and 1 year supervised probation, and
                                                             was ordered to pay $101,882 in restitution. The
                                                             court also banned the individual from representing
                                                             veterans before the VA. The individual previously
                                                             pled guilty to one count of unlawful receipt of
                                                             funds from veterans. A joint investigation
                                                             conducted by the VA OIG and FBI revealed that
                                                             between 1996 and 2001, the individual received
                                                             approximately $300,000 in illegal payments while
                                                             representing 250 former prisoners-of-war veterans
                                                             from World War II and the Korean War. The VA
                                                             terminated the individual’s accreditation as a
VA Secretary Anthony J. Principi and IG Richard J.           service officer. The individual resigned from
Griffin observe the Phillipines fraud review work in         employment with the state shortly before entering
progress. From l to r are Secret Service fingerprint         the guilty plea.
analyst Jim Price, VARO Assistant Director Jon
Scully (rear), Secretary Principi, OIG Criminal              z A husband and wife both pled guilty to making
Investigations Division Director James Gaughran,             a false statement and misusing of a Social Security
Mr. Griffin, and OIG Program Manager Debra
                                                             number to commit fraud. The defendants admitted
Crawford.
                                                             they fraudulently obtained $31,222 in benefits
benefit rolls of almost 600 payees. To date, the             from the Government by concealing employment
cost savings to VA is over $2.5 million in                   and making false reports. The individuals also
overpayments with a projected 5-year cost savings            passed two counterfeit U.S. Treasury checks at a
of over $21 million by terminating VA payments of            bank. One was a $25,000 counterfeit check
those individuals who are not entitled to the                purportedly issued by SSA and the other was a
benefits. Nine criminal cases were initiated and 15          $250,000 counterfeit check purportedly issued by
individuals have been arrested. These cases were             VA.
investigated and referred to the Philippines
National Bureau of Investigation. One of these
cases involved a large criminal organization that
                                                             Fugitive Felon
was involved in submitting claims to VA on behalf            Program
of potential beneficiaries. The organization would
often submit false documentation to VA in support            The Office of Investigations has established a
of the claim. Based on evidence developed by the             Fugitive Felon Program to identify VA benefits
VA OIG, an undercover operation was conducted                recipients who are fugitives from justice. The
on this case and evidence of the crimes was                  program is still under active development and will
collected using a search warrant. The two                    include conducting computerized matches between
ringleaders of this organization were among those            fugitive felon files of law enforcement
arrested. Additionally, 147 other subjects have              organizations and VA files of veterans who have
been identified as having been involved in this              received benefits from VA. Once identified as
scheme.                                                      fugitives, information on the individuals will be
                                                             provided to law enforcement organizations to
Other Benefits Fraud                                         assist in apprehension. Ultimately, fugitive
                                                             information will be provided to VA to suspend
z   A former state employee, who also served as a            benefits payments and initiate recovery action.
national service officer for a veterans’ service             Two recent investigations dealing with fugitives
organization, was sentenced to serve 4 months’               are detailed below.


                                                       25

Office of Investigations

z    VA police contacted the VA OIG for assistance
concerning an inpatient at a VAMC. The inpatient
                                                             OIG Forensic Document
had an outstanding warrant for his arrest for a              Laboratory
recent 1st degree assault during which the veteran
slashed the throat of his girlfriend. The warrant            The OIG operates a nationwide forensic document
was an out-of-state warrant, thus a fugitive warrant         laboratory service for fraud detection that can be
was obtained. Investigation disclosed the veteran            used by all elements of VA. The types of requests
had admitted himself into the VAMC psychiatric               routinely submitted to the laboratory include
unit after the alleged assault. VAMC psychiatrists           handwriting analysis, typewriting analysis, ink
advised the veteran was competent to understand              and paper analysis, analysis of photocopied
the charges against him, and the VAMC planned                documents, and suspected alterations of official
on discharging him that same day. VAMC staff
                                                             documents.
reported that the veteran, a former member of the
motorcycle gang, asked questions about the VA
                                                             There were a total of 34 reports issued involving
police, such as “do they carry guns and what kind
                                                             23 completed laboratory cases during this
of guns?” VAMC staff also reported the veteran
                                                             semiannual period.
stated that he would not return to jail. VA police
and VA OIG agents apprehended the veteran
                                                                      Laboratory C ases for the Period
without incident. Bail was set at $50,000 and the
veteran was transported to the county jail to await                        Requester
                                                                                                      C a se s
his arraignment.                                                                                    C ompleted

                                                                 OIG Offi ce of Investi gati ons         8
z    A Federal arrest warrant has been obtained for
                                                                 VA Regi onal Offi ces                  13
a veteran for unlawful flight to avoid prosecution.
The issuance of the arrest warrant was the result of             Offi ce of Securi ty and Law
                                                                                                         1
                                                                 Enforcement
a joint investigation with the FBI that concluded
the veteran, wanted for 2nd degree manslaughter,                 Other                                   1
3rd degree assault, and reckless driving had fled in                          Total                     23
order to avoid prosecution for these offenses. In
this case, a 10-year-old girl was killed and her
                                                             The following are examples of completed
mother was seriously injured allegedly because of
                                                             laboratory reports:
the veteran’s reckless driving. The VA OIG
provided the recent addresses for the suspect. A
                                                             z A laboratory examination determined that an
court order has been obtained ordering the bank to
                                                             individual forged the signature of a veteran's
disclose on a daily basis the banking activity,
                                                             fiduciary on a letter sent to VA in support of
including automated teller machine withdrawals,
                                                             benefits payments. The individual when
in an effort to apprehend this fugitive. The
                                                             confronted with the evidence in court stipulated to
veteran is currently receiving $2,163 per month in
                                                             the forgery and was subsequently found guilty for
VA benefits due to a 70 percent post-traumatic
                                                             making false statements. The loss to VA in this
stress disorder disability. At this time, the VA
                                                             case was over $90,000.
benefits will not be cut off under the provisions of
the new fugitive felon initiative, as the veteran’s
                                                             z   In another case, a veteran submitted ballpoint
automated teller machine withdrawals may lead to
                                                             ink handwritten medical records to VA for
his apprehension.                                            service-connected benefits. Laboratory




                                                       26

                                                                                    Office of Investigations

examinations determined the ink used in the                 Outcome

medical records had not been manufactured on the            z VA managers agreed to take administrative

dates recorded on the documents.                            sanctions against two officials, and take six

                                                            corrective actions to improve operations and

                                                            activities, as a result of these investigations. The

II. ADMINISTRATIVE                                          corrective actions included correcting an improper

INVESTIGATIONS                                              personnel action, clarifying and taking steps to

                                                            ensure adherence to certain Federal ethics

DIVISION                                                    regulations, and charging a physician leave for

                                                            time not worked.

Mission Statement
                                                            A sample of the Administrative Investigations

    Independently review allegations and                    Division reports issued during this period are

    conduct administrative investigations                   discussed below. These reports address serious

    generally concerning high-ranking senior                issues of misconduct against high-ranking officials

    officials and other high profile matters of             and other high profile matters of interest.

    interest to the Congress and the Department.
                                                            VETERANS HEALTH
Resources
                                                            ADMINISTRATION
The Administrative Investigations Division has six
FTE allocated. The following chart shows the                Physician Time and Attendance
percentage of resources used in reviewing
allegations by program area.                                z An administrative investigation substantiated
                                                            that a full-time physician misused his official VA
                                                            duty time by working for compensation at the
                                                            affiliated medical school during his regular VA
                                                            tour of duty. The investigation disclosed that, over
                                              VBA
                                              10%           a 12-month period, the physician treated patients
                                                            at the affiliate on 20 days during his VA tour of
    VHA                                                     duty. VHA took appropriate administrative action
    80%
                                                            against the physician and charged him 20 days of
                                                            annual leave.
                                           VACO
                                            10%             Acceptance of Pharmaceutical
                                                            Samples

Overall Performance                                         z An administrative investigation disclosed that
                                                            a medical center pharmacy chief misused his
                                                            position and improperly accepted gifts of
Output
                                                     pharmaceutical samples on multiple occasions.
z   We closed 27 cases.
                                    The pharmacy chief solicited and accepted
z   We issued five reports (including two from a
           medications from representatives of
single case) and eight advisory memoranda.
                 pharmaceutical companies for his personal use and
Fifteen cases resulted in administrative closures.
         the use of his family members. The medical




                                                      27

Office of Investigations

center director took administrative action against
the chief. The director also drafted a local policy
prohibiting pharmaceutical company
representatives from giving drug samples to staff.
In response to recommendations to VA Central
Office on this issue, officials issued a statement to
field employees explaining the Federal ethics
regulations concerning acceptance of gifts, and
worked with the Office of General Counsel on
more specific guidance.

Cleanliness and Sanitation Conditions

z An administrative investigation determined
whether senior executives at a co-located VISN
and VAMC were aware of cleanliness and
sanitation conditions at the medical center,
provided effective leadership to improve those
conditions, and intentionally misled the Office of
the Secretary regarding the facility's current status.
The investigation concluded that the VISN
director and deputy director were aware of the
cleanliness conditions and should have intervened
more aggressively to ensure the deficiencies were
addressed. The deficiencies were a result of the
former medical center director's decision to give
funding priority to construction projects and
staffing needs that more directly related to quality
of care and patient satisfaction rather than to
housekeeping. The VISN director and deputy
director were aware of these priorities. The
investigation also concluded that the VISN
director and current medical center director did
not intentionally mislead the Office of the
Secretary regarding current cleanliness conditions
at the facility, although some of the information
they provided could have been interpreted to
suggest that broader cleanliness and sanitation
issues had been resolved. We provided the
investigation report to the Secretary of Veterans
Affairs for his information and whatever action he
deemed appropriate.




                                                         28

OFFICE OF AUDIT

Mission Statement                                            Overall Performance
    Improve the management of VA programs                    Output

    and activities by providing our customers                z We issued 37 audits, evaluations, and reviews

    with timely, balanced, credible, and                     for an output efficiency of 1 report per 2.4 FTE

    independent financial and performance                    during this 6-month period. We also issued an

    audits and evaluations that address the                  additional 29 contract review reports (18 preaward

    economy, efficiency, and effectiveness of VA             and 11 postaward contract reviews), for an output

    operations, and that identify constructive               efficiency of about 2.4 reports per FTE for the

    solutions and opportunities for improvement,             6-month period.

    and to conduct preaward and postaward
    reviews to assist contracting officers in price          Outcome

    negotiations and to ensure reasonableness of             z Recommendations to enhance operations and

    contract prices.                                         correct operating deficiencies have associated

                                                             monetary benefits totaling approximately

Resources                                                    $190.9 million. In addition, contract reviews

                                                             identified monetary benefits of about $36.7 million

                                                             associated with the performance of preaward and

The Office of Audit has 176 FTE allocated for its
                                                             postaward contract reviews.

headquarters and 8 operating divisions located
throughout the country. The following chart shows
                                                             Cost Effectiveness

the allocation of resources used in auditing each of
                                                             z We achieved a return of about $16 in monetary

VA’s major program areas:
                                                             benefits for every dollar spent on audits,

                                                             evaluations, and reviews during this 6-month

                                                             period. We also achieved a return of about $27 in

                         IT                                  monetary benefits for every dollar spent on

                         4%     Management                   contract reviews. Additionally, contracting officers

                                    7%
                                                             sustained 67 percent of our recommended better

        VBA                       VHA                        use of funds during negotiations.

        73%                       11%
                                                             Customer Satisfaction

                                 A&MM                        z Customer satisfaction with performance and

                                  5%                         financial audits and evaluations during this

                                                             reporting period was 4.5 on a scale of 5.0. The

                                                             average customer satisfaction rating achieved for

In addition, the Office of Audit’s Contract Review           contract reviews was 4.8 out of a possible 5.0.

and Evaluation Division has 24 FTE authorized for
reimbursement under an agreement with the VA                 Audits completed during the period identified

Office of Acquisition and Materiel Management.               opportunities to improve services to veterans, and

This division conducts preaward and postaward                identified savings that could be used to increase

reviews of certain categories of VA contracts.               services. The following summarizes some of the

                                                             audits completed during the reporting period

                                                             organized by VA component: VHA, VBA, and

                                                             Office of Management.


                                                       29

Office of Audit

Veterans Health                                              the care provided to the two patients discussed in
                                                             an article entitled, “Nasal Myiasis in an Intensive
Administration                                               Care Unit Linked to Hospital-Wide Mouse
                                                             Infestation” was adequate, but that the incidents
Quality of Care                                              described occurred because of poor insect control
                                                             at the facility.
Issue: Medical center sanitation.
                                                             The Secretary of Veterans Affairs, the Under
Conclusion: Management did not
                                                             Secretary for Health, the Assistant Deputy Under
   maintain appropriate levels of
                                                             Secretary for Health, and the Medical Center
   cleanliness or rid the center of pests.
                                                             Director concurred with the recommendations
Impact: Strengthened controls to monitor
                                                             made to them and provided acceptable
   the quality of care provided to patients.
                                                             implementation plans for all applicable
                                                             recommendations. (Report on Medical Center
At the request of the Secretary of Veterans Affairs,
                                                             Sanitation and Follow-up of the Combined
we conducted a review of the sanitation and pest
                                                             Assessment Program Review Kansas City VAMC,
control at Kansas City VA Medical Center. We
                                                             02-02280-112, 6/3/02)
found that management did not maintain the
medical center at appropriate levels of cleanliness
or rid the medical center of pests. The unclean              Resource Utilization
conditions date back to at least October 1997; were
discussed among medical center management,                   Issue: Management of miscellaneous
staff, and patients; and were well documented in                supply inventories.
medical center records. Management of the                    Conclusion: VAMCs could reduce linen
Heartland Veterans Integrated Service Network                   inventories by using automation and
(VISN 15) was also aware of the poor sanitary                   establishing a 3-day supply goal, and
conditions and pest control at the VAMC.                        could reduce all miscellaneous supply
                                                                inventories by complying with VHA’s
VAMC clinical management implemented effective                  policy.
controls to monitor the quality of care provided to          Impact: Potential better use of $54 million.
patients as the controls related to infectious
diseases and infection control. We also found that           The VA OIG performed an audit to evaluate how
                                                             effectively VAMCs managed their miscellaneous
                                                             supply inventories. This was the fifth in a series of
                                                             audits that the OIG has performed to assess
                                                             inventory management practices for various
                                                             categories of supplies. There are four categories of
                                                             miscellaneous supplies: operating supplies (mainly
                                                             housekeeping and dietetic items), office supplies,
                                                             employee uniforms, and linens. In FY 2001,
                                                             VHA’s miscellaneous supply purchases totaled
                                                             $236 million. At any given time during FY 2001,
                                                             the value of VAMC miscellaneous supply
                                                             inventories was $69 million.

                VA Medical Center
                                                             Our audit of inventory practices at four
                 Kansas City, MO                             representative VAMCs found that all four had




                                                       30

                                                                                               Office of Audit

operating, office, and uniform supply inventories           Issue: VA Consolidated Mail Outpatient
that exceeded the 30-day level. We used a 3-day                Pharmacies (CMOPs) inventory
supply level as the criterion for evaluating linen             management.
inventory management because these items are                Conclusion: VA CMOPs could reduce
reusable. All four of the VAMCs audited had linen              pharmaceutical inventories by
inventories that substantially exceeded the 3-day              effectively using automated inventory
criterion. The four VAMCs had combined                         controls and developing better reports.
miscellaneous supply inventories valued at                  Impact: Potential better use of $29 million.
$3.5 million, $2.7 million (77 percent) of which
was excess.                                                 The OIG performed an audit to evaluate how
                                                            effectively VA’s seven CMOPs managed their
The excess inventories occurred primarily because           pharmaceutical inventories. In FY 2001, CMOP
VAMC inventory managers did not effectively use             expenditures for pharmaceuticals totaled
VA’s automated Generic Inventory Package (GIP)              $1.4 billion and the combined CMOP inventories
to control inventory levels. Of the 16 inventories          totaled about $64 million.
reviewed, 6 were managed and 10 were not
managed with GIP. At the VAMCs where GIP was                Our audit found that CMOPs could significantly
used, inventory managers had not taken full                 reduce their pharmaceutical inventories. In
advantage of GIP’s capabilities and had excess              evaluating inventory levels, we applied three
inventory on hand.                                          different benchmarks for the three major types of
                                                            items in inventory-ready-to-dispense items (10-day
VAMC compliance with the requirements of VHA’s              supply level), repackaged items (30-day level), and
inventory management handbook will address the              bulk quantity items (14-day level). The supply on
issue of using GIP to properly manage operating,            hand exceeded the applicable benchmarks for
office, and uniform supply inventories. However,            11,553 (60 percent) of the 19,276 items in the
to improve linen inventory management, we                   CMOP inventories. We estimated that of the
recommended that VHA ensure that Textile Care               $64 million in total inventory at the seven CMOPs,
Management Report guidance: (i) requires                    $29 million (45 percent) exceeded current
VAMCs to use GIP to manage linen inventories;               operating needs.
and (ii) establishes goals for reducing linen
inventory levels, with a 3-day level as the initial         The excess inventory occurred because CMOP
goal and a 1-day level as the ultimate goal. We             staff did not closely monitor stock levels, made
estimated that better management could reduce               unnecessarily large purchases, and did not
VHA-wide miscellaneous supply inventories by                effectively manage item demand. These problems
$54 million. The Under Secretary for Health                 could have been avoided or minimized if CMOPs
agreed with the audit findings and                          had more effectively used the inventory
recommendations and provided acceptable                     management features and data available in their
implementation plans. (Audit of VAMC                        automated systems. CMOPs also needed to
Management of Miscellaneous Supply Inventories,             develop better inventory management reports that
00-01089-91, 5/8/02)                                        would help them monitor stock levels and identify
                                                            out-of-line situations such as excess inventory. In
                                                            addition, one CMOP had not effectively
                                                            implemented controls to ensure the security and
                                                            accountability of its controlled substances
                                                            inventory.




                                                      31

Office of Audit

We recommended that VHA: (i) require CMOPs                  response to the Advisory Letter that agreed with
to eliminate excess inventories and to effectively          the audit results and discussed actions VHA will
use automated inventory information; (ii) improve           take to address the identified deficiencies. Based
automated inventory management reports; (iii)               on the Under Secretary’s planned actions, no
develop minimum demand requirements for adding              recommendations were included in the report.
new products; (iv) train CMOP staff on inventory            (Audit of Department of Veterans Affairs Fiscal
management techniques and the use of automation;            Year 2001 Special Disabilities Capacity Report,
(v) ensure that CMOPs implemented effective                 02-01202-164, 9/12/02)
internal controls and security requirements for
controlled substances; and (vi) monitor CMOP
progress in reducing inventories and improving
                                                            Veterans Benefits
inventory management. The Under Secretary for               Administration
Health agreed with the findings and
recommendations and provided acceptable
implementation plans. (Audit of VA Consolidated
                                                            Delivery of Benefits and Services
Mail Outpatient Pharmacy Inventory
Management, 00-01088-97, 5/17/02)                           Issue: Unreimbursed medical expense
                                                               (UME) claims.
Data Validity                                               Conclusion: Beneficiary claims for
                                                               unreimbursed medical expenses are at
                                                               risk for errors and fraud.
Issue: Compliance with Public Law 107-
                                                            Impact: Potential better use of
   135.
                                                               $125 million.
Conclusion: With the exception noted,
   VA’s Special Disabilities Capacity
                                                            At the request of the former Under Secretary for
   Report fairly and accurately presents
                                                            Benefits, who was concerned about potential
   the data required by the Public Law.
                                                            program fraud, the OIG conducted an audit of
Impact: Accurate data.
                                                            VBA’s benefit payments to beneficiaries receiving
                                                            increased benefits as a result of UME claims. The
The purpose of the audit was to determine if the
                                                            purpose of the audit was to determine the accuracy
VA’s FY 2001 Special Disabilities Capacity Report
                                                            of the award and support for beneficiary UME
accurately presents the information required by
                                                            claims.
statute. The audit was conducted to comply with
the VA Health Care Programs Enhancement Act of
                                                            The audit found that beneficiaries were
2001 (Public Law 107-135) that requires the OIG
                                                            inappropriately submitting UME claims that
to audit each annual capacity report and submit a
                                                            increased the level of their benefit payments.
certification to Congress as to its accuracy.
                                                            Processing of these claims was not effectively
                                                            handled by VBA, resulting in processing errors and
With the exception of five data tables involving
                                                            potential program fraud with a significant number
mental health program staffing, we concluded that
                                                            of erroneous benefit payments to claimants (both
VA’s FY 2001 Special Disabilities Capacity Report
                                                            overpayments and underpayments). Also, VBA
fairly and accurately presents the staffing,
                                                            needs to enhance the effectiveness of its
workload, costs, and other data required by the
                                                            verification of UME claims under the Provider
Act. During the course of the audit, we issued an
                                                            Proof Verification program and ensure that the
Advisory Letter to VHA program officials
                                                            higher cost claims (UME claims over $15,000) are
outlining the staffing data reporting deficiencies.
                                                            verified. Processing errors and potential program
The Under Secretary for Health provided a




                                                      32

                                                                                               Office of Audit

fraud results in annual beneficiary overpayments             improving internal controls and financial reporting;
of as much as $125 million and underpayments                 and (iii) shows the results of the follow up of prior
totaling as much as $20 million. These processing            year CFS audit findings. The other four
errors and potential program frauds represent                management letters covered the three data centers
significant potential lifetime overpayments and              and one application system and were issued on a
underpayments to beneficiaries. The Under                    limited basis.
Secretary for Benefits agreed with the report                [(i) Management Letter, Audit of VA’s FYs 2001

findings, and provided acceptable implementation             and 2002 CFS General Systems Control Review at

plans that address the intent of the                         the Austin Automation Center, 01-01463-104,

recommendation. (Audit of VBA Benefit Payments               6/3/02;

Involving Unreimbursed Medical Expense Claims,               (ii) Management Letter, Audit of VA’s FYs 2001

00-00061-169, 9/30/02)                                       and 2002 CFS General Systems Control Review at

                                                             the Hines Benefit Delivery Center, 01-01463-106,

Office of Management                                         6/13/02;

                                                             (iii) Management Letter, Audit of VA’s FYs 2001

                                                             and 2002 CFS General Systems Control Review at

VA’s Consolidated Financial                                  the Philadelphia Information Technology Center,

Statements                                                   01-01463-105, 6/13/02;

                                                             (iv) Management Letter, Audit of VA’s FYs 2001

Issue: Financial management.                                 and 2002 CFS Loan Guaranty Systems Control

Conclusion: Management letters were                          Review at the Austin Automation Center,

   issued to assist VA in improving                          01-01463-107, 6/13/02;

   financial management.                                     (v) Management Letter, Audit of VA’s CFS for the

Impact: Improved financial reporting and                     FY Ended September 30, 2001, 01-01463-123,

   controls.                                                 6/21/02]


The independent public accounting firm, Deloitte             Preaward Contract Reviews
& Touche LLP, performed VA’s Consolidated
Financial Statements (CFS) audit for the OIG. As             Issue: Federal Supply Schedule (FSS)
part of the audit, we issued five management letters            vendors’ best prices.
addressing financial reporting and control issues.           Conclusion: Vendors can offer better
The management letters provided VA managers                     prices to VA.
additional observations and advice that will enable          Impact: Potential better use of $28 million.
the Department to improve accounting operations
and controls.                                                Preaward reviews of 12 FSS and direct delivery
                                                             offers contained recommendations that have the
One management letter (Report No. 01-01463-                  potential for cost savings of $28 million.
123): (i) reiterates the six material weaknesses and         Recommendations to negotiate lower contract
five reportable conditions identified in our                 prices were made because the manufacturers were
previously issued CFS audit report No. 01-01463-             not offering the most favored customer prices to
69 (Audit of the Department of Veterans Affairs              FSS customers when those same prices were
Consolidated Financial Statements for FYs 2001               extended to commercial customers purchasing
and 2000, February 27, 2002); (ii) provides 19               under similar terms and conditions as the FSS.
additional observations and recommendations from
the audit to further assist the Department in




                                                       33

Office of Audit

Issue: Healthcare resource contracts.
Conclusion: VA can negotiate reduced
   contract costs.
Impact: Potential better use of $5 million.

We completed reviews of six proposals from VA
affiliated medical schools involving the acquisition
of scarce medical specialists’ services. We
concluded that the contracting officer should
negotiate reductions of $5 million to the proposed
contract costs because of differences between the
proposed costs for the services solicited and the
costs the affiliate could justify during the reviews.

Postaward Contract Reviews

Issue: Contractor overcharges for
   pharmaceuticals and medical supplies.
Conclusion: Postaward reviews disclosed
   overcharges.
Impact: Recovery of $4 million.

z   We completed two Public Law 102-585
compliance reviews at pharmaceutical vendors,
with recoveries amounting to $62,000.

z We completed nine reviews of vendors’
contractual compliance with specific pricing
provisions of their FSS contracts. Recoveries
amounted to $4 million.

OIG efforts to maintain an aggressive postaward
contract review program have resulted in numerous
companies submitting voluntary disclosures and
refund offers for overcharges on their contracts
with VA. Contract review recoveries are a major
source of revenue to VA’s Revolving Supply Fund.
These recoveries reflect VA working as a team with
the Office of Acquisition and Materiel
Management, Office of General Counsel, VHA,
and OIG participating in an effort to ensure that
VA’s contracts are fairly priced.




                                                        34

OFFICE OF HEALTHCARE INSPECTIONS
Mission Statement                                            z We participated in 18 CAP reviews to evaluate
                                                             healthcare issues and made 111 recommendations
    Promote the principles of continuous quality             that will improve operations and activities, and the
    improvement and provide effective                        care and services provided to patients.
    inspections, oversight, and consultation to
    enhance and strengthen the quality of VA’s               z   At the request of the Secretary of Veterans
    healthcare programs.                                     Affairs, we participated in one follow up CAP
                                                             review on actions taken to implement
                                                             recommendations reported during the last
Resources
                                                             semiannual report. The review included 12
                                                             recommendations to improve the quality of care,
The Office of Healthcare Inspections (OHI) has 46
                                                             sanitation, control over pest infestations, and
FTE allocated to staff headquarters and field
                                                             infection controls.
operations. The following chart shows the
allocation of resources utilized to conduct
                                                             z We completed reports on 2 summary
evaluations; inspections; CAP, oversight and
                                                             evaluations and made 8 recommendations to
technical reviews; and clinical consultations for
                                                             enhance VHA’s pain management initiatives and
support of criminal cases.
                                                             procedures for prescribing mental health patients
                                                             controlled substances.

                       Technical                             z We completed reports on 20 Hotline cases,
                       Review s                              which consisted of reviews of 69 issues, and we
                         5%            Evaluations           made 57 recommendations that improve the health
                                          25%                care and services provided to patients.
            CAP
          Review s
            30%                                              z   We monitored the completion of another 99
                                                             Hotline cases. These cases, consisting of
                                            Consults         allegations pertaining to 136 issues, were referred
                                              10%
                                                             to VHA managers for actions.
           Oversight
           Review s              Hotline
             5%                                              z We provided clinical consultative support to
                              Inspections
                                  25%                        investigators on 6 criminal cases.

                                                             z We completed 28 technical reviews on
                                                             recommended legislation, new and revised policies,
                                                             new VA program initiatives, and external draft
Overall Performance                                          reports.

Output                                                       z   We administratively closed 4 Hotline cases
Inspectors completed 195 initiatives for an output           because the allegations were not substantiated.
efficiency of 8 initiatives per allocated FTE in OHI
during this reporting period.                                z We oversaw the work of VHA’s Office of the
                                                             Medical Inspector on 3 projects.




                                                       35

Office of Healthcare Inspections

Outcome
                                                     consistently justified in medical records.
z Overall, we made or monitored the
                         Psychiatrists inconsistently considered or
implementation of 188 recommendations to
                    documented referrals to alternative treatment
improve the quality of care and services provided
           modalities such as pain clinics. Additionally,
to patients and their families. VHA managers
                clinical reasons for prescribing narcotics and
agreed with all of our recommendations and
                  treatment contracts with patients were not
provided acceptable implementation plans. VHA
               regularly evident in the records we reviewed.
implementation plans will improve clinical care

delivery, management efficiency, and patient safety
         We made three recommendations that will
and will hold employees accountable for their
               strengthen the procedures for managing mental
actions.
                                                    health patients who have chronic pain. The Under
                                                             Secretary for Health agreed with the findings and
Customer Satisfaction
                                       recommendations, and provided acceptable
z We surveyed the facilities visited and asked for
          implementation plans. (Healthcare Inspection -
their input concerning the benefits of our
                  Controlled Substances Prescribed to Patients in
inspections. Survey results showed an average
               VHA Mental Health and Behavioral Sciences
rating of 4.7 out of a possible best score of 5.0.
          Programs, 01-00026-18, 4/16/02)

Veterans Health                                              Issue: VHA’s pain management initiative.
                                                             Conclusion: Opportunities exist to
Administration                                                  strengthen VHA’s pain management
                                                                program.
Summary Evaluations                                          Impact: Enhance the effectiveness of
                                                                VHA’s controls and procedures for
                                                                managing patients’ pain.
Issue: Prescribing long-term controlled
   substances for mental health patients
                                                             This review was conducted to evaluate VAMCs’
   with chronic pain.
                                                             compliance with VHA’s pain management
Conclusion: Care could be improved by
                                                             initiative. We examined current facility policies on
   better managing narcotics prescribed
                                                             pain management, employee pain management
   for patients.
                                                             education, the effect staff attitudes and facility
Impact: Effective management of patients’
                                                             cultures had on pain management practices, and
   chronic pain.
                                                             the adequacy of assessment and treatment
                                                             information documented in medical records.
We conducted a review of prescribers’ management
of long-term controlled substances usage for
                                                             We found that VHA has made significant strides in
mental health and behavioral sciences patients.
                                                             implementing and enhancing managers’ knowledge
Controlled substances are psychoactive drugs,
                                                             of the initiative, but as with any new initiative,
including narcotics, that have abuse potential and
                                                             more work needs to be done. We found that
the ability to produce dependence.
                                                             managers had implemented the 5th vital sign
                                                             initiative at the sites visited, but the extent of
We concluded that the quality of care in VHA
                                                             implementation varied. Some facilities had not
mental health programs could be improved if there
                                                             formalized policies or plans for pain management,
were more consistency among providers in
                                                             and others had only draft policies. At four sites,
managing long-term narcotics for patients who
                                                             nursing or medical employees assessed patients for
have pain. Prescriptions of narcotics for long-term
                                                             pain in the outpatient settings, but there was no
pain control in mental health patients were not
                                                             documentation that patients who reported pain



                                                       36

                                                                        Office of Healthcare Inspections

were subsequently assessed during their hospital
stays. On the other hand, some facilities had
established pain management clinics, provided
widespread education and training, and appointed
unit-based pain management liaisons who regularly
assessed patients’ pain treatments.

We made five recommendations to strengthen
VHA’s pain management initiative. The Under
Secretary for Health concurred with our
recommendations and provided acceptable
implementation plans. (Healthcare Inspection -                  Southern Arizona VA Health Care System
VHA Pain Management Initiative, 01-00026-101,                                 Tuscon, AZ
6/10/02)
                                                            CRNAs were not supervised in the pain clinic as
Healthcare Inspections                                      required by VHA policy.

Issue: Anesthesia care.
                                    We made three recommendations to the VISN
Conclusion: Clinicians did not meet the
                    Director. The VISN Director concurred with the
   standards of care in two of five cases                   recommendations and agreed to notify the families
   reviewed.                                                of the circumstances surrounding the patients’
Impact: Improved policies and                               adverse outcomes, modify the facility’s
   procedures for anesthesia care.                          credentialing and privileging process to fully
                                                            comply with VHA policies, and instruct surgical
We received a request from the Secretary of                 line leaders on the appropriate CRNA scope of
Veterans Affairs to review allegations of                   practice. (Healthcare Inspection - Patient
substandard anesthesia care. The allegations                Anesthesia Care Issues, Southern Arizona VA
concerned the anesthesia care administered to five          Health Care System, Tucson, AR, 02-02121-159,
patients who expired. In two of the five cases, we          9/03/02)
found the anesthesia care did not meet accepted
standards of medical practice.                              Issue: Quality of radiology care.
                                                            Conclusion: Actions were needed to
The anesthesiologist involved in one case resigned             address documentation deficiencies.
from the VA health care system in early 2002 for            Impact: Improved documentation of the
unrelated reasons. The anesthesiologist involved in            care provided to patients receiving
the second case received disciplinary action, and              radiology procedures.
senior managers reviewed the cases to ensure
compliance with incident reporting requirements.            We received a patient complaint alleging that a
However, we found that senior managers needed to            VAMC radiologist was unable to discern a brain
inform the surviving families of the circumstances          aneurysm (a weak spot in the blood vessel that
surrounding the patients’ deaths in accordance with         could rupture and lead to brain damage or death)
prescribed VA policies. We also found that the              from computerized axial tomography (CAT) scan
certified registered nurse anesthetist (CRNA)               films. It was alleged that this inaccurate
credentialing and privileging process at the health         interpretation delayed the patient’s diagnosis and
care system was not consistent with VHA                     treatment, and put his life at risk. He alleged that
guidelines. We substantiated an allegation that             other professionals who were given copies of the




                                                      37

Office of Healthcare Inspections

CAT scan easily detected the abnormality. He also            VAMC Director took administrative action to
complained that a VAMC neurology consultant                  address documentation deficiencies found during a
made seven attempts over a 15-minute period, but             peer review. Thus, we did not make any
was unable to perform a successful lumbar                    recommendations. (Healthcare Inspection -
puncture (a procedure wherein a sterile needle is            Patient Care Issues, William Jennings Bryan
inserted into the lower spine to collect                     Dorn VAMC Columbia, SC, 02-00824-95,
cerebrospinal fluid for diagnostic purposes). The            5/07/02)
complainant asserted that he received substandard
care at the VAMC; as a result, he suffered a                 Issue: Cardiac surgery complication and
ruptured brain aneurysm that required his                       over-sedation.
admission to two non-VA hospitals.                           Conclusion: Further review of a patient’s
                                                                care was needed.
We concluded that the complainant received                   Impact: Strengthened procedures to
appropriate evaluation and treatment based on the               guard against over-sedating patients.
results of the March 20, 1999 cranial CAT scan
and the neurologist’s March 24 findings. A cranial           The Senate Committee on Veterans’Affairs asked
arteriogram performed by private sector physicians           us to conduct an inquiry into the quality of care
on April 4, after the patient experienced a ruptured         received by a patient at the VAMC, particularly as
aneurysm, showed that the rupture occurred in an             it pertained to events surrounding cardiac
area of the brain that three different radiologists          procedures performed on June 6, 2001.
and a neurologist felt was normal on the March 20            Specifically cited as concerns were an alleged
CAT scan. We found no evidence that the                      puncture of one of the patient’s coronary arteries
radiologist misinterpreted the complainant’s CAT             during a cardiac catheterization procedure
scan, resulting in delayed diagnosis or treatment.           resulting in cardiovascular collapse, brain injury
We substantiated the allegation that the VAMC                due to lack of oxygen, and death 5 days later. The
neurology consultant did not successfully obtain             complainants also alleged: delayed recognition of
spinal fluid after a difficult lumbar puncture, but          the complication of coronary artery perforation;
there was no way to speculate whether the                    substandard interventional cardiac care at the
complainant’s outcome would have been different              VAMC; lack of due consideration of a patient’s
had clinicians continued efforts to obtain spinal            wishes regarding terminal care; premature attempts
fluid. The VAMC neurology consultant followed                at a patient out-placement; and over-sedation of a
applicable standards of care in this case. The               patient.

                                                             We confirmed that during the course of coronary
                                                             angiography, followed by sequential coronary
                                                             angioplasty, the patient’s right coronary artery was
                                                             perforated. This is a rare and catastrophic event,
                                                             but nonetheless well-known complication of this
                                                             procedure. Even in the best of circumstances, the
                                                             morbidity and mortality resulting from this major
                                                             complication is high. VAMC quality management
                                                             employees and clinicians participating in a
                                                             morbidity and mortality conference appropriately
                                                             reviewed the case.

 William Jennings Bryan Dorn VA Medical Center
                 Columbia, SC




                                                       38

                                                                        Office of Healthcare Inspections

We did not substantiate the allegation that the             services for veterans and their family members.
patient’s wishes not to be placed on a ventilator           Managers had initiated actions to address some of
were disregarded. We also did not substantiate the          the complaints, but additional actions were needed
allegation that there was an inappropriate or               to improve outreach efforts, the quality of
premature attempt to transfer the patient to a              physician communication with patients, and
nursing home. We confirmed that a second patient            narcotic dispensing procedures. Managers also
was over-sedated at the onset of his VAMC                   needed to monitor the timeliness of providing care
admission, but the evidence does not show a clear           for patients who walk in and those who have
nexus between the over-sedation and the patient’s           scheduled appointments. They also needed to
outcome. Pending receipt of a satisfactory peer             review the feasibility of using local vendors to
review by VAMC clinical staff of the care                   provide certain radiology services for patients not
provided to this patient, we will determine whether         able to travel to the parent VAMC.
further action is necessary, or we will close the
case. Since the Director agreed to order a peer             We did not substantiate the allegation that newly
review of the second patient’s treatment,                   prescribed medications mailed to patients were
emphasizing the appropriateness of narcotics                excessively delayed, but we found that new
analgesics usage, we did not make any                       procedures were delaying deliveries of prescribed
recommendations. OHI will oversee and evaluate              narcotics. We did not substantiate the allegations
the rigor of the peer review when it is completed.          that procedures and consultations were
(Healthcare Inspection - Patient Care Issues,               administratively cancelled, that patients paid for
Richard L. Roudebush VAMC Indianapolis,                     private medical services when services were not
Indiana, 01-02863-98, 5/08/02)                              available at the clinic, or that managers had not
                                                            attempted to increase specialty services or clinic
Issue: Customer service and quality of
                     hours of operation. Finally, we did not
medical care.
                                              substantiate the allegations that two part-time
Conclusion: Actions were needed to
                         physicians were inappropriately discharged.
   improve the overall quality of clinic
   customer services.                                       We made six recommendations to improve the
Impact: Improve care and services for                       quality of services. The VAMC Director agreed
   outpatients.                                             with the findings and recommendations and
                                                            provided acceptable implementation plans.
We received congressional and local stakeholder             (Healthcare Inspection - Customer Service and
inquiries concerning the quality of customer                Personnel Matters at the Department of Veterans
service and personnel matters at the Prestonsburg           Affairs VA Community-Based Outpatient Clinic,
community-based outpatient clinic, which is an              Prestonsburg, KY, 02-00249-100, 5/14/2002)
organizational component of VAMC Huntington,
WV. Complainants made numerous allegations
concerning the adequacy and quality of customer
services, and the medical care provided at the
clinic. Complainants also alleged that clinic
managers took inappropriate actions against
employees who patients believed were attempting
to provide good customer service.

We confirmed that VAMC managers needed to
improve the overall quality of clinic customer




                                                      39

Office of Healthcare Inspections

                                                                safety hazard for mobility-impaired patients. The
                                                                Director concurred and issued a work order to
                                                                widen the ramp and eliminate the drop off. The
                                                                unit had a sufficient number of nursing employees;
                                                                however, nurse staffing levels needed adjustment to
                                                                ensure adequate staffing on all three tours of duty.
                                                                Managers were adjusting staffing levels to ensure
                                                                all tours of duty had adequate nursing support.

                                                                An optometry resident improperly measured
                                                                bifocal lenses for the patient’s eyeglasses, but this
                                                                had been corrected before our site visit and resident
                 VA Medical Center                              supervision had improved. We did not find any
                  Perry Point, MD                               indication that the other patient died because of
                                                                nurse inattentiveness. Since managers had already
Issue: Quality of intermediate medical                          corrected or were in the process of correcting
   care.                                                        identified problems, we did not make any
Conclusion: Managers needed to address                          recommendations. (Healthcare Inspection -
   consultation procedures, safety                              Quality of Care Issues, Department of Veterans
   issues, and nurse utilization.                               Affairs Health Care System, Perry Point, MD, 02-
Impact: Better care and services for                            01331-110, 6/03/02)
   patients.
                                                                Issue: Quality of ophthalmology care.
We received a request from the Chairman of the                  Conclusion: Action needed to address a
House Committee of Veterans’Affairs, Oversight                     clinician’s communication skills.
and Investigations Subcommittee, to review                      Impact: Better customer service.
allegations of inadequate intermediate medical care
provided to patients. A complainant alleged that a              A complainant alleged he received questionable and
patient on the intermediate medicine unit was                   delayed medical treatment when a VA
denied physical therapy. The complainant also                   ophthalmologist changed his previous diagnosis
alleged that the patient received inadequate nursing            and did not schedule cataract surgery. The
care, improper wound care, and the wrong eyeglass               complainant also alleged that the ophthalmologist
prescription, and that the unit did not have                    was unprofessional, rude, and threatened to change
sufficient nurse staffing to care for all the patients.         his disability rating.
The complainant further alleged that another
patient fell out of bed and eventually died because             We did not substantiate the allegations that the
of nursing inattention.                                         complainant received questionable and delayed
                                                                medical treatment. However, we concluded that
We concluded that the patient did not receive                   action needed to be taken to address the
physical therapy services in a timely manner,                   ophthalmologist’s communication skills. Also,
because clinicians had not communicated                         based on the ophthalmologist’s assessment, the
consultative recommendations effectively.                       question of the patient’s continued disability for
Managers enhanced the hospital’s computerized                   visual impairment needs to be resolved.
patient record system to alert physicians when
consultations are completed. We also found that
the ramp to the outside smoking facility was a




                                                          40

                                                                       Office of Healthcare Inspections

We recommended that appropriate action be taken            trays and yelling at patients; (ii) over-sedated a
to improve and monitor the ophthalmologist’s               patient; and (iii) compromised patient safety
communication with patients, and an impartial              protocols by assigning one nurse to administer all
ophthalmologist review the complainant’s medical           patient medications. The complainant listed
condition and work through the established                 additional concerns about the competency of the
compensation and pension process to determine              charge nurse. The complainant alleged that the
continued eligibility for benefits. The Director           unit’s nurse manager had taken soft drinks from a
agreed with the findings and recommendations, and          patient’s personal refrigerator without his
provided acceptable implementation plans.                  permission on several occasions, and demanded
(Healthcare Inspection - Quality of Care Issues,           that nurses interrupt their administration of
VA Healthcare System, El Paso, TX, 02-0838-118,            medications to speak with her. The complainant
6/12/02)                                                   also alleged that both the charge nurse and the unit
                                                           nurse manager had jeopardized patient safety by
                                                           being excessively absent from the unit to take
                                                           smoking breaks.

                                                           We concluded that the charge nurse and the nurse
                                                           manager did not maintain the standards of ethical
                                                           conduct required of employees with supervisory
                                                           and patient care responsibilities.

                                                           We found evidence of verbal abuse and patient
                                                           neglect, a disregard for policies and procedures,
                                                           and harassment of employees. In our opinion, the
                                                           subjects’ apparent disregard for customer service
                                                           standards compromised patient safety and reduced
              VA Healthcare System                         the morale of employees under their supervision.
                  El Paso, TX                              In addition to creating a hostile work environment
                                                           for employees, this situation adversely affected
Issue: Patient abuse, employee                             patient care. Responsible supervisors did not take
   misconduct, and patient safety                          sufficient actions in response to: (i) feedback from
   violations.                                             patients, families, and employees regarding both
Conclusion: Certain nursing staff did not                  nurses’ behaviors; (ii) the management practices of
   maintain standards of ethical conduct.                  the nurse manager; and (iii) deficiencies in
Impact: Improved effectiveness of unit’s                   documentation and patient care on the unit. Both
   management and improved care and                        subjects continued to receive highly satisfactory
   services.                                               performance appraisals despite mounting evidence
                                                           of their performance deficiencies and
We performed this inspection in response to                mismanagement, and the impact of these
inquiries from congressional representatives to            deficiencies on patients and staff.
determine the validity of allegations of patient
abuse, employee misconduct, and patient safety             We made six recommendations to improve the
violations. The complainant made several                   effectiveness of the unit’s management and ensure
allegations concerning a charge nurse on an                high-quality patient care. The Director concurred
extended-care unit, including that the nurse had:          with the recommendations and provided acceptable
(i) treated patients abusively by withholding meal




                                                     41

Office of Healthcare Inspections

implementation plans. (Healthcare Inspection -               agreed with the findings and recommendations, and
Patient Treatment and Employee Conduct Issues,               provided acceptable implementation plans.
Central Arkansas Veterans Healthcare System,                 (Healthcare Inspection - Missing Patient Issue, VA
Little Rock, AR, 02-00705-121, 6/13/02)                      Greater Los Angeles Healthcare System, Los
                                                             Angeles, CA, 02-00821-120, 6/14/02)
Issue: Unexpected patient death.
Conclusion: Managers needed to                               Issue: Medical treatment and patient
   consistently apply monitoring                                abuse.
   procedures to ensure patients are safe.                   Conclusion: Physician’s performance and
Impact: Improved search procedures.                             conduct warranted additional
                                                                monitoring and review.
In response to a congressional inquiry, we                   Impact: Strengthened policies and
conducted a review of the issues and events                     education related to pain management
surrounding the unexpected death of a patient who               and informed consent will improve
was found outside the Sepulveda Nursing Home                    services.
Care Unit. The complainant alleged negligence,
lack of supervision, lapses in safety procedures,            A complainant, who was an employee, alleged that
and problems with facilities and services as the             a physician provided questionable medical
causes for this suspicious death.                            treatment and abused a patient by failing to
                                                             manage the patient’s pain during a clinic
We did not substantiate the complainant’s                    procedure, and by speaking to the patient in an
allegations of negligence, nor did we substantiate           inappropriate manner. The complainant provided a
the allegation that the patient’s death occurred             letter that the patient gave to him regarding the
under suspicious circumstances. We confirmed the             treatment he received. In his letter the patient
absence of patient supervision, lapses in safety,            stated that the treating physician used a pair of
and problems with the physical security of the               scissors and a needle to treat his infected foot
facility. We found that employees did not                    wound, resulting in severe pain. The patient wrote
periodically monitor the patient’s whereabouts at            that the physician was unwilling to administer local
prescribed intervals, as required. We identified             anesthesia despite the patient’s physical and verbal
deficiencies in the documentation of patient                 expressions of pain. The patient also wrote that
incidents and found instances of inconsistent                the physician made demeaning statements to him
application of the facility’s search procedure. We           during the procedure. The complainant stated that
identified several lapses in safety procedures,              another employee witnessed a portion of the
including a breakdown in immediately notifying the           patient’s procedure. The complainant also alleged
charge nurse of the incident, failure to notify              other employees would not report their
applicable employees when the patient left the unit,         observations of misconduct or suspected patient
and inadequate security of the tunnel door and               abuse, because they feared reprisal and claimed
construction site. We found vulnerabilities                  that managers were unresponsive to complaints
pertaining to inadequate monitoring of the                   submitted to the patient representative.
surveillance cameras and the absence of emergency
telephone equipment in the tunnels.                          We did not substantiate the allegations that the
                                                             physician provided questionable medical treatment
We made six recommendations to improve the                   and abused the patient, or that managers failed to
education and training of employees on assessment,           respond to reports of this physician’s alleged
prevention, and management of missing patient                misconduct. We reached this conclusion taking
events and search procedures. The Acting Director            into consideration the patient’s adamant statement




                                                       42

                                                                         Office of Healthcare Inspections

to us that he was not abused. Nevertheless, we               We substantiated the allegation that one of the two
concluded that the physician should have assessed            physicians should have been reported to the NPDB
and managed the patient’s pain more adequately               based on unsatisfactory ratings in clinical
and spoken to the patient in a more respectful               competence and other factors. The medical center
manner. The physician’s performance and conduct              Director did not comply with VA requirements that
warranted additional monitoring and review. We               prohibit officials from entering into settlement
also identified deficiencies in the documentation of         agreements as a means to remove employees in lieu
informed consent and the assessment of pain. We              of reporting serious infractions to the NPDB. The
found that the patient abuse, pain management, and           second physician did not meet criteria for reporting
informed consent policies needed revision to clarify         to the NPDB, because his clinical privileges were
criteria and responsibilities. Employees also                unrestricted. The third physician was reported to
needed additional education and training related to          the NPDB.
the pain management and informed consent
policies.                                                    We made three recommendations that should
                                                             prevent further similar occurrences and make all
We made three recommendations to address the                 facility managers aware of the requirements of
issues. The Director agreed with the findings and            reporting to the NPDB. The VISN Director agreed
recommendations and provided acceptable                      with the findings and recommendations and
implementation plans. (Healthcare Inspection -               provided acceptable implementation plans.
Patient Treatment Issues, Northern Arizona VA                (Healthcare Inspection - National Practitioner
Health Care System, Prescott, AZ, 02-00130-119,              Data Bank Reporting Issues, VAMC Dayton, OH,
6/17/02)                                                     01-00886-124, 6/25/02)

Issue: Reporting to the National                             Issue: Supervision of a nursing home
   Practitioner Data Base (NPDB).                               care unit (NHCU) patient.
Conclusion: One physician’s actions                          Conclusion: Employees did not
   should have been reported.                                   adequately supervise the patient.
Impact: Make all facility managers aware                     Impact: Strengthened procedures for
   of reporting requirements, and ensure                        monitoring patients at risk for
   other institutions have access to                            wandering will reduce the risk of injury
   information on questionable                                  or death.
   physicians.
                                                             An anonymous complainant alleged that employees
The medical center Director allegedly did not                did not adequately supervise a NHCU patient. The
comply with VHA requirements when he did not                 patient allegedly left his nursing unit in a
report two physicians to the NPDB, after their               wheelchair without the knowledge of NHCU
privileges were revoked or reduced for more than             employees and subsequently fell 6 feet off a
30 days. The complainant also alleged that a third           loading dock. He was severely injured and later
physician left under circumstances that may have             died from the injuries. As shown below, a railing
involved similar violations. The Director also               was later added to the dock to preclude other
allegedly entered into a settlement agreement with           patients from being injured.
one of the physicians to accept a resignation in
exchange for not reporting an adverse action to the          We substantiated the allegation that employees did
NPDB.                                                        not adequately supervise the patient. We found
                                                             that: (i) NHCU clinicians had not followed several




                                                       43

Office of Healthcare Inspections

                                                             that resulted in his death; (iv) blood cultures were
                                                             not drawn in a timely manner; and (v) he was not
                                                             fed for 30 days. She also alleged that a social
                                                             worker was rude to her.

                                                             We substantiated that a medication error occurred.
                                                             We found that a pharmacy computer alert (order
                                                             check) warning was disabled. Therefore, the
                                                             pharmacist who processed the second order for
                                                             medication had not received a computer alert
   VA Medical Center                                         warning him that the physician had ordered the
     Northport, NY                                           same medication twice. Managers immediately
          and
                                                             corrected the problem, and also verified that the
     Loading Dock
                                                             check order feature was enabled for all providers.
                                                             While the increased dosage of medication may
procedures for monitoring the patient who was at
                                                             have caused the patient to become mildly
risk of wandering from the unit; (ii) the patient's
                                                             dehydrated, he was immediately and appropriately
monitoring transmitter had not functioned
                                                             treated. We did not substantiate allegations (ii)
properly; (iii) the patient had access to a nearby
                                                             through (v). We could not substantiate or refute
loading dock that had not been adequately secured;
                                                             the allegation that a social worker was
(iv) police did not respond promptly; and (v)
                                                             discourteous to the complainant. There were no
employees first on the scene did not secure
                                                             witnesses to the alleged event and the complainant
evidence at the accident site to permit an adequate
                                                             had not filed a complaint with the patient advocate.
investigation.
                                                             Further, the patient advocate and the social
                                                             worker’s supervisor told us that there had never
We made seven recommendations that should
                                                             been any complaints against this provider in the
reduce the chance of similar incidents occurring.
                                                             past. Because facility managers had already taken
The medical center Director agreed with the
                                                             appropriate corrective actions regarding the
findings and recommendations and provided
                                                             medication error, we did not make any
acceptable implementation plans. (Healthcare
                                                             recommendations. (Healthcare Inspection -
Inspection - Patient Care and Management
                                                             Patient Treatment and Employee Behavior Issues,
Issues, VAMC Northport, NY, 01-00127-128,
                                                             VAMC West Palm Beach, FL, 02-00279-138,
7/01/02)
                                                             7/16/02)
Issue: Quality of care.

                                                             Issue: Patient transfers.

Conclusion: Patient received a duplicate

                                                             Conclusion: It would have been prudent

   medication order.
                                                                to transfer one of the patients to the
Impact: Improved procedures to prevent
                                                                nearest community hospital.
   medication errors.
                                                             Impact: Strengthened transfer policies
                                                                and reduced risk of further
We received complaints from a patient’s daughter
                                                                complications from not treating
regarding the quality of care her father received at
                                                                patients promptly.
VAMC West Palm Beach. Specifically, she
alleged that: (i) her father’s health deteriorated
                                                             A complainant alleged that VISN 12 did not
because of a medication error; (ii) he was
                                                             provide adequate backup and referral support for
prematurely discharged after a surgical procedure;
                                                             two patients who were in need of urgent surgical
(iii) the feeding tube placement led to an infection
                                                             care. The two patients initially presented to



                                                       44

                                                                        Office of Healthcare Inspections

clinicians at VAMC Tomah, WI, and VAMC Iron                 patient was competent and elected to leave the
Mountain, MI, respectively, and both were                   hospital and return home contrary to his
transferred more than 200 miles away to the                 physician’s advice that he needed long-term care.
Edward Hines Jr. VA Hospital in Hines, IL.                  We substantiated the allegation that VAMC
                                                            employees provided inaccurate and incomplete
We concluded it would have been prudent to                  information to the HHA. The Director
transfer the first patient to the nearest community         acknowledged that the allegation was true and had
hospital having substantial surgical expertise. Two         already strengthened facility policy to better ensure
such hospitals could have been used and were less           that clinicians record all applicable information in
than 50 miles away. In the second patient’s case,           the future. VAMC employees also provided
we did not substantiate the allegation that                 assistive equipment, made structural changes to the
appropriate surgical care was delayed due to lack           patient’s home, and increased the frequency of
of available beds at referral tertiary VAMCs. We            HHA services for the patient. We also
concluded, in the second case, that clinicians took         substantiated the allegation that the patient did not
aggressive and appropriate steps to locally                 receive wound care supplies when he was
stabilize the patient before transfer to the VA             discharged. The Director acknowledged that the
Hospital in Hines.                                          allegation was correct and that employees had
                                                            failed to adhere to local policy and order the
The VISN Director did not concur with our                   supplies sufficiently in advance to ensure the
conclusions and did not adequately respond to our           patient would have the supplies when he left the
two recommendations. We elevated the                        medical center.
recommendations to the Deputy Under Secretary
for Health for Operations and Management for                We made two recommendations to address the
resolution. The Deputy Under Secretary concurred            substantiated issues. The Director agreed with our
with our recommendations and provided acceptable            findings and recommendations and provided
implementation plans. (Healthcare Inspection -              acceptable implementation plans. (Healthcare
Alleged Inappropriate Transfers of Patients in              Inspection - Discharge Planning Issues, Veterans
VISN 12, 01-01512-139, 7/18/02)                             Affairs Medical Center Cheyenne, WY, 01-02684-
                                                            137, 7/18/02)
Issue: Discharge planning.
Conclusion: VAMC staff provided                             Issue: Residential care home placement,
   inaccurate information to the Home                          and timeliness and quality of health
   Health Agency (HHA).                                        care.
Impact: Strengthened facility policy to                     Conclusion: Community residential care
   ensure clinicians record all applicable                     homes that did not meet standards, VA
   information.                                                personnel did not supervise the
                                                               properties, and a clinician did not
A complainant alleged that a patient was released              provide timely patient care.
without appropriate discharge planning from                 Impact: Improved health care for
VAMC Cheyenne. The complainant also alleged                    veterans.
that the VA nursing referral form sent to the HHA
was incomplete and inaccurate, and that the patient         We received several allegations from anonymous
was discharged without any wound care supplies to           complainants concerning patient safety, quality of
take home.                                                  care, administrative management issues, and
                                                            medical record documentation. The complainants
We did not substantiate the allegation that                 alleged that: (i) clinical managers placed patients
clinicians discharged the patient prematurely. The          in community residential care homes that did not



                                                      45

Office of Healthcare Inspections

meet fire and safety standards, and VA personnel              operations area resulted in serious health problems
did not supervise or inspect the properties; (ii) the         for employees. We were unable to substantiate or
medical-officer-of-the-day did not provide timely             refute the allegation of an unhealthful work
care to a patient because his shift was ending; (iii)         environment. There was no direct evidence linking
clinicians did not adequately monitor patient falls           the employees’ health symptoms with the work
and injuries; (iv) managers instructed patient                environment. Indoor air quality and mold
representatives not to record all complaints in the           contamination tests failed to identify any cause of
patient advocate tracking system; (v) quality                 the employees’ complaints. Managers took actions
managers were told not to notify the VISN when                to thoroughly clean the work areas. Managers also
patients were reported missing from the facility;             plan to install a new ventilation system that will
(vi) the Director does not have an "open door"                serve the affected area. In addition, managers
policy that provides employees opportunities to               requested assistance from the Occupational Safety
voice their concerns; and (vii) clinicians                    and Health Administration to help resolve the
erroneously documented treatment in a patient’s               issue.
medical record.
                                                              We made two recommendations. The VISN
We substantiated allegations (i) and (ii) above. We           Director concurred and agreed that the facility
also found that community resource managers did               would continue cleaning and air quality testing in
not consistently provide sponsors with adequate               the telephone operations area until the ventilation
information about the patients’ needs and required            system replacement is completed. The VISN
levels of supervision. We did not substantiate                Director also agreed to send a copy of the
allegations (iii) through (vii). However, we did              Occupational Safety and Health Administration
confirm that nursing employees on one ward were               study and resulting actions to the OIG.
unaware that a patient was absent from the medical            (Healthcare Inspection - Work Environment Issue,
ward.                                                         Southern Arizona VA Health Care System, Tucson,
                                                              AZ, 02-02160-160, 9/04/02)
We made three recommendations to improve care
for veterans. The Director agreed with our                    Issue: Prescribing controlled substances.
findings and recommendations and provided                     Conclusion: Prescribing pattern permitted
acceptable implementation plans. (Healthcare                     a patient to accumulate large
Inspection - Patient Care and Management Issues                  quantities of controlled substances.
at the Central Alabama Veterans Health Care                   Impact: Reduce risk of prescription drug
System Tuskegee, AL, 01-01090-147, 8/05/02)                      overdoses.

Issue: Adequacy and safety of work                            We reviewed allegations publicized by a Florida
   environment.                                               newspaper article questioning the issuance of
Conclusion: Indoor air quality and mold                       prescriptions for narcotics, sedatives, and other
   contamination tests failed to identify                     controlled substances at the West Palm Beach and
   health risks.                                              Miami VA medical centers. The article questioned
Impact: Improved cleanliness, air quality,                    the appropriateness of VA clinicians’ prescription
   and assurances that employees are                          practices and whether the medications dispensed
   safe.                                                      contributed to the deaths of 11 patients. We
                                                              confirmed that all 11 veterans died in their
We reviewed an allegation concerning the adequacy             communities from drug overdoses, as documented
and safety of the work environment in the                     by medical examiner reports. However, we did not
telephone office. Complainants alleged that                   substantiate the allegation that VA clinicians
exposure to unknown substances in the telephone               inappropriately prescribed controlled substances to



                                                        46

                                                                         Office of Healthcare Inspections

10 of the 11 patients. Upon toxicological analysis,          funds. Better communication between VA
only 2 of the 11 patients had controlled substances          clinicians and the VBA examiner would have
in their blood streams that were solely and recently         addressed these complaints.
prescribed by VA clinicians. In 10 of the 11 cases,
we found that controlled substances were                     We did not substantiate the allegation that the VA-
prescribed appropriately. While perhaps no single            contracted community nursing home fraudulently
prescription was inappropriate in the remaining              charged the veteran's estate for medical services.
case, the prescribing pattern permitted the patient,         The complainant believed that the billing for
who was known to have a drug abuse problem, to               private care was unwarranted as the home was
accumulate large quantities of controlled                    under contract with VA. Although non-VA care
substances. We did not attribute the death of any            was obtained, we attributed the confusion to poor
of the 11 patients to arbitrary or careless                  communications between the home and VA
prescribing of controlled substances.                        administrators, and with the complainant.

Three recommendations were made to strengthen                The VISN Director concurred with the five
provider procedures and pharmacy controls to                 recommendations we made to improve
avoid recurrence. The VISN Director, in                      communications and controls and he provided
conjunction with the Directors at the two VA                 acceptable implementation plans. (Healthcare
medical centers, concurred with the findings and             Inspection - Management of Patient Funds, VA
provided acceptable implementation plans.                    Puget Sound Health Care System, Seattle, WA,
(Healthcare Inspection - Review of Prescription              02-01837-165, 9/11/02)
Practices at VAMCs West Palm Beach and Miami,
FL, 02-02108-162, 9/09/02)

Issue: VA-contracted community nursing
   home.
Conclusion: VA clinicians did not provide
   monthly follow up visits.
Impact: Improved communications and
   assurances that patients are
   adequately cared for and are safe.

We received allegations of inadequate social
services and inappropriate veteran funds
                                                                   VA Puget Sound Health Care System
management at the VA Puget Sound Health Care                                  Seattle, WA
System. A complainant alleged that the staff did
not provide regular social services to monitor and           Issue: Providing VA patients priority care
coordinate care provided to a veteran by a contract             in the cardiac catheterization
nursing home. The complainant also alleged that                 laboratory.
the contract nursing home fraudulently charged the           Conclusion: Managers needed to develop
veteran's estate for medical services.                          policies and monitor quality of care.
                                                             Impact: Improved oversight of the quality
We substantiated the allegation that the VA                     of procedures provided to patients.
facility’s clinical employees did not provide
monthly follow up visits, coordinate the complaint           We reviewed an allegation that VA managers
received from the family, or resolve the                     allowed the university affiliate to refer non-VA
complainant's concern regarding the veteran's                heart patients to be seen and treated at the



                                                       47

Office of Healthcare Inspections

healthcare system ahead of acutely ill VA heart              employees working for the Missouri Veterans
patients, thus according VA patients a lower                 Home special care unit provided poor care to a
priority for this care. We found that VA managers            veteran during his stay. We were not able to
had a sharing agreement with the university that             substantiate or refute the complainant's allegations
permitted non-VA patients to receive cardiac                 of poor care. However, we identified deficiencies
catheterizations after all VA patients were treated.         in the documentation of incidents. We also
Although we found that seven university patients             identified a need for nursing home employees to be
were scheduled for care in the catheterization               better trained on providing personal care for
laboratory ahead of VA patients, we did not find             residents with dementia, especially during times of
any evidence that the seven incidents constituted a          increased confusion and agitation. Additionally,
trend. Nor did we find that any of the seven VA              we identified opportunities to improve follow up
patients required emergent surgical interventions,           reviews of reported incidents and communication
or that any of them were exposed to increased risks          of the circumstances surrounding these reported
of dying because of the brief delays. We did not             incidents with residents and families.
find evidence that VA patients received poor care.
We found that VA catheterization laboratory                  We concluded that the VAMC St. Louis review
managers had not developed written policies and              team needed to monitor Missouri Veterans Home
procedures, nor had they developed a centralized             managers' actions to improve documentation of
data repository to track and trend patient                   incident reports, provide employees additional
information and outcomes. We had to review                   training on caring for patients with dementia, and
multiple sources (logbooks, event logs, and other            improve customer service. The acting VISN
reports) to obtain complete assessments of the care          Director and medical center Director agreed with
patients received.                                           our recommendations and provided acceptable
                                                             implementation plans. (Quality Care Issues,
We recommended managers develop and implement                Missouri Veterans Home, St. Louis, MO, 02-
written policies and procedures, and establish a             02369-168, 9/18/02)
database to track and trend patient information and
outcomes. We also recommended linking                        Healthcare Inspections (Oversight
catheterization laboratory operations with the               Inquiries)
facility's quality assessment and improvement
programs. The VISN Director and medical center               During the reporting period, OHI oversaw the
Director agreed with the recommendations and                 completion of 99 Hotline cases referred to VHA for
provided acceptable implementation plans.                    action. These cases involved 136 allegations, of
(Healthcare Inspection - Cardiac Catheterization             which 37 (27 percent) had merit based on the
Laboratory Issue, Central Arkansas Veterans                  information available. VA managers acted to
Healthcare System, Little Rock, AR, 01-02036-                create new or strengthen existing procedures, take
167, 9/17/02)                                                administrative actions, offer more education and
                                                             training, improve the quality of services, strengthen
Issue: Quality of care at a state veterans                   patient safety procedures, enhance the physical
   home.                                                     plant environment, and realign resources.
Conclusion: Documentation of incident
   report deficiencies existed.
Impact: Improved documentation,
   training, and customer service.

We received a request from Senator Christopher S.
Bond to review a complainant's allegations that



                                                       48

OFFICE OF MANAGEMENT AND
ADMINISTRATION

Mission Statement                                          The Division maintains the Master Case Index
                                                           (MCI) system, the OIG’s primary information
    Promote OIG organizational effectiveness               system for case management and decision-making.
    and efficiency by providing reliable and               The Data Analysis Section, located in Austin, TX
    timely management and administrative                   provides data processing support, such as
    support, and providing products and services           computer matching and data extraction from VA
    that promote the overall mission and goals of          databases.
    the OIG. Strive to ensure that all allegations
    communicated to the OIG are effectively                IV. Financial and Administrative Support
    monitored and resolved in a timely, efficient,         Division - The Division is responsible for OIG
    and impartial manner.                                  financial operations, including budget formulation
                                                           and execution, and all other OIG administrative
The Office of Management and Administration is a           support services.
diverse organization responsible for a wide range
of administrative and operational support                  V. Human Resources Management Division - The
functions. The Office includes five Divisions:             Division is responsible for OIG personnel
                                                           management, which includes classification,
I. Hotline Division - The Division is responsible          staffing, employee relations, training, and incentive
for determining action to be taken on allegations          awards programs.
received by the OIG Hotline. The Division
receives thousands of contacts annually, mostly            Resources
from veterans, VA employees, and Congress. The
work includes controlling and referring many cases         The Office of Management and Administration has
to the OIG Offices of Investigation, Audit, and            55 FTE allocated to the following areas.
Healthcare Inspections, or to impartial VA
components for review.
                                                                                            Operational
                                                                                             Support
II. Operational Support Division - The Division                                                16%
does follow up tracking of OIG report
                                                                                                          Financial &
recommendations; Freedom of Information Act
                                                                                                             Admin
releases; strategic, operational, and performance             IT & Data                                       14%
planning; and IG reporting and policy                          Analysis
development.                                                     40%

                                                                                                       Human
III. Information Technology (IT) and Data                                                            Resources
Analysis Division - The Division manages                                                                14%
nationwide IT support, systems development and                                    Hotline
integration; represents the OIG on numerous intra-                                 16%
and inter-agency IT organizations; and does
strategic IT planning for all OIG requirements.




                                                     49

Office of Management and Administration

I. HOTLINE DIVISION                                          staff generated 164 letters responding to inquiries

                                                             received from members of the Senate and House of

                                                             Representatives.

Mission Statement
                                                             Outcome

                                                             z VA managers imposed 70 administrative

    Ensure that allegations of criminal activity,
                                                             sanctions against employees and took 90 corrective

    waste, abuse, and mismanagement are
                                                             actions to improve operations and activities as the

    responded to in an efficient and effective
                                                             result of these reviews. The monetary impact

    manner.
                                                             resulting from these cases totaled over $60,000.

The Division operates a toll-free telephone service
                                                             The Hotline Division’s most significant leads are

5 days a week, Monday through Friday, from 8:30
                                                             referred to other OIG elements. The Hotline staff

AM to 4 PM Eastern Time. Phone calls, letters,
                                                             also retains oversight on a number of other cases

and e-mail messages are received from employees,
                                                             that are referred to VA program officials for

veterans, the general public, Congress, U.S.
                                                             resolution.

General Accounting Office, and other Federal
agencies reporting issues of criminal activity,
waste, and abuse. Due consideration is given to all          Veterans Health
complaints and allegations received; mission-
related issues are addressed by OIG or other
                                                             Administration
Departmental staff.
                                                             Quality of Patient Care
Resources
                                                             The responses to Hotline inquiries by VA
                                                             management officials indicated that 38
The Hotline Division has nine FTE. The following
            allegations regarding deficiencies in the quality of
chart shows the estimated percentage of resources
           patient care provided by individual facilities were
devoted to various program areas.
                           found to have merit and required corrective
                                                             action. Examples of the issues follow:
                                  VBA
                                  19%                        z A VAMC review found poor coordination and
                                                             communication between the facility fee-basis office
                                                             and referring physicians. A veteran experienced a
                                          A&MM
   VHA
                                                             2-month delay in a fee-basis referral for removal of
                                           10%
   49%                                                       a basal cell carcinoma growth from his back.
                                        Inf ormation
                                                             Although this was not life threatening, the veteran
                                        Technology           experienced undue stress during this delay, and the
                                             7%              fee-basis office failed to keep the referring
                                                             physician informed of the status of her consult.
                          Management                         The facility contracted with several dermatologists
                             15%                             in the area for expeditious service and established a
                                                             referral process with another VAMC for more
Output
                                                      emergent cases. Further, a process for tracking the
z During the reporting period, Hotline staff

                                                             status and outcome of fee-basis referrals was
closed 746 cases, of which 221 contained
                    implemented by the business office. Management
substantiated allegations (30 percent). The Hotline
         apologized to the veteran for the delay.




                                                       50

                                                              Office of Management and Administration

z    A VISN review substantiated a 1-year delay in           z A VHA review determined that during a
a veteran’s neurological evaluation as a result of a         conversation on the quality of care provided to his
lack of communication and coordination of care               father, a physician and the patient’s son engaged in
between two VAMCs. Additionally, the veteran                 a confrontational conversation that progressed to
was billed for fee-basis services by the vendor.             the point where both individuals used profanity.
The veteran has since received the neurological              Management counseled the physician who
evaluation and is currently under appropriate                promised that this behavior would not happen
medical care. Management reimbursed the veteran              again.
for the incorrect charges and is working on better
coordination of care between the two facilities.             z A VAMC review substantiated that a veteran
                                                             was mistakenly referred to the mental health clinic
z A VHA review found that a veteran, who was                 instead of the ear, nose, and throat clinic for
new to the facility, was not advised to provide his          treatment of Meniere’s Syndrome. Management is
medical treatment records. This resulted in a delay          making every effort to assure that the veteran
of his care. The review found the veteran was                receives appropriate care for his condition. The
treated with a lack of courtesy by both clerical and         clinic has evaluated the veteran and will be
nursing staff, and a cardiologist consultant failed          managing his care.
to provide a follow up response to the veteran’s
referring primary care provider. Management                  z A VAMC review substantiated that staff in the
counseled all staff involved, and an apology was             eye clinic failed to follow established medical
issued to the veteran.                                       center procedure in a medical emergency. This
                                                             failure caused a delay in the treatment of a veteran.
z A VHA review found there was insufficient                  The veteran was taken to the emergency room for
coverage for a therapy group on one occasion when            care and later admitted for observation.
the group’s psychiatrist was on military leave. The          Management has provided training for all staff
review also found that the patients’ food was                concerning proper procedures to be followed in a
served at improper temperatures over a period of             medical emergency situation.
several days, and that the patients’ drinking mugs
were not properly cleaned. Management                        Employee Misconduct
implemented processes to ensure coverage of the
group therapy sessions, changed procedures to                The responses to Hotline inquiries by
ensure food is properly warmed, and the facility is          management officials indicated that 12
now using disposable mugs.                                   allegations of employee misconduct at individual
                                                             VA facilities were found to have merit and
z    A VHA review substantiated the allegation that          required corrective action. Examples of the issues
a veteran’s primary care physician failed to report          follow:
his test results to him in a timely manner. The
medical resident who ordered the test was absent at          z   A VHA review found that a supervisor
the time the results were received. Therefore, the           improperly sold clothing and jewelry to
computerized medical records system view alert               subordinates during duty hours. The employee
went unnoticed. Management upgraded the                      received an admonishment.
medical records system to alert the attending
physician and the primary care physician of                  z A VAMC board of investigation found that a
returned test results.                                       certified registered nurse anesthetist behaved in a
                                                             threatening manner towards the interim chief of
                                                             anesthesia. The board recommended taking




                                                       51

Office of Management and Administration

personnel action against the nurse for his                   z A VHA review found that a veteran and his
threatening behavior, expanding the surgical                 wife, who is also a veteran, submitted payment
service orientation-training program, and                    along with two statements to be applied to both his
expediting the recruitment of a permanent chief.             and her accounts. However, the payment was only
                                                             applied to one account causing administrative
z A VHA review found that a VA police officer,               charges and interest to accrue on the unpaid
who acted as an agent for pre-paid legal services,           account. Management recommended the veterans
tried to sell the services to his fellow officers            submit separate payments or mail the payments
during his official duty hours. The chief of police          directly to the facility and not to a lockbox address.
is taking administrative action against the                  A waiver was applied to the administrative charges
employee.                                                    and interest on the unpaid account.

Time and Attendance                                          z A VHA review determined that an employee
                                                             received a relocation bonus for a transfer from one
The responses to Hotline inquiries by                        VAMC to another nearby VAMC, but did not
management officials indicate that four                      establish a residence in the new VAMC’s
allegations of time and attendance abuse at                  commuting area. However, the employee
individual VA facilities were found to have merit            maintained her home and commuted daily to the
and required corrective action. An example                   new VAMC. Due to confusing guidance on this
follows:                                                     issue in VA regulations and their failure to make
                                                             reference to 5 CFR 575.205, paragraph C, the
z   A VHA review found a full-time psychologist              human resources and technical advisors were
was teaching at an outside facility during his tour          unaware of the CFR requirement that clearly states
of duty. Management issued letters of                        the employee must establish a residence before a
admonishment to the psychologist and the                     relocation bonus can be paid. Management
psychologist’s supervisor.                                   initiated a bill of collection for $5,000 and advised
                                                             the employee of her due process right to request a
Fiscal Controls                                              waiver. Human resources and fiscal staff have
                                                             been instructed to validate proof of appropriate
The responses to Hotline inquiries by                        residence before paying relocation bonuses, and
management officials indicate that seven                     management is auditing past relocation bonuses to
allegations of deficient or improper fiscal controls         determine if similar overpayments have occurred.
at individual VA facilities were found to have               They will take appropriate collection action when
merit and required corrective action. Examples of            necessary.
the issues follow:
                                                             z A VHA review of delays in the processing of
z    A VAMC review substantiated a clerical error            checks resulted in the reassignment of the full-time
in the reimbursement of a veteran’s cost for                 cashier to other duties in the VAMC’s fiscal
authorized special handicapped adaptation of his             service. Management also implemented a log
vehicle. The facility transposed figures in                  system to account for the checks and the timeliness
completing the paperwork for reimbursement,                  of processing. Other new controls included
authorizing a check for $1,428 instead of the                additional instructions on where to store checks
correct amount of $4,128. The facility contacted             and improved transmittal systems.
the veteran to apologize and issued a check for the
difference.




                                                       52

                                                               Office of Management and Administration

Patient Safety                                                continually contacted respiratory therapy, there
                                                              was no documentation of this in the patient’s
The responses to Hotline inquiries by                         medical records. Almost 2 hours later, respiratory
management officials indicate that five                       therapy was contacted and a therapist arrived
allegations of patient safety deficiencies at                 within 5 minutes to treat the patient. Management
individual VA facilities were found to have merit             counseled the staffs on timely follow up, and
and required corrective action. Examples of the               communication of patient issues and concerns.
issues follow:
                                                              Government Equipment and Supplies
z   A VAMC review determined that two mental
health professionals used poor judgment when they             The responses to Hotline inquiries by
permitted a patient, who had already admitted to              management officials indicate that three
ingesting a large quantity of narcotic medication, to         allegations involving misuse of Government
return to the domiciliary unescorted. While she               equipment and supplies at individual VA facilities
was unsupervised, the patient obtained and                    were found to have merit and required corrective
ingested more drugs and had to be taken to a                  action. The summaries follow:
community hospital for further treatment.
Management is in the process of disciplining the              z   A VHA review substantiated the allegation that
social worker and the psychologist.                           surgical supplies were missing from the VAMC’s
                                                              operating room. A team leader found the missing
z A VHA review found that an 82-year-old                      items and returned them to the operating room.
veteran, diagnosed with dementia, was not properly
supervised while attending an appointment at the              z A VHA review found that a physician failed to
VAMC and wandered off for a period of                         secure her blank prescription pads, which allowed
approximately 5 hours. The veteran was found by               an unknown individual to take at least four blank
the local police department and was eventually                prescriptions from her lab coat. The physician has
returned home. Management has implemented                     agreed to secure her pads in a locked location.
numerous corrective measures to ensure geriatric
veterans are closely monitored within the VAMC.               z A VHA review determined a supervisor used
                                                              his Government credit card to make purchases that
z A VHA review found that a pharmacy failed to                were inconsistent with established guidelines and
complete a non-formulary request for a veteran’s              acquisition procedures. The supervisor received
oral diabetes medication, which resulted in the               refresher training in the appropriate use of a
medication not being dispensed to the veteran.                Government credit card. Action was taken to
Management is revising the policy of dispensing               ensure that the items purchased are added to the
medication, and a copy of the policy will be                  facility's equipment inventory.
distributed to the members of the medical and
pharmacy staff.                                               Contracting Activity

z A VAMC review substantiated a delay in                      The responses to Hotline inquiries by
treatment of an inpatient, poor communication, and            management officials indicate that five
poor documentation. The mother of an inpatient                allegations involving contracting improprieties or
requested suctioning of her son prior to his eating.          problems with contracted services at individual
Nursing staff contacted respiratory therapy staff             VA facilities were found to have merit and
for assistance, but a therapist was not immediately           required corrective action. Examples of the issues
available. Although nursing claims they                       follow:




                                                        53

Office of Management and Administration

z A VHA review substantiated the allegation that            staff. Additionally, she is scheduled to receive
a veteran received only a partially-filled oxygen           training on diversity and sensitivity.
tank. Management discussed the incident with the
contractor and was informed that drivers were               z A VAMC review substantiated that an
advised to check the patients’ air supply before            employee had her child performing routine office
leaving the patients’ homes.                                activities in her work area as an unauthorized
                                                            volunteer. Management counseled the employee
z    A VHA review found that a VA contracted                and instructed her not to bring her child to work in
home health care provider failed to provide                 the future.
adequate care to a patient. The VAMC obtained an
alternate home health care provider to provide              Ethical Improprieties
service to the patient. Management is closely
monitoring future services of the original provider         The responses to Hotline inquiries by management
and will take appropriate corrective action, if             officials indicate that five allegations involving
warranted.                                                  violations of ethical conduct standards at
                                                            individual VA facilities were found to have merit
z A VHA review found that a veteran                         and required corrective action. Examples of the
experienced difficulty in obtaining consistent in-          issues follow:
home care from a VA contracted home health care
provider. Due to the highly regimented care and             z A VAMC board of investigation found that a
time demands placed on the providers (six different         supervisor who worked for both the medical center
contractors in the past 6 years) by the veteran and         and the associated research corporation had an
his mother, consistent care was disrupted on seven          inherent conflict of interest as decisions made for
occasions. The VAMC and contractor are                      the research corporation affected his VA staff.
continuing to work with the veteran and his mother          Furthermore, because he directed his staff to
to provide consistent care.                                 perform duties in support of his work with the
                                                            research corporation, he was perceived by co-
Personnel Practices                                         workers to have abused his authority. The board
                                                            recommended that VA employees hired by the
The responses to Hotline inquiries by                       research corporation certify that all work being
management officials indicate that four                     performed is outside of their VA duty hours.
allegations involving improprieties in the
personnel practices at individual VA facilities             z A VAMC review substantiated that an
were found to have merit and required corrective            employee used his Government telephone to make
action. Examples of the issues follow:                      calls on behalf of a local political organization.
                                                            The employee was verbally counseled and agreed
z A VAMC review determined that a service                   to cease such activities. This matter was referred
chief violated VAMC policy on approval and                  to the Office of Special Counsel.
documentation of overtime, compensatory time,
and flexi-place for at least one of the employees.          Abuse of Authority
Management counseled the service chief and is
taking steps to ensure his future compliance.               The responses to Hotline inquiries by management
                                                            officials indicate that five allegations involving
z A VHA review found a nurse supervisor made                abuse of authority by employees at individual VA
racially-insensitive remarks to her subordinates            facilities were found to have merit and required
during a meeting. The supervisor received a letter          corrective action. Examples of the issues follow:
of counseling. She issued a formal apology to her



                                                      54

                                                              Office of Management and Administration

z A VHA review substantiated that a VAMC                     z A VAMC review found that its new emergency
chief of police misused his Government time and              room facility did not have an area in which patients
his VA cell phone, and manipulated the time and              could privately discuss their concerns.
attendance system. The review established that the           Management is modifying the configuration to
cell phone misuse resulted in a waste of 32 duty             address this problem and is continuing to monitor
hours, that the time and attendance system                   operations to protect the privacy of the patients.
manipulation gave the chief 1.5 days of
unauthorized administrative leave, and that the              z   A VHA review found that patients were having
chief was receiving a uniform allowance even                 problems in refilling their prescriptions through the
though he only sporadically wore his uniform. The            VAMC’s automated telephone system. As a result,
management review also established that the chief            the pharmacy service is currently developing a plan
misused his official position when he directed his           to correct identified issues related to the telephone
staff to conduct a personal surveillance of his              system and ensure that patients are able to easily
former girlfriend. The chief chose to retire and             access the service.
reimburse the Government $948 for the wasted
Government duty time when management proposed                z A VAMC review found a veteran’s primary
terminating his employment.                                  care physician failed to properly process a referral
                                                             for fee-basis treatment, thus causing confusion
z A VHA review found that outpatient clinic                  when the veteran appeared at a private pain clinic
employees were at times using inappropriate and              for a surgical procedure. A previous referral was
offensive language in their dealings with each other         updated and used to permit the procedure to be
and with patients. Management counseled two                  conducted as scheduled, and the physician was
administrative and two clinical employees.                   reminded of the proper handling of referrals.
                                                             Additionally, the veteran complained that despite
Facilities and Services                                      standing orders in the pharmacy to mail his
                                                             prescriptions, a prescription for pain medication
The responses to Hotline inquiries by VA                     was marked for pick-up. Following an inquiry by
management officials indicated that 29                       Hotline, the medical center faxed a prescription for
allegations regarding deficiencies with facilities           an emergency supply to a local pharmacy and sent
or the services provided by individual VA facilities         the 30-day supply by overnight delivery.
were found to have merit and required corrective
action. Examples of the issues follow:                       z    A VAMC review found that lapses in
                                                             administrative services by ear, nose, and throat
z    A VAMC review determined that a VA                      clerical staff resulted in patients not being properly
employee and a veteran became involved in a                  notified of cancelled or rescheduled appointments.
verbal altercation when the veteran entered a                Further, the review determined that, although the
restricted area. The employee’s supervisor                   complainant had been trying for a year to get a
counseled the employee about her behavior and                faulty glucometer repaired or replaced, prosthetics
suggested strategies for diffusing such episodes in          was unaware of the problem. Management
the future. In addition, the review found a                  reviewed facility procedures on appointment
miscommunication between two specialty clinics               notification with staff and reminded them of the
about patient medication led to the argument.                importance of maintaining good customer service.
Management verbally counseled clinic employees               Prosthetics contacted the complainant to arrange
and amended procedures to enhance                            for a replacement glucometer.
communications on patients managed by more than
one clinic.




                                                       55

Office of Management and Administration

Veterans Benefits                                           were deemed adequate and complete for rating
                                                            purposes. Management hired new personnel to
Administration                                              complete compensation and pension examinations,
                                                            review the adequacy of the completed physical
Receipt of VA Benefits                                      examinations, and assist with the processing of
                                                            claims.
The responses to Hotline inquiries by
management officials indicate that 17 allegations           z   A VBA review found that a debt waiver
involving improprieties in the receipt of VA                request submitted by a veteran to a VARO was not
benefits were found to have merit and required              forwarded in a timely manner to the Debt
corrective action. Examples of the issues follow:           Management Center. The veteran contacted the
                                                            Center on the day the waiver was faxed and was
z A VBA review found that a veteran had                     given erroneous information by several employees
misused his educational benefits. The veteran’s             who were unaware that an indebtedness recall was
educational award was retroactively cancelled,              in process. The review also found that Debt
creating a $26,672 overpayment.                             Management Center employees treated the veteran
                                                            with discourtesy. Management counseled the
z A VARO review found that a veteran was                    employees.
working full-time while he collected a zero-income-
based pension. In addition, the review found the            z A VARO review of a veteran’s file
veteran failed to file an annual eligibility                substantiated that his appeal was closed
verification report. Management terminated the              prematurely when he was accidentally listed as
veteran’s benefits, creating an overpayment of              deceased. The VARO reactivated his appeal.
$7,813.
                                                            z   A VARO review found the office staff
z A VBA review found that a pensioner failed to             mishandled a veteran’s claim file on several
report income derived from SSA and his job. The             occasions. The review found the VARO failed to
VARO terminated the veteran’s pension, creating             schedule the veteran for a hearing, failed to answer
an overpayment of $8,075.                                   the veteran’s e-mail inquiries, and failed to locate
                                                            the veteran’s claim file in a timely manner.
z A VBA investigation resulted in the reduction             Management has implemented numerous controls
of a veteran’s compensation from 90 percent to 10           and procedures to correct processing deficiencies.
percent due to his conviction and incarceration.
The amount recovered is $11,323.                            Employee Misconduct

Facilities and Services                                     The responses to Hotline inquiries by
                                                            management officials indicate that six allegations
The responses to Hotline inquiries by                       involving employee misconduct at individual VA
management officials indicate that six allegations          facilities were found to have merit and required
involving facilities and services at individual VA          corrective action. Examples of the issues follow:
facilities were found to have merit and required
corrective action. Examples of the issues follow:           z   A VBA review found that a temporary
                                                            employee was improperly collecting transit benefits
z A VBA review found that the processing of a               while driving to work on a daily basis.
veteran's claim was delayed, because his physical           Management terminated the employee and is
examinations were released to a VARO before they            recovering the $420 in transit subsidies.




                                                      56

                                                               Office of Management and Administration

z A VBA review found an employee left his duty
station 15 to 20 minutes early on a daily basis to
                                                              II. OPERATIONAL
reduce his commuting time. Management                         SUPPORT DIVISION
counseled the employee and informed him that he is
expected to work his tour of duty.
                                                              Mission Statement
z    A VBA review determined that a vocational
rehabilitation counselor was improperly using a                   Promote OIG organizational effectiveness
Government vehicle for home-to-work commuting,                    and efficiency by providing reliable and
including taking the vehicle home unnecessarily on                timely follow up reporting and tracking on
Friday evenings prior to Federal holidays. As a                   OIG recommendations; responding to
result, management established a new field trip log               Freedom of Information Act (FOIA)/Privacy
to reflect only the actual visits to facilities and               Act (PA) requests; conducting policy review
veterans and a quarterly review of vehicle credit                 and development; strategic, operational, and
card use in conjunction with the new log.                         performance planning; and overseeing
Additionally, management changed the approval                     Inspector General reporting requirements.
process for taking a Government vehicle home at
night to ensure compliance with a regional office
circular. However, based on this report, OIG                  Resources
determined that VA policy is not in compliance
with the statutory requirement that only the head of          This Division has nine FTE assigned with the
the agency can approve home-to-work commuting                 following allocation:
in Government vehicles and referred the issue to
the Office of General Counsel.
                                                                                         Policy
z    A VARO review found a VA employee used her                                           11%        Leg.
Government computer to forward a chain e-mail to                                                   Review s
a list of other VA employees. Management                                                              8%
proposed a 5-day suspension.                                                                          Planning &
                                                                FOIA/PA                                Reports
                                                                  46%                                    13%
National Cemetery
Administration
                                                                                                  Follow Up
                                                                                                    22%
Personnel Practices

A review determined that while no evidence of
wrongdoing was discovered, in this specific                   Overall Performance
instance, a lack of effective supervisory oversight
may have contributed to the resignation of two
                                                              Follow Up on OIG Reports
employees from their positions. The review team
recommended that first-line supervisors address
                                                              The Division is responsible for obtaining
office rumors and other employee misconduct
                                                              implementation actions on previously issued audits,
consistently, and that management monitor first-
                                                              inspections, and reviews with over $4 billion of
line supervisor responsibilities relating to personal
                                                              actual or potential monetary benefits as of
conduct.
                                                              September 30, 2002.



                                                        57

Office of Management and Administration

The Division is also responsible for maintaining             audit, investigative, and other OIG reports.
the centralized follow up system that provides for           Information was totally denied in 3 requests and
oversight, monitoring, and tracking of all OIG               partially withheld in 165 requests because release
recommendations through both resolution and                  would have constituted an unwarranted invasion of
implementation. Resolution and implementation                personal privacy, interfered with enforcement
actions are monitored to ensure that disagreements           proceedings, disclosed the identity of confidential
between OIG and VA management are resolved as                sources, disclosed internal Department matters, or
promptly as possible and that corrective actions             was specifically exempted from disclosure by
are implemented as agreed upon by VA                         statute. During this period, all FOIA cases
management officials. VA’s Deputy Secretary, as              received a written response within 20 workdays, as
the Department’s audit resolution official, resolves         required. There are no cases pending over 6
any disagreements about recommendations.                     months.

After obtaining information that showed                      Review and Impact of Legislation and
management officials had fully implemented                   Regulations
corrective actions, the Division took action during
this period to close 87 reports and 592                      The Division coordinated concurrences on
recommendations with a monetary benefit of                   legislative and regulatory proposals from the
$379 million. As of September 30, 2002, VA had               Congress, OMB, and the Department that relate to
68 open OIG reports with 250 unimplemented                   VA programs and operations. The OIG commented
recommendations.                                             and made recommendations concerning the impact
                                                             of the legislation and regulations on economy and
Freedom of Information Act, Privacy Act,                     efficiency in the administration of programs and
and Other Disclosure Activities                              operations or the prevention and detection of fraud
                                                             and abuse. During this period, we reviewed 73
The Division processes all OIG FOIA and PA                   legislative, 66 regulatory, and 59 administrative
requests from Congress (on behalf of constituents),          proposals.
veterans, veterans service organizations, VA
employees, news media, law firms, contractors,
complainants, general public, and subjects/
                                                             Status of OIG Reports
witnesses of inquiries and investigations. In                Unimplemented for Over
addition, the Division processes official requests
for information and documents from other Federal             3 Years
Departments and agencies, such as the Office of
Special Counsel, the Department of Justice, and              We require management officials to provide us
the FBI. These requests require the review and               with documentation showing the completion of
possible redacting of OIG hotline, healthcare                corrective actions on OIG reports, including
inspection, criminal and administrative                      reporting of collection actions until the amounts
investigation, contract audit, and internal audit            due VA are either collected or written off. In turn,
reports and files. We also process OIG reports and           we conduct desk reviews of status reports
documents to assist VA management in establishing            submitted by management officials to assess both
evidence files used to support administrative or             the adequacy and timeliness of agreed upon
disciplinary actions against VA employees.                   implementation actions. When a status report
                                                             adequately documents corrective actions, the
During this reporting period, we processed 272               follow up staff closes the recommendation after
requests under the FOIA and PA and released 282              coordination with the OIG office that wrote the




                                                       58

                                                             Office of Management and Administration

report. If the actions do not implement the

recommendation, we request a status update.

                                                            Veterans Health
                                                            Administration
The following chart lists the total number of

unimplemented OIG reports and recommendations.
             Unimplemented Recommendations and
It also provides the total number of unimplemented
         Status (FY 1999 and Earlier Reports)
reports and recommendations issued in FY 1999

and earlier.
                                               Report: Evaluation of VHA’s Policies and

                                                            Practices for Managing Violent and Potentially

                   U nimplemented OIG                       Violent Psychiatric Patients, 6HI-A28-038,

             R eports and R ecommendations                  3/28/96

                                                            Recommendation: VHA managers should explore

                                  F Y 1999 an d
 VA              Total                                      network flagging systems that would ensure

                                     Earlier
Office                                                      employees at all VAMCs are alerted when patients

          R epts    R ecoms     R epts    R ecoms           with histories of violence present for treatment to

 VHA        41           171       4           11           their medical centers.

                                                            Status: The Chief Information Officer has begun

 VBA         8            39       0           0            the necessary work to implement an automated

 MGT        16            24       0           0            system wide tracking system for patient advisory

                                                            flags. Planning work on this automated system

 I &T        1             8       0           0            began in August 2002 and is scheduled for

 P&P         1             7       0           0            completion by July 30, 2003. VHA will also

                                                            develop training guidance on the appropriate use of

 HRA         1             1       0           0
                                                            patient flags.

 Total      68           250       4           11           Concern: The OIG is concerned because the latest

                                                            VHA status shows that after 6 years the flagging

Office of Management (MGT)
                                 system still has not been developed and the

Office of Information and Technology (I&T)
                 recommendation remains unimplemented. The

Office of Policy and Planning (P&P)
                        OIG report included recommendations that were

Office of Human Resources and Administration
               meant to strengthen areas that may reduce the

(HRA)
                                                      incidence of injury associated with violence in

                                                            inpatient psychiatric units.

We are particularly concerned about the FY 1999

and earlier reports that have not been implemented
         Report: Internal Controls Over the Fee-Basis

3 years after being issued. The status and OIG
             Program, 7R3-A05-099, 6/20/97

concerns on these FY 1999 and earlier reports are
          Recommendations: VHA should improve the cost

summarized as follows.
                                     effectiveness of home health services by: (1)

                                                            establishing guidelines for contracting for such

                                                            services, and (2) providing contracting officers

                                                            with benchmark rates for determining the

                                                            reasonableness of charges.

                                                            Status: VHA provided a draft directive to the OIG

                                                            in January 2001. However, there was lack of

                                                            consensus from field reviewers and non-

                                                            concurrence from the OIG on the draft. VHA

                                                            withdrew the directive from concurrence in August





                                                      59

Office of Management and Administration

2001 to begin a complete revision. The VHA
                   reactivated and it will include specific performance
geriatrics and extended care staff is formulating a
          requirements for the billing activity. A request has
policy, and a directive may be drafted in November
           been submitted for software enhancements that
2002.
                                                        would automatically generate a bill within 60 days
Concern: The OIG is concerned because no VHA
                 of referral. Once this software is in place, a
plan has been provided to implement the
                      monitoring process can be developed to evaluate
recommendation. The June 1997 final report
                   the efficacy of that software as it relates to that
showed that contracting for home health services
             billing standard. Referrals of IVM billing cases to
could save at least $1.8 million annually; however,
          VAMCs and the monitoring reports to reflect the
the recommendations remain unimplemented.
                    results of the IVM activity will not occur until
                                                              software enhancements are completed on the
Report: Evaluation of VHA’s Income Verification
              redesigned HEC information system. Procedures
Match (IVM) Program, 9R1-G01-054,
                            are being implemented to begin multiple year
3/15/99
                                                      income verification upon the re-start of the
Recommendations:                                              verification program. The VHA Business Office
1. Require the Chief Network Officer to ensure
               will monitor the project and HEC’s performance.
that VISN Directors establish performance
                    Anticipate for multiple year income verification to
standards and quality monitors, and strengthen
               begin during the second quarter, FY 2003. Based
procedures and controls for means testing activities
         on the complexity of the new HEC database, the
and billing and collection of Health Eligibility
             first billing referrals are anticipated during the
Center (HEC) referrals to include: (a) requiring
             third quarter, FY 2003. The new VHA Chief
staff to review and appropriately bill HEC
                   Business Officer has ordered a full review of the
referrals within 60 days of receipt, (b) notifying
           VHA means testing process. Significant changes
staff that means testing activities and billing and
          are anticipated that may make the centralization of
collection actions on HEC referrals will be actively
         means testing unnecessary.
monitored by VISN and facility management, (c)
               Concern: The 1999 audit found the
obtaining quarterly reports from the HEC of the
              recommendations made in a March 1996 OIG
number of cases referred and the number of cases
             report on VHA’s income verification match
billed and not billed for each facility, and (d)
             program were not fully implemented. We are
reviewing a sample of cases to verify appropriate
            concerned because the 1999 report showed that
billing and compliance with the 60-day billing
               VHA could increase funding available for health
standard and to determine why unbilled referrals
             care by $14 million and put resources valued at
were not billed and taking appropriate corrective
            $4 million to better use; however, the
action.
                                                      recommendations remain unimplemented.
2. Requiring the Chief Information Officer to

develop performance measures and monitor
                     Report: Administrative Investigation,
periodic performance reports to ensure the HEC:
              Contracting Issues at the VA Chicago Health
(a) performs multiple year income verification, and
          Care System, Chicago, IL, 9PR-E03-143, 9/15/99
(b) transmits all billing referrals to facilities.
           Recommendation: Issue a bill of collection to a
3. Expedite action to centralize means testing
               retired VA employee to recoup the amount of her
activities at the HEC.
                                       voluntary separation incentive (Buyout).
Status: Current start up for the IVM process is
              Status: The offset from the individual’s retired
scheduled for the first quarter, FY 2003 with
                pay should start in November 2002 via the
additional software enhancements currently
                   Department of Treasury offset program.
scheduled for the third quarter, FY 2003. VHA
                Concern: The VA Chicago Health Care System
will publish a directive when the program is
                 awarded a personal services contract to a retired




                                                        60

                                                               Office of Management and Administration

VA employee who had previously received a                     resources. The Division interfaces with VA IT
voluntary separation incentive payment. The                   units nationwide to establish and support local and
statutory provision that authorized the buyout                wide area networks, guarantee uninterrupted
requires repayment when an employee enters into a             access to electronic mail, service personal
Government personal services contract. The OIG                computers, detect and defeat computer threats, and
is concerned that the final report was issued in              provide support in protecting all electronic
September 1999; however, VHA/VISN 12 did not                  communications. The Division, which is managed
issue a bill of collection for $25,000 until January          by the OIG’s Chief Information Officer, represents
2001 and delayed the hearing on the waiver request            the OIG on numerous intra- and inter-agency IT
until January 2002. In addition, the VISN did not             organizations and is responsible for strategic IT
submit the offset request to the Department of                planning for all OIG requirements. The Data
Treasury until August 2002.                                   Analysis Section in Austin, TX provides data
                                                              gathering and analysis support to employees of the
                                                              OIG, as well as VA and other Federal agencies,
III. INFORMATION                                              requesting information contained in VA automated
                                                              systems. Finally, a member of this division serves
TECHNOLOGY AND DATA                                           as the OIG statistician.

ANALYSIS DIVISION                                             Resources

Mission Statement                                             The Division has 22 FTE currently assigned in
                                                              Washington, Austin, Chicago, and Atlanta. These
    Promote OIG organizational effectiveness                  FTE are devoted to the following areas:
    and efficiency by ensuring the accessibility,
    usability, and security of OIG information
    assets; developing, maintaining, and                                                   Webmaster/
                                                                                            Security
    enhancing the enterprise database                                             CIO
                                                                                  5%          5%
    application; facilitating reliable, secure,
    responsive, and cost-effective access to this
                                                                                              Statistician
    database, VA databases, and electronic mail                                                   5%
    by all authorized OIG employees; providing                Mainframe                                      Sup. Comp.
    Internet document management and control;                 Computer                                         Spec.
    and providing statistical consultation and                 Spec.                                            5%

    support to all OIG components. Provide                      58%                           Programmers
    automated data processing technical support                                                   13%
    to all elements of the OIG and other Federal                                   PC Comp.
    Government agencies needing information                                         Spec.
    from VA files.                                                                    9%


The Information Technology and Data Analysis
Division provides information technology (IT) and             Overall Performance
statistical support services to all components of the
OIG. It has responsibility for the continued                  Master Case Index (MCI)
development and operation of the management
information system known as the Master Case                   During this reporting period, we provided the OIG
Index (MCI), as well as the OIG’s Internet                    field personnel with more than 40 enhancements of



                                                        61

Office of Management and Administration

the MCI, the OIG’s enterprise database. Most                  resources and utilization. We provided review and
notably, the Division implemented a secure intranet           feedback on the Department’s draft rewrite of the
platform to store, search, and print OIG policies,            agency’s primary security policy, software security
procedures, directives, and issues of shared                  guides, remote access policy, mobile code policy,
concern. Additionally, the Division developed new             wireless access policy, infrastructure protection
MCI modules to track the fugitive felon match, as             proposal, information security officer policies, and
well as allocations in awards, travel, training, and          a centrally-managed security contract.
supplies.
                                                              Statistical Support
In a test environment, we successfully migrated a
portion of the functionality and data in MCI from             The OIG statistician is part of the technical
our current client-server environment to a “web-              support team under the direction of the OIG’s
enabled” Oracle 9i database.                                  Chief Information Officer. The OIG statistician is
                                                              the subject matter expert providing statistical
Internet and Electronic Freedom of                            consultation and support to the VA OIG. The
Information Act                                               statistician provides assistance in planning,
                                                              designing, and sampling for relevant OIG projects.
The Division is responsible for processing and                In addition, the statistician provides support in the
controlling electronic publication of OIG reports,            implementation of appropriate methods to ensure
including maintaining the OIG websites and                    that data collection, preparation, analysis, and
posting OIG reports on the Internet. Data files on            reporting are accurate and valid.
the OIG website were accessed over 916,000 times
by more than 174,000 visitors. Our most popular               For the reporting period, the OIG statistician
reports were downloaded over 74,000 times,                    provided statistical consultation and support on
providing both timely access to OIG customers and             seven research design and/or sampling plans for
cost avoidance in the reduced number of reports               proposed audit projects and OHI proactive
that must be printed and mailed. Our vacancy                  program evaluations. Additionally, the OIG
announcements accounted for an additional 12,700              statistician provided statistical support for all CAP
downloads.                                                    reviews. This support involved preparing and
                                                              processing the random samples of full-time VAMC
We posted the frequently-requested “Report on                 employees who were part of the employee survey.
Medical Center Sanitation and Follow-up of the                The statistician also provided data concerning
Combined Assessment Program Review Kansas                     purchase card use at each facility.
City VA Medical Center” in our electronic reading
room in compliance with the Electronic Freedom of             We used an automated survey software package to
Information Act. We posted other CAP and audit                create a survey of OIG employees to assess their
reports, Office of Investigations press releases, and         software training needs and interest in/possible use
other OIG publications, including this semiannual             of a telecommuting program. The statistician also
report to Congress, on our website.                           completed conversion into electronic format of the
                                                              current hard-copy CAP review’s employee survey
Information Management, Security, and                         and the OIG audit peer review survey. The
Departmental Coordination                                     electronic completion of these two surveys will
                                                              drastically reduce employee hours needed for data
We actively participate in the development of                 collection and analysis. Two recent CAP employee
Departmental policies and programs to improve VA              surveys were done in paper and online formats. In
information security, IT accessibility, and Internet          FY 2003, all CAP employee surveys will be




                                                        62

                                                              Office of Management and Administration

completed exclusively online. In addition, the               and investigative cases described in other sections
upcoming dysphagia survey and the energy                     of this report. Significant efforts include:
conservation policy survey were drafted in the
survey software package for dissemination during             Mysterious Deaths at VAMC Columbia,
FY 2003. Research supports that respondents tend             Missouri
to provide more accurate information when an
electronic medium for communications is used.                An investigation into a number of mysterious
                                                             patient deaths at VAMC Columbia, MO was
Information Technology Training Initiative                   conducted in 1992. A nurse at the facility was
                                                             suspected, but the lack of forensic evidence at the
We have contracted with four vendors to provide              time precluded an indictment. Since then,
instructor-led training in a variety of Microsoft            advancements in forensic science provided the OIG
applications in the classroom in our Washington,             with more effective tools in toxicology and the
DC headquarters office and one vendor with                   investigation was reopened. DAS was asked to
training facilities in each city in which the OIG is         provide information on the administration of a drug
located to provide training for our field employees.         called succinylcholine to several of the patients
To date, 131 employees have received 387 days of             who died under mysterious circumstances. The
instructor-led training in Washington, DC, while 97          original suspect was ultimately indicted on ten
field employees have received 171 days of training           counts of homicide.
locally.
                                                             Fugitive Felon Matches
DATA ANALYSIS SECTION
                                       In compliance with recently signed legislation
                                                             authorizing a computer match of VA records to
The Data Analysis Section (DAS) extracts and                 state and other Federal files, DAS matched felony
analyzes data in VA computer files and systems.              warrant files from the U.S. Marshals Service and
DAS staff develop proactive computer profiles that           the State of California Department of Justice to
search VA computer data for patterns of                      seven VA benefit system files. DAS has identified
inconsistent or irregular records with a high                more than 2,000 veteran recipients with active
potential for fraud and they refer these leads to            felony warrants.
OIG auditors and investigators for further review.
                                                             Data Mining to Detect Potential Fraud in
They conduct reviews that identify invalid or                VA Computer Systems
erroneous information in VA computer files that
can lead to bad results or erroneous conclusions.            Fraud and other illegal activities committed against
They provide automated data processing technical             VA’s programs can amount to millions of dollars.
assessments and support to all elements of the OIG           Contracts, procurements, and veterans benefits
and other governmental agencies needing                      programs are inherently vulnerable to fraud due to
information from VA computer files. They also                the large expenditures of funds associated with
provide ADP technical support to preaward and                purchasing the items necessary for an agency as
postaward OIG audit reviews that assist VA                   large and diverse as VA to operate and for
contracting officers in price negotiations and               compensating millions of veterans for their service
ensure reasonableness of contract prices. The                to their country. The DAS staff took a proactive
support work provided by the DAS staff is                    approach to finding and reporting fraud by
reported in many of the OIG audits, inspections,             developing computer profiles that reflect the
                                                             procedures used to defraud the VA and duplicating




                                                       63

Office of Management and Administration

those procedures looking for similar patterns in the         negotiate better prices and to disclose overcharges
data. As a result of their data mining efforts, DAS          by contract vendors.
referred 39 cases of potential fraud to OIG
investigators for further review. The cases include          Assistance to Other Agencies
a wide variety of benefit fraud such as: suspected
deceased payees still receiving VA benefit                   DAS staff supported six requests from other
payments, questionable payments to suspicious                agencies for information contained in VA computer
addresses, and payments to incarcerated veterans.            files. Agencies included the Department of Justice,
                                                             SSA, and the U.S. General Accounting Office.
Death Match Project
                                                             Other Workload
DAS staff is conducting a proactive death match
project in cooperation with the OIG Office of                During this reporting period, DAS staff completed
Investigations. The match identifies individuals             108 ad hoc requests for data requested by all other
who may be defrauding VA by receiving VA benefit             OIG operational elements. Considerable effort was
payments sent to deceased veterans. DAS refers               also expended by DAS in support of a search for
the matches to OIG investigators for further                 additional suspects in the Atlanta fraud case,
review. The file is updated on a recurring basis to          follow up work on the Philippines review, and
obtain more current information. DAS recently                other requests having substantial impact on
added more than 2,700 new cases of potential                 veterans. In one noteworthy case, a veteran who is
fraud against VA to the death match database.                homeless and without a mailing address since 1995
                                                             will receive all of the VA benefit checks that he has
Combined Assessment Program - Medical                        been entitled to since that date.

DAS staff provided technical support and data to
16 CAP reviews focusing on the quality, efficiency,
and effectiveness of medical services provided to
veterans. Reviews of part-time physician time
usage and sanitation issues at the Kansas City
Medical Center requested by the Secretary of
Veterans Affairs were also included in these
reviews.

Combined Assessment Program - Benefits

DAS staff provided technical support and data to
three VARO CAP reviews focused on the delivery
of monetary benefits to veterans and their
dependents.

Preaward and Postaward Contract
Reviews

DAS staff provided technical support and data to
11 preaward and postaward contract reviews
conducted by the OIG to identify opportunities to




                                                       64

                                                                Office of Management and Administration

IV. FINANCIAL AND                                              Overall Performance
ADMINISTRATIVE                                                 Budget and Finance Section
SUPPORT DIVISION                                               The staff assisted in the preparation of the FY
                                                               2004 budget submission and materials for
                                                               associated hearings in the Department and OMB.
Mission Statement
                                                               The budget staff executed 99.36 percent of the
    Promote OIG organizational effectiveness
                                                               OIG’s FY 2002 budget authority.
    and efficiency by providing reliable and
    timely financial and administrative support
                                                               Travel Section
    services.
                                                               By the nature of our work, OIG personnel travel
The Division provides support services for the
                                                               almost continuously. As a result, we processed
entire OIG. Our services include budget
                                                               1,848 travel and 93 permanent change of station
formulation, presentation, and execution; travel
                                                               vouchers in addition to 14 new permanent change
processing; procurement; space and facilities
                                                               of station authorities and 24 amendments to
management; and general administrative support.
                                                               existing authorities.

Resources                                                      Administrative Operations

The Division has eight FTE currently assigned.                 The administrative staff works closely with VA
The staff allocation for the three functional areas is         Central Office administrative offices and building
as follows:                                                    management to coordinate various administrative
                                                               functions, office renovation plans, telephone
                                                               installations, and the procurement of furniture and
                                                               equipment.
         Travel
          24%                                                  In addition, this component processed 133
                                                               procurement actions and reviewed and approved,
                                      Admin.
                                     Operations
                                                               each month, the 65 statements received from the
                                       38%                     OIG’s cardholders under the Government’s
                                                               purchase card program.

           Budget
            38%




                                                         65

Office of Management and Administration

V. HUMAN RESOURCES
MANAGEMENT DIVISION
Mission Statement
    Promote OIG organizational effectiveness
    and efficiency by providing reliable and
    timely human resources management and
    related support services.

The Division provides human resources
management related support services for the entire
OIG. It serves as liaison to the VA Central Office
for personnel and payroll related matters.

Resources
The Division has eight FTE, which are all
committed to human resources management and
support.

Overall Performance
Human Resources Management

During this period, the staff brought 36 new
employees on board. In addition, the staff
processed 106 personnel actions and 466 awards.




                                                     66

OTHER SIGNIFICANT OIG ACTIVITIES
President’s Council on Integrity and                           Inter-Agency Task Force on Reviewing
Efficiency                                                     Biological Agents

z   The Assistant Inspector General for                        The Deputy Assistant Inspector General for
Investigations served on a PCIE investigations                 Healthcare Inspections briefed an inter-agency task
committee examining the issue of law enforcement               force comprised of auditors and evaluators from
authority for special agents of the OIG.                       the Departments of Agriculture, Defense, and
                                                               Health and Human Services. He discussed the
z OIG Financial Audit Division staff
                                                               methods for reviewing the adequacy of security
participated in the audit executive committee                  over biological, chemical, and radioactive agents
workgroup on financial statements. The                         that have the potential of conversion to weapons of
workgroup facilitates communication of financial               mass destruction. The Office of Healthcare
statement audit issues throughout the Federal                  Inspections hosted a meeting with this same task
community.                                                     force in August 2002. The task force meets
                                                               quarterly on this very important issue.
z OIG Audit Planning Division staff participated
in the PCIE workgroup on improper and erroneous                10th Annual Leadership VA Alumni
payments. This workgroup is addressing the                     Association Forum
definition of what is an improper payment,
identifying the challenges and root causes of                  The Deputy Assistant Inspector General for
improper payments, and preparing Government-                   Management and Administration represented the
wide guidance to help reduce improper payments.                IG in a panel discussion of VA leaders at this
                                                               forum, responding to questions from the VA
z OIG Audit Planning Division staff participated
                                                               executives and managers attending.
in the PCIE Government Performance and Results
Act workgroup. This workgroup is addressing                    Presentation at VA INFOSEC 2002 Security
strategic governance issues.                                   Conference

                                                               The Central Office Audit Operations Division and
OIG Management Presentations
                                                               security audit project managers participated in a
                                                               panel discussion on security issues identified
2002 Association of Directors of
                                                               during our audit at the National VA Information
Investigation Conference
                                                               Security Conference in New Orleans, LA.
The Inspector General participated as a member of
                                                               Presentations to VHA and VBA on
the IGs’ panel. The conference provided an
                                                               Information Security
opportunity to discuss how the mission of Federal
law enforcement has changed since September 11,
                                                               The Central Office Audit Operations Division
2001. The panel provided an occasion for all
                                                               Director and security audit project managers made
attendees to ask questions concerning our new
                                                               separate presentations on our security audit
responsibilities and to reflect on the state of the IG
                                                               findings to VHA and VBA. The presentations
community.
                                                               included demonstration and discussion of how our




                                                         67

Other Significant OIG Activities

scanning tools are used to complete network                  7th Annual Medicaid Drug Rebate Program
vulnerability assessments. The VHA and VBA
CIOs requested the presentations to provide a                OIG representatives from the Contract Review and
forum for discussion of our security review results.         Evaluation Division, VA’s Office of General
                                                             Counsel, and the FSS Service conducted a half-day
Presentation to Vice Chairman,                               workshop for pharmaceutical industry
President’s Critical Infrastructure                          representatives. The workshop covered the FSS
Protection Board                                             program and the requirements of Public Law
                                                             102-585 §603.
The Inspector General and staff provided a briefing
on our information security initiatives to the Vice          National Acquisition Center New
Chairman, President’s Critical Infrastructure                Contracting Officer Training
Protection Board. We briefed on the security audit
findings and vulnerability areas identified. In              The Director, Contract Review and Evaluation
response to a request from the Vice Chairman, we             Division and his staff presented an overview of the
coordinated with representatives from the PCIE to            OIG Contract Review and Evaluation Division to
provide input to the Board concerning IG                     new contracting officers at the National
community cyber security findings and resources              Acquisition Center in Hines, IL. The presentation
needed to better perform the IG cyber security               covered how we conduct preaward and postaward
oversight mission.                                           reviews and how we fit into the acquisition
                                                             process.
Office of Acquisition and Materiel
Management’s Acquisition Forums                              Association of Government Accountants

The Counselor to the Inspector General and OIG               Audit Manager Nicholas Dahl served as President
representatives from the Contract Review and                 of the Boston Chapter of the Association of
Evaluation Division made four presentations to               Government Accountants for the 2001-2002
local contracting personnel. The presentations               program year. Under his leadership, the Boston
covered various aspects of local procurements and            Chapter received the Platinum Award, the highest
purchasing practices including use of FSS                    level of recognition, for superior chapter
contracts, contracts with distributors, Government           accomplishments. The Chapter was also
purchase cards, and health care resource                     recognized with the National Community Service
proposals.                                                   Award in the large chapter group for its significant
                                                             involvement in, and commitment to community
Office of Acquisition and Materiel                           service.
Management’s Industry Day
“Strengthening the Partnership - Building                    VBA Assistant Directors Development
a Firmer Foundation”                                         Program

OIG representatives from the Contract Review and             The Director, Hotline Division, participated in a
Evaluation Division made a presentation on “How              panel on ethics at the VBA assistant directors
to Prepare for a Preaward Review” to FSS                     development program. He explained the role of the
industry representatives.                                    OIG and the Hotline in ethics complaints.




                                                       68

                                                                         Other Significant OIG Activities

Awards                                                      z   In June 2002, the Assistant Inspector General
                                                            for Auditing testified before the Subcommittee on
Letter of Appreciation                                      Health, House Committee on Veterans’Affairs.
                                                            The testimony discussed the results of our review
Three staff members from the Office of Audit                of Kansas City VA Medical Center.
received a letter of appreciation from the Director
of Finance for the Palo Alto Institute for Research         z In September 2002, the Inspector General
and Education, Inc. thanking them for their                 testified before the Subcommittee on Oversight and
professionalism, focus, and help during an OIG              Investigations, House Committee on Veterans’
review of the nonprofit research corporation at             Affairs. The testimony provided OIG’s assessment
VAMC Palo Alto, CA. The review was performed                of VA’s information security program.
to help address questions received from the
Subcommittee on Oversight and Investigations,
House Committee on Veterans' Affairs relating to
the Department's oversight of VA non-profit
research and education corporations. The team
consisted of Manuel Mireles, Gregory Gladhill,
and Raymond Jurkiewicz.

OIG Congressional Testimony

z In April 2002, the Assistant Inspector General
for Auditing testified before the House Committee
on Veterans’Affairs. The testimony discussed the
OIG’s audit work related to inclusion of priority
group 7 veterans in VA’s veterans equitable
resource allocation system.

z In May 2002 and in September 2002, the
Assistant Inspector General for Auditing testified
before the Subcommittee on Oversight and
Investigations, House Committee on Veterans’
Affairs. On both occasions the testimony
discussed the results of the OIG’s work related to
VA’s nonprofit research and education foundations
affiliated with VHA facilities.

z   In June 2002, the Deputy Assistant Inspector
General for Auditing and the Counselor to the
Inspector General testified before the
Subcommittee on Health, House Committee on
Veterans’Affairs. The testimony discussed
procurement practices in VA and H.R. 3645, the
Veterans Health Care Items Procurement Reform
and Improvement Act 2002.




                                                      69

Other Significant OIG Activities




                                   70

                                           APPENDIX A

                            DEPARTMENT OF VETERANS AFFAIRS
                              OFFICE OF INSPECTOR GENERAL
                                  REVIEWS BY OIG STAFF


  Report                                                             Funds Recommended
 Number/                                                                for Better Use   Questioned
Issue Date                     Report Title                           OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS
01-02946-58    Combined Assessment Program Review of the VA
4/1/02         San Diego Healthcare System

01-01518-30    Combined Assessment Program Review of the VA           $103,246    $103,246
4/4/02         Medical Center Durham, NC

01-01516-29    Combined Assessment Program Review of the
5/28/02        Department of Veterans Affairs Medical Center
               Providence, RI

00-02083-52    Combined Assessment Program Review of the
5/31/02        Central Alabama Veterans Health Care System

02-01165-111   Combined Assessment Program Review of VA
6/7/02         Regional Office Cleveland, OH

01-02639-115   Combined Assessment Program Review of the VA            $18,923     $18,923
6/12/02        Regional Office Manchester, NH

01-02104-116   Combined Assessment Program Review of the VA            $25,882     $25,882
6/12/02        Regional Office New York, NY

02-00970-122   Combined Assessment Program Review of the VA           $157,546    $157,546
6/21/02        Regional Office Waco, TX

01-02122-133   Combined Assessment Program Review of the
7/10/02        Central Arkansas Veterans Healthcare System

00-01219-134   Combined Assessment Program Review of the VA
7/10/02        Medical & Regional Office Center Fargo, ND

01-00223-136   Combined Assessment Program Review of the
7/16/02        James H. Quillen VA Medical Center

01-01073-140   Combined Assessment Program Review of the VA
7/19/02        Connecticut Healthcare System

01-02120-20    Combined Assessment Program Review of the
7/22/02        John J. Pershing VA Medical Center Poplar Bluff, MO


                                                      71

  Report                                                            Funds Recommended
 Number/                                                               for Better Use   Questioned
Issue Date                     Report Title                          OIG     Management   Costs

COMBINED ASSESSMENT PROGRAM REVIEWS (Cont’d)

02-01168-144   Combined Assessment Program Review of the VA           $13,465       $13,465
7/25/02        Regional Office Des Moines, IA

01-02327-149   Combined Assessment Program Review of the Central
7/29/02        Texas Veterans Health Care System Temple, TX

02-01171-108   Combined Assessment Program Review of the            $1,813,350    $1,813,350
7/31/02        VA Long Beach Healthcare System

02-01159-145   Combined Assessment Program Review of the             $490,137      $490,137
8/5/02         William S. Middleton Memorial Veterans Hospital
               Madison, WI

02-01259-148   Combined Assessment Program Review of the VA            $9,160       $9,160A
8/6/02         Regional Office Newark, NJ

02-01929-156   Combined Assessment Program Review of the VA
9/3/02         Regional Office Roanoke, VA

01-02940-166   Combined Assessment Program Review of the VA          $150,000      $150,000
9/20/02        Medical Center Fayetteville, NC

02-00988-170   Combined Assessment Program Review of VA              $747,186      $747,186
9/30/02        Loma Linda Healthcare System

02-01766-171   Combined Assessment Program Review of VA               $27,500       $27,500
9/30/02        Regional Office Denver, CO

INTERNAL AUDITS

00-01089-91    Audit of VA Medical Center Management of            $53,700,000   $53,700,000
5/8/02         Miscellaneous Supply Inventories

00-01088-97    Audit of VA Consolidated Mail Outpatient            $28,800,000   $12,600,000
5/17/02        Pharmacy Inventory Management

01-01463-104   Management Letter, Audit of VA’s Fiscal Years
6/3/02	        2001 and 2000 Consolidated Financial
               Statements General Systems Computer Controls
               Review at the Austin Automation Center

01-02782-99    Report of Audit of the Department of Veterans
6/11/02        Affairs’ Franchise Fund Consolidated Financial
               Statements for Fiscal Years 2001 and 2002




                                                      72

  Report                                                               Funds Recommended
 Number/                                                                  for Better Use   Questioned
Issue Date                      Report Title                            OIG     Management   Costs

INTERNAL AUDITS (Cont’d)

01-01463-105   Management Letter, Audit of VA’s Fiscal Years
6/13/02	       2001 and 2000 Consolidated Financial Statements
               General Systems Computer Controls Review at
               the Philadelphia Information Technology Center

01-01463-106   Management Letter, Audit of VA’s Fiscal Years
6/13/02	       2001 and 2000 Consolidated Financial Statements
               General Systems Computer Controls Review at
               the Hines Benefits Delivery Center

01-01463-107   Management Letter, Audit of VA’s Fiscal Years
6/13/02	       2001 and 2000 Consolidated Financial Statements
               Loan Guaranty Systems Control Review at
               the Austin Automation Center

01-01463-123   Management Letter, Audit of Department of
6/21/02	       Veterans Affairs Consolidated Financial Statements
               for the Fiscal Year Ended September 30, 2001

02-01202-164   Audit of Department of Veterans Affairs Fiscal
9/12/02        Year 2001 Special Disabilities Capacity Report

00-00061-169   Audit of Veterans Benefits Administration             $104,800,000   $104,800,000
9/30/02	       Benefit Payments Involving Unreimbursed
               Medical Expense Claims

OTHER OFFICE OF AUDIT REVIEWS

02-00825-78    Attestation of the Department of Veterans Affairs
4/4/02	        “Detailed Accounting Submission” for Fiscal Year
               2002

02-00198-86    Report on Promptness of Department of Veterans
4/16/02	       Affairs’ Payments to the District of Columbia Water
               and Sewer Authority

02-02280-112   Report on Medical Center Sanitation and Follow-up
6/3/02	        of the Combined Assessment Program Review,
               Kansas City VA Medical Center

00-02888-127   Evaluation of Computer and Housekeeping Equipment
7/12/02        Accountability at the VA Maryland Health Care System

02-01265-152   Evaluation of Hotline Complaint Concerning Office
8/21/02	       Space Furnished to a Government Contractor at the
               Austin Automation Center




                                                       73

  Report                                                                Funds Recommended
 Number/                                                                   for Better Use   Questioned
Issue Date                        Report Title                           OIG     Management   Costs

OTHER OFFICE OF AUDIT REVIEWS (Cont’d)

01-00236-153     Allegations of Mismanagement in Psychiatry
8/26/02          Programs at VA Medical Center Gainesville, FL

01-00256-157     Evaluation of Business Operations Between the
9/5/02           Department of Veterans Affairs and the Federal
                 Energy Regulatory Commission

CONTRACT REVIEWS *

00-00218-87      Postaward Review of Hollister Incorporated’s
4/16/02          Federal Supply Schedule Contract Number
                 V797P-3546j

00-00957-88      Settlement Agreement, Postaward Review of                                            $1,822,439
4/17/02          Cordis Corporation

02-00799-89      Review of Proposal for CT Scanners and MRI               $352,500
4/22/02          Systems Submitted by GE Medical Systems Under
                 Solicitation Number RFP-M6-Q8-02

02-00658-90      Review of Proposal for Diagnostic X-Ray                $1,224,208
4/23/02          Systems Submitted by GE Medical Systems
                 Under Solicitation Number M6-Q1-01

02-00333-92      Review of Proposal Submitted by the University            $25,034
5/1/02	          of California, San Francisco, Under Solicitation
                 Number RFP 261-0258-01, for Anesthesiology
                 Services at the Veterans Affairs Medical Center
                 San Francisco, CA

00-01421-93      Postaward Review of A-Dec Inc.’s Voluntary                                               $1,496
5/1/02           Disclosure and Refund Offer for Federal Supply
                 Schedule Contract V797P-3688k

02-00623-94      Review of Proposal Submitted by the University           $869,558
5/1/02	          of Washington Under Solicitation Number RFP
                 V663P-22-02 for Anesthesiology Services at the
                 Department of Veterans Affairs Puget Sound
                 Heath Care System, Seattle Division

02-00643-96      Review of Federal Supply Schedule Proposal               $534,310
5/2/02           Submitted by DeRoyal Industries, Inc. Under
                 Solicitation Number RFP-797-FSS-99-0025

* Management estimates are not applicable to contract reviews. Cost avoidances resulting from these reviews are
determined when the OIG receives the contracting officer’s decision on the recommendations.




                                                         74

  Report                                                            Funds Recommended
 Number/                                                               for Better Use   Questioned
Issue Date                      Report Title                         OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)

02-01542-102   Review of Medtronic Physio-Control Corporation       $1,784,430
5/23/02        Pricing Proposal Under Solicitation Number
               RFP-797-99-0025

02-01037-103   Review of Federal Supply Schedule Proposal           $2,335,428
5/24/02        Submitted by Philips Electronics of North America
               Under Solicitation Number RFP-797-FSS-99-0025


02-00011-113   Review of Proposal Submitted by Mather-              $2,318,190
6/5/02	        McClellan Women’s Health Medical Corporation,
               Under Solicitation Number RFP 261-0134-01, for
               Gynecology Services at Veterans Affairs Mather
               Medical Center and McClellan Outpatient Clinic
               Sacramento, CA

02-01036-125   Review of Proposal for Diagnostic X-Ray Systems      $2,639,838
6/25/02	       and Related Equipment, Including Installation,
               Submitted by Philips Medical Systems North
               America Company Under Solicitation Number
               M6-Q1-01

01-02822-126   Review of Federal Supply Schedule Proposal          $15,430,800
6/26/02        Submitted by Johnson & Johnson Health Care
               Systems, Inc., on Behalf of Lifescan, Inc., Under
               Solicitation Number M5-Q52D-01

00-00490-117   Verification of Endo Pharmaceuticals Inc.’s Self-                          $59,951
7/1/02         Audit Under Federal Supply Schedule Contract
               Number V797P-5286x

02-01330-129   Review of Proposal Submitted by Joslin Diabetes      $1,015,496
7/3/02         Center Under Solicitation Number 101-16-02 for
               Joslin Vision Network Telemedicine Technology

02-00900-131   Review of Siemens Medical Solutions USA, Inc.’s
7/9/02         Direct Delivery Proposal for Diagnostic X-ray
               Systems Under Solicitation Number M6-Q1-01

01-02285-132   Verification of Spacelabs Medical’s Self-Audit                            $108,782
7/9/02         Under Federal Supply Schedule Contract
               Number V797P-3181k

02-02157-135   Verification of Axcan Scandipharm Inc.’s Self-                              $1,811
7/9/02         Audit Under Federal Supply Schedule Contract
               Number V797P-5459x




                                                        75

  Report                                                          Funds Recommended
 Number/                                                             for Better Use   Questioned
Issue Date                       Report Title                      OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)

02-01421-141    Request for Preaward Review of Contra Costa
7/19/02         Regional Health Center’s Proposal in Response
                to Request for Proposal Number 261-0049-01

00-02779-143    Review of Voluntary Disclosure and Refund                               $69,774
7/19/02	        Offer Under Federal Supply Schedule Contract
                Number V797P-5629n, Awarded to Ortho
                Clinical Diagnostics Systems, Incorporated,
                a Company of Johnson & Johnson, Incorporated

02-01195-142    Review of Proposal for Computed Tomography        $2,962,755
7/22/02	        (CT) Scanners and Magnetic Resonance
                Imaging (MRI) Systems, MRI and CT Upgrades
                and Accessories, Submitted by Philips Medical
                Systems North America Company Under
                Solicitation Number M6-Q8-02

99-00087-130    Settlement Agreement, Genzyme Corporation                              $521,972
7/25/02         Under Federal Supply Schedule Contract
                Number V797P-3647k

02-01884-146    Review of Proposal for Computed Tomography
7/25/02	        (CT) Scanners and Magnetic Resonance Imaging
                (MRI) Systems, MRI and CT Upgrades and
                Accessories, Submitted by Siemens Medical
                Solutions USA, Incorporated Under Solicitation
                Number M6-Q8-02

02-00007-150    Verification of CD Acquisition Holding Inc.’s                          $700,000
8/7/02          Self-Audit Under Federal Supply Schedule
                Contract Number V797P-5140n

02-02605-151    Review of Proposal Submitted by University         $261,109
8/15/02	        Medical Associates Under Solicitation Number
                636-04-02 for Nephrology Services at
                Department of Veterans Affairs Medical
                Center Omaha, NE

02-01775-154    Review of Proposal for Diagnostic X-ray Systems    $576,777
8/27/02	        and Related Equipment, Including Installation,
                Submitted by Fujifilm Medical Systems USA,
                Inc. Under Solicitation Number M6-Q1-01

99-00109-155    Postaward Review of Invacare Corporation                               $472,693
8/27/02

00-00259-161	   Review of Federal Supply Schedule Proposal
9/5/02          Submitted by Buffalo Supply, Inc. Under
                Solicitation Number 797-FSS-99-0025


                                                        76

  Report                                                           Funds Recommended
 Number/                                                              for Better Use   Questioned
Issue Date                      Report Title                        OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)

01-00358-163   Review of Ernst & Young LLP’s Analysis of                                $586,484
9/10/02	       Overcharges on J&J Orthopaedic Inc.’s Federal
               Supply Schedule Contract V797P-3642j

ADMINISTRATIVE INVESTIGATIONS

01-02888-84    Administrative Investigation, Acceptance of
4/8/02	        Pharmaceutical Samples Issue, VA Medical
               Center Chillicothe, OH

02-00136-85    Administrative Investigation, Improper Promotion
4/15/02        Issue, VA Medical Center West Palm Beach, FL

02-01779-109   Administrative Investigation, Leadership Issues
6/3/02	        Relating to Cleanliness and Sanitation
               Conditions, Kansas City VA Medical Center
               and VISN 15, Kansas City, MO

01-02888-114   Administrative Investigation, Acceptance of
6/7/02         Pharmaceutical Samples Issue, VHA Central Office

01-02807-158   Administrative Investigation - Physician Time and
8/30/02	       Attendance Issue, Central Texas Veterans Health
               Care System Temple, TX

HEALTHCARE INSPECTIONS

01-00026-18    Healthcare Inspection, Controlled Substances
4/16/02	       Prescribed to Patients in Veterans Health
               Administration Mental Health and Behavioral
               Sciences Programs

02-00824-95    Healthcare Inspection, Patient Care Issues,
5/7/02	        William Jennings Bryan Dorn Veterans Affairs
               Medical Center Columbia, SC

01-02863-98    Healthcare Inspection, Patient Care Issues,
5/8/02	        Richard L. Roudebush VA Medical Center
               Indianapolis, IN

02-00249-100   Healthcare Inspection, Customer Service and
5/14/02	       Personnel Matters at the Department of Veterans
               Affairs Community-Based Outpatient Clinic
               Prestonsburg, KY

02-01331-110   Healthcare Inspection, Quality of Care Issues,
6/3/02	        Department of Veterans Affairs Medical Health
               Care System, Perry Point, MD


                                                        77

  Report                                                              Funds Recommended
 Number/                                                                 for Better Use   Questioned
Issue Date                      Report Title                           OIG     Management   Costs

HEALTHCARE INSPECTIONS (Cont’d)

01-00026-101   Healthcare Inspection, Veterans Health
6/10/02        Administration Pain Management Initiative

02-00838-118   Healthcare Inspection, Quality of Care Issues
6/12/02        Veterans Affairs Healthcare System, El Paso, TX

02-00705-121   Employee Conduct Issues, Central Arkansas
6/13/02        Veterans Healthcare System, Little Rock, AR

02-00821-120   Healthcare Inspection, Missing Patient Issue
6/14/02        VA Greater Los Angeles Healthcare System,
               Los Angeles, CA

02-00130-119   Healthcare Inspection, Patient Treatment Issues
6/17/02        Northern Arizona VA Health Care System,
               Prescott, AZ

01-00886-124   Healthcare Inspection, National Practitioner
6/25/02        Data Bank Reporting Issues, Department of
               Veterans Affairs Medical Center, Dayton, OH

01-00127-128   Healthcare Inspection, Patient Care and
7/1/02         Management Issues, Department of
               Veterans Affairs Medical Center, Northport, NY

02-00279-138   Healthcare Inspection, Patient Treatment and
7/16/02        Employee Behavior Issues, Department of
               Veterans Affairs Medical Center West Palm Beach, FL

01-02864-137   Healthcare Inspection, Discharge Planning
7/18/02        Issues Veterans Affairs Medical Center, Cheyenne, WY

01-01512-139   Healthcare Inspection, Alleged Inappropriate
7/18/02        Transfers of Patients in Veterans Integrated
               Service Network 12

01-01090-147   Healthcare Inspection, Patient Care and
8/5/02         Management Issues Central Alabama Veterans
               Health Care System,Tuskegee, AL

02-02121-159   Healthcare Inspection, Patient Anesthesia Care
9/3/02         Issues, Southern Arizona VA Health Care
               System, Tucson, AZ

02-02160-160   Healthcare Inspection, Work Environment Issue,
9/4/02         Southern Arizona VA Health Care System,Tucson, AZ




                                                       78

  Report                                                              Funds Recommended
 Number/                                                                 for Better Use   Questioned
Issue Date                      Report Title                           OIG     Management   Costs

HEALTHCARE INSPECTIONS (Cont’d)

02-02108-162   Healthcare Inspection, Review of Prescription
9/9/02         Practices at VA Medical Centers, West Palm
               Beach and Miami, Florida

02-01837-165   Healthcare Inspection, Management of Patient
9/11/02        Funds VA Puget South Health Care System, Seattle, WA

01-02036-167   Healthcare Inspection, Cardiac Catheterization
9/17/02        Laboratory Issue, Central Arkansas Veterans
               Healthcare System, Little Rock, AR

02-02369-168   Healthcare Inspection, Quality Care Issues
9/18/02        Missouri Veterans Home, St. Louis, MO

TOTAL:                         95 Reports                       $223,186,828   $174,656,395 $4,345,402




                                                       79

80

                                                 APPENDIX B


                      INSPECTOR GENERAL ACT REPORTING REQUIREMENTS

The table below cross-references the specific pages in this semiannual report to the reporting requirements
where they are prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended by the
Inspector General Act Amendments of 1988 (Public Law 100-504), and the Omnibus Consolidated
Appropriations Act of 1997 (Public Law 104-208).

 IG Act
References                                 Reporting Requirement                                        Page

Section 4 (a) (2)      Review of legislation and regulations                                              58

Section 5 (a) (1)      Significant problems, abuses, and deficiencies                                   1-66

Section 5 (a) (2)      Recommendations with respect to significant problems, abuses, and                1-66
                       deficiencies

Section 5 (a) (3)      Prior significant recommendations on which corrective action has not been          82
                       completed                                                                       (App. B)

Section 5 (a) (4)      Matters referred to prosecutive authorities and resulting prosecutions and         i
                       convictions

Section 5 (a) (5)      Summary of instances where information was refused                                82
                                                                                                       (App. B)

Section 5 (a) (6)      List of audit reports by subject matter, showing dollar value of questioned     71-79
                       costs and recommendations that funds be put to better use                       (App. A)

Section 5 (a) (7)      Summary of each particularly significant report                                   i to v

Section 5 (a) (8)      Statistical tables showing number of reports and dollar value of questioned        83
                       costs for unresolved, issued, and resolved reports                              (Table 1)

Section 5 (a) (9)      Statistical tables showing number of reports and dollar value of                   84
                       recommendations that funds be put to better use for unresolved, issued, and     (Table 2)
                       resolved reports

Section 5 (a) (10)	    Summary of each audit report issued before this reporting period for which no      82
                       management decision was made by end of reporting period                         (App. B)

Section 5 (a) (11)     Significant revised management decisions                                           97
                                                                                                       (App. B)

Section 5 (a) (12)	    Significant management decisions with which the Inspector General is in            82
                       disagreement                                                                    (App. B)

Section 5 (a) (13)	    Information described under section 05(b) of the Federal Financial                 82
                       Management Improvement Act of 1996 (Public Law 104-208)                         (App. B)



                                                            81

           INSPECTOR GENERAL ACT REPORTING REQUIREMENTS (CONT’D)

Prior Significant Recommendations Without Corrective Action and Significant Management
Decisions

The IG Act requires identification of: (i) prior significant recommendations on which corrective action has not
been completed, (ii) significant revised management decisions, and (iii) significant management decisions with
which the OIG is in disagreement. During this 6-month period, there were no reportable instances under the
Act.

Obtaining Required Information or Assistance

The IG Act requires the OIG to report instances where access to records or assistance requested was
unreasonably refused, thus hindering the ability to conduct audits or investigations. During this 6-month
period, there were no reportable instances under these sections of the Act.

Federal Financial Management Improvement Act of 1996 (Public Law 104-208)

The IG Act requires the OIG to report instances and reasons when VA has not met the intermediate target dates
established in the VA remediation plan to bring VA’s financial management system into substantial compliance
with the requirements of Public Law 104-208. The OIG has reported in our Report of the Audit of the
Department of Veterans Affairs Consolidated Financial Statements for Fiscal Years 2001 and 2000 (Report
Number 01-01463-69, dated February 27, 2002), that corrective action dates in the VA remediation plan are
all in the future.

Reports Issued Before this Reporting Period Without a Management Decision Made by the
end of the Reporting Period

The IG Act requires a summary of audit reports issued before this reporting period for which no management
decision was made by the end of the reporting period. There were no internal OIG reports unresolved for over 6
months as of the end of this reporting period. The following lists the contract review unresolved reports for
which a contracting officer decision has not been made for over 6 months.

        Review of FSS Proposal Submitted by Omnicell, Inc., Under Solicitation Number RFP-797-FSS-99-
        0025; Report No. 01-00460-39; Issued 1/31/01.

        Review of Proposal Submitted by Spacelabs Medical, Under Solicitation Number RFP-797-FSS-99-
        0025, for Medical Equipment and Supplies; Report No. 01-01584-136; Issued 9/14/01.

These reports will be closed after the OIG receives the contracting officer price negotiation memorandum
(PNM) following contract awards. The PNMs for these reviews are anticipated by December 2002.

Statistical Tables 1 and 2 Showing Number of Unresolved Reports

As required by the IG Act, Tables 1 and 2 provide statistical summaries of unresolved and resolved reports for
this reporting period. Specifically they provide summaries of the number of OIG reports with potential monetary
benefits that were unresolved at the beginning of the period, the number of reports issued and resolved during the
period with potential monetary benefits, and the number of reports with potential monetary benefits that remained
unresolved at the end of the period.




                                                        82

TABLE 1 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS


This table provides the resolution status information required by the IG Act. It summarizes the reports with
questioned costs.


                                                                    N U MB ER         QU ESTION ED
                     R ESOLU TION STATU S                               OF               C OSTS
                                                                    R EPOR TS          (In Millions)
     No management deci si on by 3/31/02                                    0                   $0
     Issued duri ng reporti ng peri od                                    10                    $4.3
           Total Inventory This Period                                    10                    $4.3

     Management deci si on duri ng reporti ng peri od
         D i sallowed costs (agreed to by management)                     10                    $4.3
         Allowed costs (not agreed to by management)                        0                   $0
           Total Management D ecisions This Period                        10                    $4.3
           Total C arried Over to N ext Period                              0                   $0



Definitions:

• Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG recommends
VA pursue collection, including Government property, services or benefits provided to ineligible recipients;
recommended collections of money inadvertently or erroneously paid out; and recommended collections or
offsets for overcharges or ineligible costs claimed.
         For contract review reports, it is contractor costs OIG recommends be disallowed by the contracting
officer or other management official. Costs normally result from a finding that expenditures were not made in
accordance with applicable laws, regulations, contracts, or other agreements; or a finding that the expenditure
of funds for the intended purpose was unnecessary or unreasonable.

• Disallowed Costs are costs that contracting officers or management officials have determined should not
be charged to the Government and which will be pursued for recovery; or on which management has agreed
that VA should bill for property, services, benefits provided, monies erroneously paid out, overcharges, etc.
Disallowed costs do not necessarily represent the actual amount of money that will be recovered by the
Government due to unsuccessful collection actions, appeal decisions, or other similar actions.

• Allowed Costs are amounts on which contracting officers or management officials have determined that
VA will not pursue recovery of funds.




                                                       83

TABLE 2 – RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

This table provides the resolution status information required by the IG Act. It summarizes the reports with
recommended funds to be put to better use by management.

                                                                                 R EC OMMEN D ED
                                                                N U MB ER
                                                                                FU N D S TO B E P U T
                   R ESOLU TION STATU S                             OF
                                                                                 TO B E TTE R U S E
                                                                R EPOR TS
                                                                                      (In Millions)

    No management deci si on by 3/31/02                               13                     $5.9
    Issued duri ng reporti ng peri od                                 28                  $223.2
          Total Inventory This Period                                 41                  $229.1

    Management deci si ons duri ng reporti ng peri od
        Agreed to by management                                       28                  $203.2
        Not agreed to by management                                    5                     $5.6
          Total Management D ecisions This Period                     33                  $208.8

          Total C arried Over to N ext Period                          8                    $20.3



Definitions:

• Recommended Better Use of Funds
         For audit reports, it represents a quantification of funds that could be used more efficiently if
management took actions to complete recommendations pertaining to deobligation of funds, costs not incurred
by implementing recommended improvements, and other savings identified in audit reports.
         For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional evidence
supporting the costs is provided. Questioned costs normally result from findings such as a failure to comply
with regulations or contract requirements, mathematical errors, duplication of costs, proposal of excessive
rates, or differences in accounting methodology. Unsupported costs result from a finding that inadequate
documentation exists to enable the auditor to make a determination concerning allowability of costs proposed.

• Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds
that will be used more efficiently based on management’s agreement to implement actions, or the amount
contracting officers disallowed in negotiations, including the amount associated with contracts that were not
awarded as a result of audits.

• Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.




                                                      84

                                                APPENDIX C


                                     OIG OPERATIONS PHONE LIST

Investigations


Central Office Investigations Washington, DC .................................................... (202) 565-7702

Northeast Field Office (51NY) New York, NY ...................................................... (212) 807-3444

      Boston Resident Agency (51BN) Bedford, MA .............................................. (781) 687-3138

      Newark Resident Agency (51NJ) Newark, NJ ................................................. (973) 297-3338

      Pittsburgh Resident Agency (51PB) Pittsburgh, PA ......................................... (412) 784-3818

      Washington Resident Agency (51WA) Washington, DC .................................. (202) 530-9191

Southeast Field Office (51SP) Bay Pines, FL ....................................................... (727) 398-9559

      Atlanta Resident Agency (51AT) Atlanta, GA ................................................. (404) 929-5950

      Columbia Resident Agency (51CS) Columbia, SC .......................................... (803) 695-6707

      Nashville Resident Agency (51NV) Nashville, TN .......................................... (615) 736-7200

      West Palm Beach Resident Agency (51WP) West Palm Beach, FL ................. (561) 882-7720

Central Field Office (51CH) Chicago, IL ............................................................. (708) 202-2676

      Denver Resident Agency (51DV) Denver, CO ................................................ (303) 331-7673

      Cleveland Resident Agency (51CL) Cleveland, OH......................... (440) 526-3030, ext.6726

      Kansas City Resident Agency (51KC) Kansas City, KS ................................... (913) 551-1439

South Central Field Office (51DA) Dallas, TX ..................................................... (214) 655-6022

      Houston Resident Agency (51HU) Houston, TX ............................................ (713) 794-3652

      New Orleans Resident Agency (51NO) New Orleans, LA .............................. (504) 619-4340

Western Field Office (51LA) Los Angeles, CA ..................................................... (310) 268-4268

      Phoenix Resident Agency (51PX) Phoenix, AZ ............................................... (602) 640-4684

      San Diego Resident Agency (51SD), San Diego, CA ...................................... (619) 400-5326

      San Francisco Resident Agency (51SF) Oakland, CA ..................................... (510) 637-1074

      Seattle Resident Agency (51SE) Seattle, WA ...................................... (206) 220-6654, ext 31





                                                          85

                              OIG OPERATIONS PHONE LIST (CONT’D)


Healthcare Inspections


Central Office Operations Washington, DC ......................................................... (202) 565-8305

Healthcare Regional Office Washington (54DC) Washington, DC .................... (202) 565-8452

Healthcare Regional Office Atlanta (54AT) Atlanta, GA .................................... (404) 929-5961

Healthcare Regional Office Bedford (54BN) Bedford, GA ................................. (718) 687-2134

Healthcare Regional Office Chicago (54CH) Chicago, IL .................................. (708) 202-2672

Healthcare Regional Office Dallas (54DA) Dallas, TX ........................................ (214) 655-6000

Healthcare Regional Office Los Angeles (54LA) Los Angeles, CA ..................... (310) 268-3005




Audit

Central Office Operations Washington, DC ......................................................... (202) 565-4625

Central Office Operations Division (52CO) Washington, DC ............................ (202) 565-4434

Contract Review and Evaluation Division (52C) Washington, DC ................... (202) 565-4818

Financial Audit Division (52CF) Washington, DC .............................................. (202) 565-7913

Operations Division Atlanta (52AT) Atlanta, GA ................................................ (404) 929-5921

Operations Division Bedford (52BN) Bedford, MA ............................................ (781) 687-3120

Operations Division Chicago (52CH) Chicago, IL .............................................. (708) 202-2667

Operations Division Dallas (52DA) Dallas, TX .................................................... (214) 655-6000

      Austin Residence (52AU) Austin, TX .............................................................. (512) 326-6216

Operations Division Kansas City (52KC) Kansas City, MO ............................. (816) 426-7100

Operations Division Los Angeles (52LA) Los Angeles, CA ................................. (310) 268-4335

Operations Division Seattle (52SE) Seattle, WA .................................................. (206) 220-6654





                                                           86

                                APPENDIX D


                                    GLOSSARY


A&MM      Acquisition and Materiel Management

BDN       Benefits Delivery Network

C&P       Compensation and Pension

CAP       Combined Assessment Program

CAT       Computerized Axial Tomography

CFS       Consolidated Financial Statements

CIO       Chief Information Officer

CMOP      Consolidated Mail Outpatient Pharmacies

CRNA      Certified Registered Nurse Anesthetist

DAS       Data Analysis Section

DIC       Dependency and Indemnity Compensation

DoD       Department of Defense

FBI       Federal Bureau of Investigation

FDA       Food and Drug Administration

FOIA/PA   Freedom of Information Act/Privacy Act

FSS       Federal Supply Schedule

FTE       Full Time Equivalent

FY        Fiscal Year

HEC       Health Eligibility Center

HHA       Home Health Agency

HRA       Office of Human Resource and Administration

HUD       Department of Housing and Urban Development

IG        Inspector General

I&T       Office of Information and Technology

IT        Information Technology

IVM       Income Verification Match

MCCF      Medical Care Cost Funds

MCI       Master Case Index

MGT       Office of Management

NCA       National Cemetery Administration

NHCU      Nursing Home Care Unit

NPDB      National Practitioner Data Bank

OGC       Office of General Counsel

OHI       Office of Healthcare Inspections

OIG       Office of Inspector General

OMB       Office of Management and Budget

P&P       Office of Policy and Planning

PNM       Price Negotiation Memorandum

SSA       Social Security Administration

U.S.      United States

UME       Unreimbursed Medical Expense

VA        Department of Veterans Affairs

VAMC      Veterans Affairs Medical Center

VAM&ROC   Veterans Affairs Medical & Regional Office Center

VARO      VA Regional Office

VBA       Veterans Benefits Administration

VHA       Veterans Health Administration

VISN      Veterans Integrated Service Network





                                          87

Copies of this report are available to the public. Written requests should be sent to:

          Office of the Inspector General (53B)
          Department of Veterans Affairs
          810 Vermont Avenue, NW
          Washington, DC 20420


The report is also available on our Web Site:

          http://www.va.gov/oig/53/semiann/reports.htm

For further information regarding VA’s OIG, you may call 202 565-8620.




Cover photo of Illinois Korean War Memorial

Oak Ridge Cemetery

Springfield, IL by

Joseph M. Vallowe, Esq.

VA OIG, Washington, DC


                                               88
Help VA’s Secretary ensure the integrity of departmental
operations by reporting suspected criminal activity, waste, or
abuse in VA programs or operations to the Inspector General
Hotline.


            (CALLER CAN REMAIN ANONYMOUS)




To Telephone:          (800) 488 - 8244
                       (800) 488 - VAIG
To FAX:                (202) 565 - 7936

To Send
Correspondence:        Department of Veterans Affairs
                       Inspector General Hotline (53E)
                       P.O. Box 50410
                       Washington, DC 20091-0410

Internet Homepage: http://www.va.gov/oig/hotline/hotline.htm

E-mail Address:        vaoighotline@mail.va.gov




                  Department of Veterans Affairs
                    Office of Inspector General
                  Semiannual Report to Congress

                April 1, 2002 - September 30, 2002
